<html>
<title> - QUESTIONS, ANSWERS, AND PERSPECTIVES ON THE CURRENT STATE OF AIRLINE TRAVEL</title>
<body><pre>[Senate Hearing 115-154]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 115-154

 QUESTIONS, ANSWERS, AND PERSPECTIVES ON THE CURRENT STATE OF AIRLINE 
                                 TRAVEL

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

















                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-641 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

ROY BLUNT, Missouri, Chairman        MARIA CANTWELL, Washington, 
ROGER F. WICKER, Mississippi             Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
SHELLEY CAPITO, West Virginia        TAMMY BALDWIN, Wisconsin
CORY GARDNER, Colorado               TAMMY DUCKWORTH, Illinois
TODD YOUNG, Indiana                  MAGGIE HASSAN, New Hampshire





































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 4, 2017......................................     1
Statement of Senator Blunt.......................................     1
Statement of Senator Cantwell....................................     2
    Letter dated May 3, 2017 to Hon. Roy Blunt and Hon. Maria 
      Cantwell from Carl Blake, Associate Executive Director, 
      Government Relations, Paralyzed Veterans of America........     2
Statement of Senator Nelson......................................     6
    Article, dated May 2, 2017, from CNN Money entitled 
      ``American Airlines is cutting more legroom in economy 
      class''....................................................     7
Statement of Senator Wicker......................................    47
Statement of Senator Klobuchar...................................    49
Statement of Senator Blumenthal..................................    51
Statement of Senator Thune.......................................    53
Statement of Senator Inhofe......................................    57
Statement of Senator Markey......................................    59
Statement of Senator Hassan......................................    61
Statement of Senator Heller......................................    62
Statement of Senator Cortez Masto................................    65
Statement of Senator Capito......................................    67
Statement of Senator Duckworth...................................    69

                               Witnesses

Ginger Evans, Commissioner, Chicago Department of Aviation.......    10
    Prepared statement...........................................    11
Scott Kirby, President, United Airlines..........................    13
    Prepared statement...........................................    14
Sharon Pinkerton, Senior Vice President, Legislative and 
  Regulatory Policy, Airlines for America........................    27
    Prepared statement...........................................    28
Sara Nelson, International President, Association of Flight 
  Attendants--CWA, AFL-CIO.......................................    30
    Prepared statement...........................................    32
Sally Greenberg, Executive Director, National Consumers League...    36
    Prepared statement...........................................    38

                                Appendix

Response to written questions submitted to Scott Kirby by:
    Hon. Bill Nelson.............................................    73
    Hon. Cory Booker.............................................    74
    Hon. Tammy Baldwin...........................................    74
    Hon. Tammy Duckworth.........................................    75
    Hon. Catherine Cortez Masto..................................    77
Response to written questions submitted to Sharon Pinkerton by:
    Hon. Bill Nelson.............................................    77
    Hon. Cory Booker.............................................    78
    Hon. Tammy Duckworth.........................................    79
    Hon. Catherine Cortez Masto..................................    80
Response to written questions submitted to Sara Nelson by:
    Hon. Catherine Cortez Masto..................................    81
Response to written questions submitted to Sally Greenberg by:
    Hon. Tammy Baldwin...........................................    82
    Hon. Catherine Cortez Masto..................................    83
 
                  QUESTIONS, ANSWERS, AND PERSPECTIVES
                        ON THE CURRENT STATE OF
                             AIRLINE TRAVEL

                              ----------                              


                         THURSDAY, MAY 4, 2017

                               U.S. Senate,
   Subcommittee on Aviation Operations, Safety and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:35 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Subcommittee, presiding.
    Present: Senators Blunt [presiding], Thune, Wicker, 
Fischer, Sullivan, Heller, Inhofe, Capito, Gardner, Nelson, 
Cantwell, Klobuchar, Blumenthal, Markey, Booker, Peters, 
Duckworth, Hassan, and Cortez Masto.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. The hearing will come to order.
    We're certainly pleased to have our witnesses today and 
members of the Committee. We're going to all try to minimize 
the time we spend talking so we can maximize the questions and 
what we can learn from those.
    It is certainly impossible to ignore the public outcry with 
incidents that have involved passengers as recently, I believe, 
even as yesterday. One of the most widely reported incidents, 
of course, was at Chicago with United Flight 3411. Lots of 
lessons to be learned, and I'm sure we're going to hear what 
some of those lessons learned, both with the airport and the 
airline and the industry, are today in looking at what 
happened.
    Senator Cantwell and I, along with Chairman Thune and 
Senator Nelson, sent an immediate letter, and that letter said 
the last thing a paying airline customer should expect is to be 
physically taken off an airline. The purpose of today's hearing 
is to follow up on the letters we sent, the responses we got, 
and really to find out what went wrong and what we are going to 
do to be sure that doesn't happen in the future.
    This is the year where FAA reauthorization needs to occur, 
between now and September the 30th. Part of this hearing is to 
determine what's going to be taken care of without the Congress 
and what needs to be taken care of in the Federal law itself.
    So I'm going to turn to Senator Cantwell for her opening 
comments and then we'll go to all of you.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and before I 
start, I just want to enter into the record a letter from the 
Paralyzed Veterans of America discussing the challenges they 
have faced as disabled passengers when they fly, if I could do 
that.
    Senator Blunt. Without objection.
    [The information referred to follows:]

                              Paralyzed Veterans of America
                                        Washington, DC, May 3, 2017

Hon. Roy Blunt,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Aviation Operations, Safety, and Security,
Washington, DC.

Hon. Maria Cantwell,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Aviation Operations, Safety, and Security,
Washington, DC.

Dear Chairman Blunt and Ranking Member Cantwell:

    Paralyzed Veterans of America respectfully requests to submit this 
letter for the record of the May 4, 2017, Senate Commerce, Science, and 
Transportation Committee, Subcommittee on Aviation Operations, Safety, 
and Security hearing, ``Questions, Answers, and Perspectives on the 
Current State of Airline Travel.'' One of Paralyzed Veteran's core 
missions is to advocate for the civil rights of our members. As a 
result, we are strongly committed to improving the air travel 
experience of all passengers with disabilities.
    The passage of the Air Carrier Access Act (ACAA) in 1986 broadly 
established the civil right of people with disabilities to access air 
travel. The ACAA was the result of a U.S. Supreme Court decision in 
Department of Transportation vs. Paralyzed Veterans of America, 477 
U.S. 597 (1986). In this case, the Court held that air carriers were 
not subject to section 504 of the Rehabilitation Act of 1973, as 
amended, unless they received direct Federal financial assistance. 
Following this decision, Paralyzed Veterans and the larger disability 
community turned its attention to Congress and advocated for a statute 
that would end disability-based discrimination in air travel.
    The ACAA is a civil rights law that protects not only members of 
Paralyzed Veterans, veterans with catastrophic disabilities, but also 
the rights of all individuals living with disabilities to access air 
travel. Prior to passage of the ACAA, people with disabilities were 
routinely forced to travel with an attendant at their own expense, 
whether they needed the assistance of an attendant or not; required to 
sit on a blanket for fears that they might soil the seat; or refused 
passage. The ACAA has provided passengers with disabilities improved 
consistency and increased access to air travel. Through this law, 
passengers with disabilities are provided the opportunity to preboard, 
if additional time or assistance is required in boarding the aircraft; 
timely assistance in boarding and deplaning from trained air carrier 
and contract personnel; accessible in-flight communications; stowage of 
assistive devices; and seating accommodations.
    Although access for passengers with disabilities has improved since 
the passage of the ACAA, disability-related problems in air travel 
remain widespread. Members of Paralyzed Veterans routinely incur bodily 
harm in boarding and deplaning aircraft; and their wheelchairs, 
particularly power wheelchairs, are often damaged while stowed. In 
addition, members have expressed difficulty in receiving appropriate 
seating accommodations on aircraft and often encounter air carrier 
personnel and contractors who are not appropriately trained in 
assisting passengers with catastrophic disabilities. Consequently, some 
of our members and other individuals with disabilities choose to drive 
long distances rather than risk injury or damage to their mobility 
devices.
    The difficulties encountered by passengers with disabilities on a 
regular basis, across airlines, often have profound consequences. For 
example, in the March 2016 issue of Paralyzed Veterans' PN Magazine, 
Paralyzed Veterans of America Gateway Chapter President Stan Brown 
recounted a 2009 air travel incident that resulted in a visit to the 
emergency room. The incident reflects the problems that occur when air 
carriers and their contractors do not listen to passengers with 
disabilities:

        ``They started to unstrap my top from the aisle chair. I've got 
        no control, and they don't understand that. . . . I kept 
        saying, `Don't do that. I'll fall out.' They did it anyway, and 
        I tumbled out of the chair right in the front of the plane.''--
        Stan Brown \1\
---------------------------------------------------------------------------
    \1\ Jennifer Best, Security Rules, PN, March 2016, at 26, 29.

    Fortunately, Mr. Brown did not sustain major injuries from the 
fall.
    The consequences of air travel problems are of course not unique to 
people who use wheelchairs. People who are deaf, blind, autistic, and 
those with other disabilities also have trouble accessing needed 
accommodations. Not receiving proper guide assistance or announcements 
can mean missed flights and opportunities.
    Passengers who have disability-related problems may file complaints 
directly with air carriers. In 2015, domestic and foreign air carriers 
reported that passengers filed 30,830 such complaints \2\ This 
represents a nearly twelve percent increase over 2014 despite a 4.75 
percent increase in enplanements.\3\ U.S. air carriers account for the 
vast majority of disability-related complaints filed (26,401).\4\ Top 
complaints with U.S. carriers for passengers with paraplegia or 
quadriplegia include failure to provide assistance and seating 
accommodations.\5\ In addition, DOT reported receiving 862 complaints 
related to disability in the most recently completed calendar year.\6\
---------------------------------------------------------------------------
    \2\ Department of Transportation, Annual Report on Disability-
Related Air Travel Complaints Received During Calendar Year 2015, 
https://www.transportation.gov/sites/dot.gov/files/docs/
2015%20Summary%20Report.pdf.
    \3\ Id.
    \4\ Id.
    \5\ Department of Transportation, 2015 Summary Totals for U.S. 
Carriers (Appendix B), https://www.transportation.gov/sites/dot.gov/
files/docs/2015%20Summary%20Totals%20for%
20US%20Carriers.pdf.
    \6\ Department of Transportation, Air Travel Consumer Report (Feb. 
2017), https://www.trans
portation.gov/sites/dot.gov/files/docs/2017FebruaryATCR.pdf.
---------------------------------------------------------------------------
    Under the ACAA, DOT must investigate every complaint filed with the 
agency. DOT remedies do not allow passengers to receive monetary 
damages or other relief. The agency can issue cease and desist orders 
and civil fines. Civil fines are often invoked only in situations 
involving a pattern or practice of discrimination. Unlike most civil 
rights laws, the ACAA lacks a guaranteed private right of action. Thus, 
people with disabilities generally receive little resolution to 
complaints.
    People with disabilities, including those with catastrophic 
disabilities, must have improved access to safe and efficient air 
travel. Otherwise, people with disabilities will continue to be left 
behind, and unable to compete in today's job market or enjoy the 
opportunities available to other Americans. It is simply unacceptable 
that catastrophically disabled veterans may be unable to safely travel 
to receive needed health care, participate in recreation, or visit 
family members due to concerns for their health, safety, and dignity.
    Paralyzed Veterans has worked for more than three decades to 
improve the air travel experience for our members and all passengers 
with disabilities. Recently, we have worked with partners in the 
disability community to develop suggested reforms to further this goal. 
Consequently, we were pleased that disability-related provisions were 
included in both the House and Senate versions of the FAA 
Reauthorization in the 114th Congress.
    The Aviation Innovation, Reform, and Reauthorization Act of 2016 
(H.R. 4441), included a requirement for DOT to move ahead with issuing 
pending regulations, including those governing access to lavatories on 
single-aisle aircraft, the definition of a service animal, and seating 
accommodations. The Federal Aviation Administration Reauthorization Act 
of 2016 (S. 2658), included four provisions directly aimed at the 
concerns of passengers with disabilities. The first provision involved 
a requirement for the Government Accountability Office (GAO) to review 
ACAA training policies. The second provision involved dissemination of 
best practices to improve airport accessibility. The third provision 
addressed the feasibility of in cabin wheelchair restraint systems. The 
final provision concerned the creation of an advisory committee on the 
air travel needs of passengers with disabilities.
    We were pleased that the FAA Extension, Safety, and Security Act of 
2016 (Public Law 114-190) included two of these provisions. 
Specifically, Section 2107 required GAO to submit a report to Congress 
about air carrier personnel and contractor training programs, including 
variations among policies between air carriers, how frequently since 
2005 DOT has requested corrective action following reviewing a training 
policy, and the actions taken in response. After the report is issued, 
DOT must develop and disseminate best practices that will improve 
training. We are pleased that GAO is currently engaged in completing 
this requirement and has consulted with disability stakeholders 
regarding its efforts.
    Section 2108 of the FAA Extension requires DOT to issue a 
Supplemental Notice of Proposed Rulemaking for certain pending ACAA 
regulations by July 2017. These regulations include whether accessible 
lavatories should be required on single-aisle aircraft of a certain 
size, seating accommodations, and service animals. This requirement is 
particularly important in light of the outcome of a 2016 negotiated 
rulemaking conducted by DOT.
    In May 2016, DOT convened the Advisory Committee on Accessible Air 
Transportation (ACCESS Advisory Committee) to conduct a negotiated 
rulemaking.\7\ The disability community was represented by a diverse 
group of organizations including Paralyzed Veterans, American Council 
of the Blind, National Association of the Deaf, National Council on 
Independent Living, National Disability Rights Network, and National 
Federation of the Blind. The issues included in the negotiation 
involved in-flight entertainment and communications, accessible 
lavatories on single-aisle aircraft, and the definition of a service 
animal.
---------------------------------------------------------------------------
    \7\ ACCESS Advisory Committee, https://www.transportation.gov/
access-advisory-committee.
---------------------------------------------------------------------------
    After seven months of negotiations between air carriers, original 
equipment manufacturers, the disability community, researchers, and 
other allied groups, a consensus was reached on access to lavatories on 
single-aisle aircraft and in-flight entertainment. We expect DOT to 
move forward in issuing regulations in line with these agreements, 
later this year. We also expect DOT to issue proposed rules governing 
the remaining issues covered by Section 2108 of Public Law 114-190.
    These regulations, along with other current and pending ACAA 
regulations, are vital to the health and safety of veterans and other 
passengers with disabilities. We were dismayed by DOT's recent decision 
to allow a one-year delay in the requirement for domestic air carriers 
to report the number of wheelchairs and scooters enplaned and deplaned 
on their aircraft.\8\ Under the rule, air carriers will also be 
required to report the number of assistive devices that were 
``mishandled.'' This decision was made without a formal request for 
stakeholder comment on the delay. We were pleased that members of this 
Subcommittee formally expressed their concerns about the delay directly 
to Secretary Chao.
---------------------------------------------------------------------------
    \8\ Reporting of Data for Mishandled Baggage and Wheelchairs and 
Scooters Transported in Aircraft Cargo Compartments; Extension of 
Compliance Date, 82 Fed. Reg. 14,437 (Mar. 21, 2017).
---------------------------------------------------------------------------
    In addition to moving forward with and protecting vital ACAA 
regulations, passengers with disabilities need Congress to act to 
improve the ACAA and the air travel process. We hope that the remaining 
provisions included in S. 2658 will be included in the Senate's 2017 
FAA Reauthorization. These provisions which address airport 
accessibility, the feasibility of in-cabin wheelchair restraints, and 
the creation of an advisory committee addressing the experience of 
passengers with disabilities are common-sense measures to improve air 
travel for people with disabilities.
    We further believe that additional provisions should be included in 
the Senate's Reauthorization to advance access for passengers with 
disabilities. Specifically, we propose harmonizing aspects of the ACAA 
statute with definitions and protections included in the Americans with 
Disabilities Act (ADA), as amended. This includes the definition of 
disability and prohibited discriminatory actions.
    One of the most important changes needed to the ACAA statute 
concerns enforcement. The statute must be amended to require DOT to 
refer alleged violations that are matters of general importance to the 
Department of Justice. Furthermore, the statute must be amended to 
include a private right of action.
    Unlike other civil rights laws, including section 504 of the 
Rehabilitation Act of 1973, as amended, and the ADA, the ACAA does not 
explicitly allow people with disabilities to enforce their civil rights 
via the court system, if needed. Prior to 2001, some courts had held 
that the ACAA allowed for a private right of action. Following the U.S. 
Supreme Court's decision in Alexander v. Sandoval, 532 U.S. 275 
(2001),\9\ however, the Second,\10\ Tenth,\11\ and Eleventh \12\ 
Circuits have ruled that there is no private right of action under the 
ACAA. Passengers with disabilities must seek remedies, if any, that may 
be available under state law.
---------------------------------------------------------------------------
    \9\ In Sandoval, the Court held that a private right of action 
should not be implied absent obvious congressional intent.
    \10\ Lopez v. Jet Blue Airways, 662 F.3d 593 (2d Cir. 2011).
    \11\ Boswell v. Skywest Airlines, Inc., 361 F.3d 1263 (10th Cir. 
2004).
    \12\ Love v. Delta Airlines, 310 F.3d 1347 (11th Cir. 2002).
---------------------------------------------------------------------------
    We also support improving accessibility within aircraft for people 
with disabilities. Unlike other forms of transportation, aircraft have 
few accessibility features for people with disabilities, including 
those who are deaf, blind, or have cognitive or mobility impairments. 
Even if a person with a disability is able to choose a seat that best 
meets his or her needs, neither the seat nor the path to reach the seat 
meet any accessibility standards, other than a requirement for lowering 
of armrests on some seats.
    In order for a person with a permanent disability such as a spinal 
cord injury to board or deplane an aircraft, he or she has to be 
transferred from his or her customized wheelchair to an aisle chair 
prior to entering the aircraft. This process may involve one or more 
contractors or airline employees physically lifting and maneuvering the 
passenger onto the aisle chair. Once strapped into the aisle chair, the 
passenger is then pulled backwards onto the aircraft and down the aisle 
to his or her seat. Within the confines of the cabin, the individual is 
then transferred to an aircraft passenger seat, where he or she will 
most likely remain until the process is repeated when the individual 
departs the aircraft.
    Until such time as aircraft are fully accessible and passengers 
with disabilities are able to travel by air without any more difficulty 
than any other passenger, we must improve the assistance and service 
they receive. Thus, we propose a requirement for hands on training for 
personnel who provide physical assistance in moving passengers with 
disabilities. This specifically includes personnel who are assisting in 
transfers to aisle chairs and aircraft passenger seats. Although 
current regulations require training to proficiency, the experience of 
Paralyzed Veterans members shows that too many of these personnel are 
not sufficiently trained. We also support increased civil fines for 
damage to wheelchairs or other mobility aids or injury to passengers.
    All passengers with disabilities have the right to a dignified air 
travel experience. Thus, we propose that the Secretary of 
Transportation establish an Airline Passengers with Disabilities Bill 
of Rights using plain language to describe the basic civil rights and 
responsibilities of air carriers, their contractors, and people with 
disabilities under the ACAA. These civil rights should be transmitted 
to passengers who self-identify as a person with a disability and 
should be widely available from air carriers. Their personnel and 
contractors must also be trained on these rights, which are unique to 
the experience of passengers with disabilities.
    While many air passengers are concerned about flight delays, 
overbooking, lost luggage, or cramped seats, people with disabilities 
likely have all of these concerns plus many more. Will my wheelchair be 
broken when I arrive? Will I be injured trying to get off of the 
aircraft? Will I be informed of gate changes? Will I be left alone 
without needed assistance? As a nation, we have made a lot of progress 
in improving the air travel experience for passengers with 
disabilities, but these real questions are important reminders that 
more remains to be done.
    We appreciate the opportunity to express our concerns about the air 
travel experience of passengers with disabilities. We are eager to work 
with the Subcommittee to improve air travel for people with 
disabilities. If you have any questions, please contact Heather Ansley, 
Associate General Counsel for Corporate and Government Relations.
            Respectfully,
                                                Carl Blake,
                 Associate Executive Director, Government Relations
                                         Paralyzed Veterans of America.

    Senator Cantwell. Thank you, Chairman Blunt, for convening 
this hearing, and thanks to the witnesses for being here to 
discuss the many important topics that are being raised today.
    It would be safe to say that all of us were deeply 
disturbed by the images of Dr. Dao, bloodied and dazed, being 
dragged from the aisle of a plane last month in Chicago. For a 
passenger who presented no threat to safety or security of a 
flight to be treated that way is completely unnecessary and 
unacceptable. United has acknowledged as much, and we owe it to 
the traveling public to make sure that this doesn't happen 
again.
    The United incident in Chicago has not been the only 
airline incident to gain national attention recently, and we 
need to look at the policies and procedures across the entire 
industry to help address and improve the experience for the 
flying public. You need to ask yourselves as providers: Are you 
prioritizing those shareholder profits over the basic needs of 
consumers?
    The airline industry as a whole needs to explore sensible 
ways to fix the traveling experience for passengers. As our 
commercial air system continues to grow, airports are more 
congested, travelers have fewer options--the flying public 
understands because they see it every time when they fly--the 
seats are fuller and becoming smaller, by the way; tempers are 
flaring; and if you run into trouble, if your flight is 
canceled, or you miss a connection, you're out of luck.
    Airplanes are flying full, and, in many cases, seats aren't 
available to accommodate displaced passengers, and capacity, in 
many cases, is rising slowly, if at all, as competition has 
disappeared, even as those 83 percent of seats being filled. In 
the state of Washington, Sea-Tac International has been one of 
the fastest growing airports for three consecutive years, and 
passengers have been feeling that squeeze as well. We've had 
hearings here about how we're addressing that from a TSA and 
Homeland Security perspective.
    But as a result of the industry's growth in passengers, too 
many airports are facing long lines at security, and they are 
facing crowded terminals and gateways. So we need to do our 
part and make sure the flying experience for the public is also 
focused on the needs of the flying public. We need to find 
improvements at our airports that will allow for room and 
competition, and I believe that we need to make sure that our 
airports have access to our customers.
    I do appreciate the steps that United and their partners in 
the many industries are taking to improve passenger experience, 
and as airlines have brought in record profits, they have made 
some investments back into their product. But the fact that 
we're here today to hear about is that across the industry, we 
need to continue to take more steps toward improving the 
passenger experience.
    I know that when my former colleague was here, Senator 
Boxer, we talked about those elements of a Passenger Bill of 
Rights, just making sure when passengers were delayed on 
runways or held on flights for an extraordinary amount of time, 
that they just got basic needs taken care of, like access to 
water or food, and making sure that they had clear 
understanding of their rights. I think it may be time for a new 
Passenger Bill of Rights to make sure that we're focusing on 
the consumer experience, making sure that consumers aren't 
left, that we are doing things that are appropriate and 
necessary to make sure that they are protected in these 
incidents.
    So thank you, Mr. Chairman, for having this hearing.
    Senator Blunt. Thank you, Senator Cantwell, and Senator 
Nelson, the Ranking Member of the Full Committee is here.
    Senator Nelson, if you'd like to make a few comments before 
we start, that would be great.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. I would, because 
of the gravity of this situation.
    What happened to Dr. Dao is just simply unconscionable, and 
I'm sorry, Mr. Kirby, that you're sent here as the President, 
number two, to be the sacrificial lamb. It ought to be your 
CEO, who I know personally and who is a wonderful person and 
who has overcome great personal medical challenges and was 
beginning to get such a good reputation. But anybody who has 
served in the military understands that the captain of the ship 
is, in fact, responsible, and it ought to be the CEO.
    For the life of me, barring any safety reasons or security 
reasons, which was certainly not the case here, no passenger 
should ever be treated like this on an airline. Now, I 
understand that you've made several changes following the 
incident, and we all appreciate those efforts, but this is a 
subtext and a foretelling of larger issues, because the airline 
industry in this country has become anti-competitive and 
consumers are being hurt in the process.
    Talk to most any passenger, and they feel like they're 
being treated as self-loading cargo rather than the way they 
should be, as very valued customers. They feel taken advantage 
of, and they're getting sick and tired of it. You talk to 
anybody that travels. What I'm worried about--is this a 
consequence of all the mergers so that we only have a handful 
of airlines, and they basically don't have the competition?
    So many of the passengers now have become self-described 
detectives by using their cell phone to record incidents where 
their fellow passengers are being unfairly or unjustly treated. 
And I take no pleasure in beating up on the airlines, but in 
this case, it is warranted, and it's a good thing we're having 
this hearing because of what it portends for the future.
    So all of us have experienced firsthand or we've heard from 
folks back home about incidents--the explosion of fees, such as 
checked baggage, priority boarding, assigned seating, that are 
not always clear. We tried to straighten out some of this in 
last year's FAA bill. We're going to get another crack at it 
this year.
    The IT systems of airlines are failing and causing 
prolonged confusion and delays, and passengers with 
disabilities--and that's why I'm glad you put in the disabled 
veterans' letter--they're having to deal with poorly trained 
personnel or the wheelchairs are mishandled and damaged. And 
then to add insult to injury, just yesterday, we learned that 
American Airlines--and I wish we had had the CEO of American 
here--we learned that American Airlines is getting ready to buy 
100 new Boeing 737 jets--they call them Max Jets--and they're 
going to cram another 10 seats in.
    So in an article--and I will enter this into the record, 
Mr. Chairman, with your permission.
    Senator Blunt. Without objection.
    [The information referred to follows:]

                    CNNMoney (Seattle)--May 3, 2017

       American Airlines is cutting more legroom in economy class

                            by Jon Ostrower

    Just when you thought your legroom in economy class couldn't get 
tighter.
    American Airlines (AAL) is planning to decrease the front-to-
backspace between some of its economy class seats by another two 
inches.
    The airline says it plans to add more seats on its coming Boeing 
(BA) 737 Max jetliners. To do that. it will shrink the distance between 
seats. also known as pitch from 31 inches to 29 inches on three rows of 
the airplane. and down to 30-inches in the rest of its main economy 
cabin.
    American isn't the only big airline heading in this direction. 
United Airlines (UAL) is considering a similar move, according to a 
person briefed on its evaluations. United declined to comment.
    The move signals a new step in the shrinking of U.S. airline 
cabins. and comes even as carriers are promising to improve overall 
customer service.
    With the change, American will become the first large U.S. carrier 
to offer legroom with a pitch that's nearly on par with Spirit and 
Frontier, whose seats are at an industry-minimum 28 inches.
    By comparison. economy class pitch on Delta Air Lines (DAL) and 
United ranges between 30 and 31 inches, while JetBlue Airways (JBLU). 
Southwest Airlines (LUV) and Alaska Airlines (ALK) have between 31and 
33 inches.
Related: American Airlines eliminating in-seat screens on new jets
    The one advantage the big U.S. carriers still have over their 
lowest-fare rivals was a few more inches in economy.
    The bathrooms on American's 737 Max jets will also be smaller, one 
person familiar with the planning said.
    The new Max jets will have more than 170 seats. two sources said, 
compared to 160 on its existing 737-800s. The airline said it is 
keeping its extra-legroom ``Main Cabin Extra'' economy seats, as well 
as its 16 first class seats.
    These new single-aisle aircraft will go into use later this year 
and will primarily be flown on routes in North America.
    Fliers will still pay regular economy fares for the 18 seats with 
two inches less leg room. Two of those three rows of 29-inch pitch will 
be in the back of the plane and a third farther forward. These seats 
won't be part of its new basic economy fares, which sell for less 
because fliers don't get access to overhead bins. a seat assignment or 
frequent flier miles.
    An American spokesman said the airline will add 40 Max jets to its 
fleet by the end of 2019. It has 100 on order. The airline also said it 
might make similar changes to its existing fleet of 737-800s after the 
Max arrives. but no decisions have been made.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As the big airlines match each other move for move, the risk is 
that 29 inches becomes the standard for flying economy in the United 
States. American has been a bellwether before for the airlines. For 
instance, it was the first big U.S. airline to introduce bag fees in 
2008.
    Airlines have enjoyed strong profits and low fuel prices after a 
decade of consolidation. They're adding seats now to help offset rising 
employee wages.
    ``This is one of the best economic environments the U.S. airline 
industry has seen in decades.'' said Harteveldt. ``There is no need to 
race to the bottom.''

    Correction: A previous version of this story misidentified the rows 
that would be condensed

    Senator Nelson. American Airlines is cutting more leg room 
in the economy class. They say that in ordering these Boeing 
737 Max Jetliners, that they'll shrink the distance between 
seats, which is known as pitch, from 31 to 29 inches. In this 
article, it points out that, right now, Delta, American, and 
Southwest are 31 inches, United is 30, Spirit is 28, and 
American buys these new jets with 10 more seats cramped in--I 
wonder how you'll handle, Ms. Nelson, flight attendants having 
to deal with 10 more passengers cramped in--29 inches. It'll 
only be rivaled by Spirit at 28, and Virgin has 32 inches, and 
Jet Blue has 34 inches. But Jet Blue and Virgin aren't the big 
four.
    So while these are certainly not new complaints, they seem 
to be getting worse in the public's eye, and the fact is that 
we wouldn't be sitting here today if the traveling public 
believed that the airlines cared more about them than they're 
caring about the Do-Re-Mi, and this is happening, and you all 
need to face it.
    Two years ago, the Democrats on this committee released a 
report on the airlines' lack of transparency on the growing 
number of fees charged to passengers that called on the 
airlines to stop nickel-and-diming the traveling public. And 
what's happened since? Fees continue to go up while the 
airlines fight behind the scenes in Washington to kill any 
proposal. We had that where they killed some of them in last 
year's FAA bill. Some of them we got in.
    But compounding all of this is the fact that many consumers 
don't have a lot of choices if they are fed up with the service 
at their local airport. So where is the competition? According 
to one recent study of the U.S. Travel Association, the big 
four currently control over 50 percent of the seat capacity on 
flights out of 155 airports. That doesn't sound real 
competitive to me. So here we are with an industry facing self-
inflicted PR problems sitting before us asking for our 
forgiveness and to allow them to fix their own problems.
    Mr. Chairman, I am a strong believer in being saved and 
redemption, and I truly hope the airlines are sincere and their 
corrective actions match their words. But when I see 10 more 
passengers being crammed in to the same size aircraft, I have 
questions. So I think most Americans would want to return to 
the friendly skies.
    With that said, let this Senator be clear. If I have 
anything to do with it as the Ranking Member of the Full 
Committee, this Committee is not going to sit back with a wait-
and-see approach. We've acted in a bipartisan fashion in the 
past to protect the flying public, and we're prepared to do so 
again when we begin later this year on the FAA authorization 
bill.
    Thank you, Mr. Chairman, for this opportunity.
    Senator Blunt. Thank you, Senator Nelson.
    We have with us today Ginger Evans, who is the Commissioner 
of the Chicago Department of Aviation; Scott Kirby, the 
President of United Airlines; Sharon Pinkerton, Senior Vice 
President of Legislative and Regulatory Affairs for Airlines 
for America; Sara Nelson, the International President of the 
Association of Flight Attendants; and Sally Greenberg, the 
Executive Director of the National Consumer League.
    So we are pleased that you're here. We look forward to your 
testimony. We have your testimony, but would love to have you 
handle your 5 minutes however you want. But we will run that 
clock pretty tight, so in no more than 25 minutes, we'll go to 
questions.
    Commissioner Evans, we'll let you start.

           STATEMENT OF GINGER EVANS, COMMISSIONER, 
                 CHICAGO DEPARTMENT OF AVIATION

    Ms. Evans. Good morning. Thank you, Chairman Blunt, Ranking 
Member Cantwell, and members of the Committee for asking me to 
be here today to testify on the important issue of safety at 
our airports. We can all agree that the events that took place 
on the night of Sunday, April 9, 2017, were completely 
unacceptable. And, on behalf of the Chicago Department of 
Aviation, I want to offer Dr. Dao and his family my sincerest 
apology.
    As someone who has spent more than three decades in the 
aviation industry, that a passenger at one of our airports was 
injured in this way is deeply saddening and personally 
offensive to me. This is not how we do business and these 
actions will not be tolerated. As the Commissioner of Chicago's 
Department of Aviation, overseeing both O'Hare and Midway 
International Airports, the safety and well-being of the flying 
public remains our highest priority. It is imperative that our 
employees interact with passengers in a manner that not only 
protects their safety, but also conveys dignity and respect.
    We have strong security plans in place, coordinated with 
our partners in the Federal Government. These plans establish 
roles and responsibilities for a multilayered security response 
system. This system works together to prevent terrorist threats 
and breaches of security, while ensuring continued confiscation 
of weapons, explosive detection, and general security for 
persons working in and traveling through our airports.
    These plans help ensure that more than 100 million 
passengers safely travel through O'Hare International Airport 
and Midway International Airport each and every year. We 
continue to adapt our safety and security policies, procedures, 
and practices in order to respond to new and changing threats, 
both external and internal.
    However, based on my review, the security officers involved 
in the incident on United Flight 3411 broke from our standard 
procedures and failed to provide Dr. Dao and his family the 
respect we demand be given to all of the traveling public 
flying in and out of Chicago. These actions are not condoned by 
the Chicago Department of Aviation.
    To address what occurred, we initiated an immediate 
administrative review. Based on that review, four personnel 
were put on leave. The interviews and findings of our 
administrative review were given to the City of Chicago's 
Office of Inspector General. The details of the communication 
and actions during the response to the request for officers are 
now the subject of an expedited disciplinary investigation by 
the Inspector General.
    Our immediate review showed that the actions of these 
officers were not in accordance with the Chicago Department of 
Aviation's directives. Our policy is clear that force should 
only be used when absolutely necessary to protect the security 
and safety of our passengers. Our policy states, and I quote, 
``The safety of innocent persons and bystanders must be given 
primary consideration whenever the use of force is 
contemplated.'' Further, my department launched a separate 
review of our security resources and policies to identify 
changes that might clarify and strengthen security roles and 
procedures.
    While we cannot reverse what took place, as a department, 
we are taking action to ensure this never happens again. We 
have moved quickly to institute several changes that I would 
like to share with you today.
    First, United Airlines announced that effective April 12, 
they will request officers only for issues involving safety and 
security. We are working with our other tenant airlines to 
standardize this policy and ensure complete consistency 
throughout our two airports.
    Effective April 10, Chicago Department of Aviation airport 
security officers will no longer board aircraft unless there's 
an immediate medical issue or imminent physical threat on board 
with great bodily harm at risk. The Chicago Police Department 
will continue to take the lead in responding to disturbances on 
aircraft, which they have done very ably, while the main duty 
of airport security officers will continue to be to enforce 
Federal regulations governing airport safety and security in 
restricted areas of the airport. While the airport security 
officers are specifically trained on airfield perimeter patrol 
and aircraft movement areas, they are not designated law 
enforcement authority at our airports.
    Third, we are in the final stage of obtaining an 
international aviation security expert to partner with us to 
conduct a comprehensive review of our security program, 
including policies, procedures, staff functions, facilities, 
and technology, to ensure that we are not only meeting current 
best practices but also thinking forward and positioning 
ourselves to respond to the ever-changing security environment.
    While these measures represent an important step forward, 
more work remains to be done. We will continue to assess both 
our staff and our facilities to meet our most important mission 
of safely supporting each and every passenger that moves 
through our airports. We are also initiating a very 
comprehensive plan with our airline partners to modernize and 
improve Chicago O'Hare for the purpose of serving our customers 
more comfortably.
    In closing, I'd like to state once again that we are deeply 
sorry for the events that took place on April 9. We are 
redoubling our efforts to strengthen our security systems, 
policies, procedures, and training programs to ensure they work 
together to keep all of our passengers safe.
    [The prepared statement of Ms. Evans follows:]

           Prepared Statement of Ginger Evans, Commissioner, 
                     Chicago Department of Aviation
    Good morning.
    Thank you, Chairman Blunt, Ranking Member Cantwell and members of 
the Committee for asking me to be here today to testify on the 
important issue of safety at our airports.
    I think we can all agree that the events that took place on the 
night of Sunday, April 9, 2017 were completely unacceptable. And, on 
behalf of the Chicago Department of Aviation, I want to offer Dr. Dao 
and his family my sincerest apology.
    As someone who has spent more than three decades in the aviation 
industry, that a passenger at one of our airports was injured in this 
way is deeply saddening and personally offensive. This is not how we do 
business and these actions will not be tolerated.
    As the Commissioner of Chicago's Department of Aviation, overseeing 
both O'Hare and Midway International Airports, the safety and well-
being of the flying public is and has always been our highest priority. 
It is imperative that our employees interact with passengers in a 
manner that not only protects their safety but also conveys dignity and 
respect.
    In Chicago, home to two of the country's biggest airports and one 
of the world's busiest airports, we take security and safety very 
seriously. Furthermore, managing these large and complex operations in 
the current global environment demands the highest safety standards.
    We have strong security plans in place, coordinated with our 
partners in the Federal Government. These plans establish roles and 
responsibilities for a multi-layered security response system that 
engages Federal Officers, including the Transportation Security 
Administration, Federal Air Marshals, Customs and Border Patrol, and 
the FBI, Chicago Police Officers and aviation security officers to 
respond to different levels of concerns and issues.
    This system works together to prevent terrorist threats and 
breaches of security, while ensuring continued confiscation of weapons, 
explosives detection and general security for persons working in and 
travelling through our airports.
    These plans help ensure that more than a hundred million passengers 
safely travel through O'Hare International Airport and Midway 
International Airport each year. We continue to adapt our safety and 
security policies, procedures and practices in order to respond to new 
and changing threats, both external and internal.
    However, based on my review, the security officers involved in the 
incident on United flight 3411 broke from our standard operating 
procedure and failed to provide Dr. Dao and his family with the respect 
we demand be given to all of the traveling public flying in and out of 
Chicago. These actions are not condoned by the Chicago Department of 
Aviation.
    To address what occurred, we initiated an immediate administrative 
review for the purpose of determining if there was sufficient reason to 
place the officers on leave. One of the officers was placed on leave 
April 10, two others were placed on leave April 12, and a supervisor 
was placed on leave on April 18. The interviews and findings of our 
administrative review were given to the City of Chicago Office of 
Inspector General (OIG). The details of the communication and actions 
during the response to the request for officers are now the subject of 
an expedited disciplinary investigation by the City of Chicago's 
Officer of Inspector General (IGO).
    Our immediate review showed that the actions of these officers were 
not in accordance with the Chicago Department of Aviation's standard 
operating procedures. Our policies are clear that force should only be 
used when absolutely necessary to protect the security and safety of 
our passengers. Our policy states that ``the safety of innocent persons 
and bystanders must be given primary consideration whenever the use of 
force is contemplated.''
    Further, my department launched an additional review of our 
security resources and policies to identify changes that might clarify 
and strengthen security roles and procedures to ensure nothing like 
this happens again. In addition, we have provided requested documents 
and communications to the public and press to ensure full transparency 
about these events.
    While we cannot reverse what took place, as a department we are 
taking action to ensure this never happens again. We have moved quickly 
to institute several changes in our policies, procedures and training 
programs that I would like to share with you today.

  (1)  Following this incident, it has become clear, and all 
        stakeholders agree, that neither the Chicago Police Department 
        nor airport security officers should be called to aircraft to 
        deal with any customer service matters including overbooking 
        situations. United Airlines announced that effective April 12, 
        that they would call airport security and CPD only for issues 
        involving safety and security. We are working with other 
        airlines to standardize this policy to ensure consistency.

  (2)  Effective April 10, Chicago Department of Aviation Airport 
        Security Officers will no longer board aircraft, unless there 
        is an immediate medical issue or imminent physical threat on 
        board.

      The Chicago Police Department will continue to take the lead in 
        responding to disturbances on aircraft, while the main duty of 
        airport security officers (ASOs) will continue to be to enforce 
        Federal regulations governing airport safety and security in 
        restricted areas of the airport. While ASOs are certified peace 
        officers specifically trained on airfield perimeter patrol and 
        aircraft movement areas, they are not the designated law 
        enforcement authority at our airports.

      We've also made changes internally regarding how calls are 
        dispatched through the O'Hare Communications Center to ensure 
        that, as stated above, Chicago Police Department officers will 
        be the lead responders for disturbances onboard aircraft.

  3.)  We are in the final stage of obtaining an international aviation 
        security expert to partner with us to conduct a comprehensive 
        review of our security program--including policies, procedures, 
        staff functions, facilities and technology--to ensure that we 
        are not only meeting current best practices but also thinking 
        forward and positioning ourselves to respond to the ever-
        changing security environment.

      This thorough review will give us an outside perspective on our 
        policies and practices that will help us improve and better-
        serve our passengers.

    While these steps representative an important step forward, more 
work remains to be done. We will continue to assess both our staff and 
our facilities to meet our most important mission of safely supporting 
each and every passenger that moves through our airports.
    In closing, I'd like to state once again that we are deeply sorry 
for the events that took place on April 9.
    We will continue to strengthen our security systems and policies to 
ensure they work together to keep all of our passengers safe.
    We are re-doubling our efforts to strengthen our policies, 
procedures and training programs, and to learn from this incident and 
ensure that something like this never happens again.
    As we move forward, we will take action based on the City of 
Chicago Office of Inspector General's review, and we will release our 
own report with further findings and policy actions.

    Senator Blunt. Thank you, Commissioner.
    Mr. Kirby?

      STATEMENT OF SCOTT KIRBY, PRESIDENT, UNITED AIRLINES

    Mr. Kirby. Chairman Blunt, Ranking Member Cantwell, 
Senators, thank you for the opportunity to address the 
Subcommittee on this important matter today. My name is Scott 
Kirby, and I am the President of United Airlines, here today 
representing our 87,000 employees.
    On April 9, our airline broke the public trust in an 
incident that should have never happened. I apologize again to 
Dr. Dao, his family, to every passenger on Flight 3411, and to 
all our customers and employees around the world, and I'm very 
sorry for our company's inadequate response to the initial 
incident. No customer should have ever been treated the way 
that Dr. Dao was.
    We promised to complete a full analysis of what happened on 
Flight 3411, including where we fell short and the actions we 
needed to take to change the customer experience at United. One 
week ago today, we released our report, which identified four 
key failures.
    First, we called on law enforcement when a safety or 
security situation did not exist. Second, we booked crew at the 
very last minute, even though Flight 3411 was full. Third, we 
failed to provide our employees with the authority to offer 
enough compensation or alternative travel options to give the 
incentive to a passenger to give up a seat. Fourth and perhaps 
most importantly, our employees did not have the authority to 
do what was right for our customers. A series of United 
Airlines' policies put our employees, law enforcement, and our 
customers in an impossible position.
    In an industry like ours, safety is always our top 
priority, and rules are critical to ensuring a safe operation. 
But in this instance, where safety wasn't the issue, we let 
rules and operating procedures stand in the way of common 
sense.
    Our report announced several immediate and near-term 
changes that we're making to prevent an issue like this from 
happening again and to improve the customer experience. First, 
unless safety or security is an issue, we will never again ask 
a customer to give up their seat once they're on board or ask 
law enforcement to remove a customer from a flight.
    We're giving our employees more authority to offer up to 
$10,000 to customers when we do have an oversold situation. 
When a customer chooses to give up their seat, we'll have a 
team dedicated to finding them alternative travel options. And 
when crew needs to travel on a flight, we'll ensure they're 
booked at least an hour before departure. At the same time, 
we've also eliminated the red tape around lost bags by 
instituting a no-questions-asked, $1,500 reimbursement for 
permanently lost luggage.
    This is a turning point for United Airlines. I do believe 
that we're a better airline today then we were before because 
of this terrible incident. And we'll be a better airline 
tomorrow as these changes are fully implemented. All of us at 
United are working incredibly hard to re-earn your trust and 
the trust of our customers around the world and to provide our 
customers with the respect and service that they deserve.
    Thank you, and I look forward to answering any questions 
that you may have.
    [The prepared statement of Mr. Kirby follows:]

     Prepared Statement of Scott Kirby, President, United Airlines
    Chairman Blunt, Ranking Member Cantwell, Senators, thank you for 
the opportunity to address the Subcommittee on this important matter.
    My name is Scott Kirby. I am President of United Airlines.
    On April 9, our airline broke the public trust in an incident that 
should have never happened.
    I again apologize to Dr. Dao and his family, to every passenger on 
Flight 3411, and to all our customers and employees around the world.
    And I am very sorry that our company's immediate response was so 
inadequate. No customer should ever be treated in the way that Dr. Dao 
was.
    We promised to complete a full analysis of what happened on Flight 
3411, including where we fell short, and the actions we needed to take 
to change the customer experience at United.
    On April 27, we released our report which is submitted for the 
record. In it, we identified four key failures.
    First, we called on law enforcement when a safety or security issue 
did not exist.
    Second, we rebooked crew at the very last minute even though flight 
3411 was full.
    Third, we did not provide our employees with enough authority to 
offer enough compensation or travel options to incentivize a passenger 
to give up a seat.
    Fourth, and perhaps most important: our employees did not have the 
authority to do what was right for our customers. A series of policies 
put our employees, law enforcement, and our customers in an impossible 
position.
    In an industry like ours, safety is our top the priority and rules 
are critical to ensuring a safe operation. But in this instance, where 
safety wasn't the issue, we let rules and operating procedures stand in 
the way of commonsense.
    In tandem with releasing our analysis, we announced several changes 
we are making immediately to become more customer-focused; to reduce 
incidents of involuntary denial of boarding to as close to zero as 
possible; and to avoid putting our customers, employees and partners 
into impossible situations due to policies we control. They are the 
following:

        1. United will limit the use of law enforcement to safety and 
        security issues only. We will not ask law enforcement officers 
        to remove customers from flights unless it is a matter of 
        safety and security. This policy was implemented on April 12.

        2. United will not require customers already seated on an 
        airplane to give up their seat involuntarily, unless safety or 
        security is at risk. This policy was implemented on April 27.

        3. United will increase customer compensation incentives for 
        voluntary denied boarding to up to $10,000. Compensation levels 
        are being increased to up to $10,000 for customers willing to 
        volunteer to take a later flight. This policy went into effect 
        on April 28.

        4. United will establish a customer solutions team to provide 
        agents with creative solutions. We will create a team to 
        proactively identify and provide gate agents with creative 
        solutions. These could include using nearby airports, other 
        airlines or ground transportation to get customers and crews to 
        their final destinations. We expect the team to be operational 
        by June 2017.

        5. United will ensure crews are booked onto a flight at least 
        60 minutes prior to departure. Unless there are open seats, all 
        crew members traveling for work on our aircraft must be booked 
        at least 60 minutes before departure. This policy was 
        implemented on April 14.

        6. United will provide agents with additional annual training. 
        United will provide annual training for frontline employees to 
        enhance their skills on an ongoing basis. These trainings will 
        equip employees to handle the most difficult of situations. 
        This training will begin in August 2017.

        7. United will create an automated system for soliciting 
        volunteers to change travel plans. Later this year, we will 
        introduce a new automated check-in process, both at the airport 
        and via the United app, that will gauge a customer's interest 
        in giving up his or her seat on overbooked flights in exchange 
        for compensation. If selected, that customer will receive their 
        requested compensation and be booked on a later United flight.

        8. United will reduce its amount of overbooking. United has 
        evaluated its overbooking policy. As a result, adjustments have 
        been made to reduce overbookings on flights that historically 
        have experienced lower volunteer rates, particularly flights on 
        smaller aircraft, and the last flights of the day to a 
        particular destination.

        9. United will empower employees to resolve customer service 
        issues in the moment. Later this year, United will launch a new 
        ``in the moment'' app for our employees to handle customer 
        issues. This will enable flight attendants and gate agents to 
        compensate customers proactively--with mileage, credit for 
        future flights or other forms of compensation--when a 
        disservice occurs.

        10. United will eliminate the red tape on lost bags. We will 
        adopt a new, no-questions-asked policy on permanently lost 
        bags. In these instances, United will pay a customer $1,500 for 
        the value of the bag and its contents. This process is expected 
        to be in place in June 2017.

    This is a turning point for United.
    I do believe that we are a better airline today than we were 
before--because of this terrible incident. We will be a better airline 
tomorrow as these changes are fully implemented.
    We will work incredibly hard to re-earn your trust and the trust of 
our customers around the world, and to provide our customers with the 
respect and service that they deserve.
    Thank you.
                               Attachment
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               

    Senator Blunt. Thank you, Mr. Kirby.
    Ms. Pinkerton?

           STATEMENT OF SHARON PINKERTON, SENIOR VICE

         PRESIDENT, LEGISLATIVE AND REGULATORY POLICY,

                      AIRLINES FOR AMERICA

    Ms. Pinkerton. Good morning, Chairman Blunt, Ranking Member 
Cantwell, and members of the Subcommittee. My name is Sharon 
Pinkerton. I'm the Senior Vice President of Policy at Airlines 
for America.
    We appreciate the opportunity to be here today. We want the 
traveling public and this committee to know that the nation's 
airlines are listening. Like you, we found the events that 
transpired around the April 9 incident unacceptable. The 
industry fully accepts that it is our responsibility to ensure 
that such behavior and disrespect of a passenger can never 
happen again.
    We also know that deep regret and apologies, however 
sincere, are no substitute for meaningful solutions and action. 
To meet that responsibility, our carriers immediately reviewed 
why and how this situation developed and, importantly, where 
necessary, are making systemic changes based on that review, 
and these aren't superficial changes. They range from changes 
in overbooking policies, the processes in place for 
decisionmaking, and enabling frontline employees more 
discretion in managing certain situations.
    Just a few examples of the concrete steps that a variety of 
carriers are taking: completely eliminating or reducing 
overbooking; ensuring that no passenger is involuntarily 
removed from a flight for another passenger; renewing their 
focus--and I think this is very important--on training for all 
customer-facing staff to make sure they're taking care of 
passengers, not just getting them safely from point to point; 
and, finally, providing passengers with more transparency and 
understanding about what their rights are as consumers.
    While these are some of the policy changes already being 
implemented, carriers are continuing to review a broad array of 
policies to improve customer service, because we know 
passengers have choices in who they fly. Carriers compete not 
only on price but also on customer service. So every one of the 
800 million passengers who fly U.S. carriers annually deserve 
both a safe and pleasant experience.
    The results of competition, which I've heard a lot about, 
can be directly seen in our record-breaking improvements in the 
2016 DOT customer service metrics for better on-time flight 
arrivals, better flight completion, and nearly 100 percent 
properly handled bag delivery. When our operational service 
metrics improve, it's no surprise that so does customer 
satisfaction. This relationship has been shown in independent 
surveys that J.D. Power has done, which recently reported that 
``North American airline satisfaction has climbed to a 10-year 
high.''
    While we've made progress, I know we need to improve. For 
context, I do think it's important to recognize that the 
turmoil of the bankruptcies in this industry, 9/11, mergers 
that many carriers went through impacted our employees. They 
lost pensions. So many carriers weren't making the necessary 
investments in their product and their people. We've got some 
catching up to do.
    The financial stability of the last 6 years has enabled the 
industry to make record investments of up to $1.5 billion per 
month in the customer experience. That investment includes: new 
contracts for employees, new and cleaner planes, and new 
service, which is all driving the improvements we see today.
    This committee, we hope, should recognize the facts, the 
official data, that clearly show that airline competition is 
intense. In fact, it's thriving. More people are flying today. 
They're doing so at lower prices to more destinations than 
ever. Consumers have seen enormous and quantifiable benefits 
from a thriving and competitive marketplace. Just last month, 
the Bureau of Transportation Statistics reported that the 
fourth quarter 2016 average fare was down 26 percent from 2000, 
and if you include ancillary fees, 22 percent down. Since 1995, 
real fares declined 23 percent, and if you include ancillary 
fees, still down almost 20 percent.
    In addition, communities across America have seen benefits 
from the thriving competitive aviation marketplace. While all 
types of U.S. airports have gotten more air service over the 
last several years, 176 small and non-hub airports have seen 
more seats in their market. In addition to seats, airlines have 
added 198 new routes in 2016 and 151 in 2017. Flyers have seen, 
on net, a net expansion of 54 nonstop routes to and from U.S. 
airports.
    Senators, this industry does good things for people by 
connecting them to their families and friends and being an 
enabler of business. We hope that the recent but rare, although 
unacceptable, incidents don't completely eclipse the dignity 
and respect shown by airline employees to millions of travelers 
every day.
    Airlines recognize the onus is on us to foster a customer 
centric culture at each airline. We commit to you and the 
traveling public that this industry will continue to work 
diligently and quickly to address any actions needed to ensure 
that all passengers are treated with dignity and respect.
    [The prepared statement of Ms. Pinkerton follows:]

    Prepared Statement of Sharon Pinkerton, Senior Vice President, 
        Legislative and Regulatory Policy, Airlines for America
    Good morning Chairman Blunt, Ranking Member Cantwell, and members 
of the Subcommittee. My name is Sharon Pinkerton and I am the Senior 
Vice President of Legislative and Regulatory Policy at Airlines for 
America (A4A). We appreciate the opportunity to be here today. We want 
the traveling public and this Committee to know: the Nation's airlines 
are listening.
    Like you, we found the events that transpired around the April 9 
incident unacceptable. The industry fully accepts that it is our 
responsibility to ensure that such behavior and disrespect of a 
passenger can never happen again. We also know that deep regret and 
apologies, however sincere, are no substitute for meaningful solutions.
    To meet that responsibility our carriers immediately reviewed why 
and how this situation developed and, importantly, where necessary, are 
making systemic changes based on that review. These are not superficial 
changes. They range from changes to overbooking policies, the processes 
in place for decision making and enabling front line employees more 
discretion in managing specific situations.
    Seven examples of concrete steps a variety of carriers are taking 
surrounding this specific issue are:

  1.  Completely eliminating or reducing overbooking;

  2.  Prohibiting use of law enforcement to remove passengers from a 
        flight, except in cases of safety or security;

  3.  Ensuring that no passenger is involuntarily removed from a flight 
        for another passenger;

  4.  Ensuring that crews traveling must be booked at least 60 minutes 
        prior to departure;

  5.  Giving gate agents the discretion to offer higher amounts of 
        money as an incentive for customers to voluntarily take a 
        different flight;

  6.  Airlines are renewing their focus on training for all customer-
        facing staff to make sure they are taking care of passengers, 
        not just getting them from point to point; and

  7.  Efforts are underway to provide passengers more transparency and 
        simplified information about their rights as consumers.

    While these are the policy changes already being implemented, 
carriers are continuing to review a broad array of policies to improve 
customer service because we know passengers have many choices of 
airlines in what is a highly competitive marketplace. We compete not 
only on price, but also on customer service. The 800 million passengers 
who fly on U.S. carriers annually deserve a safe and pleasant 
experience. The results of competition can be directly seen in our 
record-breaking improvements in the 2016 Department of Transportation 
(DOT) customer service metrics for on-time arrivals, flight completion 
and nearly 100 percent bag delivery.
    When our operational and service metrics improve, so does customer 
satisfaction. This relationship is shown in independent surveys 
including J.D. Power reporting ``North American Airline Satisfaction 
Climbs to 10-Year High'' in 2016 and The American Customer Satisfaction 
Index stating ``Airline customer satisfaction was up again in 2017''.
    So, while we have made progress, we know we need to improve. It's 
important to recognize, that the turmoil of bankruptcies in this 
industry meant that many carriers weren't making the necessary 
investments in their products and people. The financial stability of 
the last six years has enabled the industry to make record investments 
of up to $1.5 billion per month in the customer experience. That 
investment includes new contracts for employees, new planes and new 
service and is driving the improvements we see today.
    This Committee should recognize that the facts, based on official 
data, clearly show airline competition is alive and well. In fact, it 
is thriving with more people flying, doing so at lower prices and to 
more destinations than ever. Consumers have seen enormous and 
quantifiable benefits from a thriving and competitive aviation 
marketplace. Just last month the Bureau of Transportation Statistics 
(BTS) reported:

  <bullet> The fourth-quarter 2016 average air fare was down 26.5 
        percent from the average fare in 2000, the highest inflation-
        adjusted fourth quarter average fare recorded in the 21 years 
        since BTS began collecting air fare records in 1995; and

  <bullet> Since 1995, inflation-adjusted fares declined 23.4 percent.

    In addition to consumers, communities across America have seen 
enormous and quantifiable benefits from a thriving and competitive 
aviation marketplace:

  <bullet> U.S. Airports of all sizes have realized air service gains 
        over the past two years with 176 Small- and Non-Hub markets 
        seeing available seat numbers grow; and

  <bullet> Airlines added 198 new U.S.-based routes in 2016 and have 
        added 151 more in 2017. Over two years, flyers have seen a net 
        expansion of 54 nonstop routes to/from U.S. airports.

    This industry does good things for people by connecting them to 
their families and friends and being an enabler of commerce. We hope 
that rare, but unacceptable incidents do not completely eclipse the 
dignity and respect shown by airline employees to millions of travelers 
every day. Airlines recognize that the onus is on each carrier to 
foster a customer-centric environment. We commit to you, and to the 
traveling public, that the industry will continue to work diligently 
and quickly to address any actions needed to ensure that all passengers 
are treated with dignity and respect.
    Airlines strive for perfection and the ultimate industry goal is to 
provide a safe, efficient and enjoyable travel experience for all 
passengers every time they fly and carriers will continue to work and 
invest in delivering on that commitment each and every day.
    Thank you, we appreciate the opportunity to testify and look 
forward to your questions.

    Senator Blunt. Thank you, Ms. Pinkerton.
    Ms. Nelson?

STATEMENT OF SARA NELSON, INTERNATIONAL PRESIDENT, ASSOCIATION 
               OF FLIGHT ATTENDANTS--CWA, AFL-CIO

    Ms. Nelson. Thank you, Chairman Blunt, Ranking Member 
Cantwell, and members of the Committee, for the opportunity to 
testify today.
    The Association of Flight Attendants represents 50,000 
flight attendants at 20 airlines, and we partner with the 
Communications Workers of America, who represent nearly 20,000 
customer service agents. Together, we help tens of thousands of 
flights get up in the air safely and even often sometimes 
inspire smiles.
    But in order to recognize the realities of aviation today, 
we must look back to the events of September 11, 2001. 
Following the grief of losing our friends and flying partners, 
our profession and industry changed forever. Over 100,000 
aviation jobs were lost nearly overnight. Most airlines entered 
bankruptcy and some did not emerge. We lost, on average, 40 
percent in pay. Pensions were terminated. Work rules were 
eviscerated. Staffing was cut to minimums, and many of the 
amenities of flying were removed as we had fewer tools to 
appease weary travelers.
    Airlines lost billions of dollars, and for nearly 10 years, 
the driving force was to cut costs in every area but executive 
compensation. Cabin interiors were redesigned with smaller 
seats closer together. Bankruptcies gave way to airline mergers 
to cut capacity in the industry so that planes are fuller than 
ever with more seats, less leg room, and carry-on baggage at 
all time highs as check baggage fees drove more luggage to the 
airplane door.
    Flight attendants are working anywhere from 25 percent to 
50 percent more hours on the job to make ends meet, while 
fatigue studies commissioned by Congress show that cabin crew 
are not getting enough rest. Even though ticket prices are 40 
percent below 1980 levels when adjusted for inflation, airlines 
are making money again through capacity cuts, ancillary fees, 
and reduction in fuel prices.
    Today, U.S. carriers must also compete with predatory gulf 
carriers, who enter the U.S. market and boast lavish amenities 
because they are subsidized with over $50 billion from their 
governments. As long as our government fails to enforce the 
open skies agreements that prohibit this, the burden of cost 
cutting will hit further on employees and consumers.
    American announced just this week the airline is adding 
more seats to the aircraft by reducing leg room to 29 inches. 
This is going to have a direct impact on flight attendants, who 
will have to answer to angry passengers enraged by the lack of 
room. Meanwhile, these same flight attendants are reporting 
they are sick from toxic uniforms and contaminated cabin air. 
And Wall Street was in an uproar when their pay was adjusted to 
an industry average a few weeks ago at the rate that might 
cover a family's utility bill because shareholders whined it 
might be taken out of their returns.
    When Delta had another IT crew scheduling meltdown that 
left passengers stranded for nearly a week, the flight 
attendants without a union contract were left on duty in excess 
of 24 hours, facing passengers and having to de-escalate 
tensions while standing on hold to get through to the company 
for more than 10 hours.
    Every day, flight attendants working at U.S. airlines that 
are based in the U.S. help tens of thousands of flights and 
millions of passengers travel safely to their destination and 
without incident. This has become more challenging in recent 
years, with task saturation at boarding and staffing cut 
significantly to FAA minimums.
    There is a rising tension on board in our flights, in our 
experience, exacerbated by a national narrative full of 
disrespect for authority, decency, and decorum, and fewer of 
aviation's first responders to manage it. Deescalating conflict 
between passengers has become a significant portion of the work 
flight attendants perform on each flight. Without recognition 
of our role and authority in the cabin, we are very concerned 
about the dangerous conditions flight attendants may be facing 
at work.
    When flight attendants simply attempt to do safety 
compliance checks, they are greeted with refusal and the 
response, ``What are you going to do, drag me out of here?'' We 
don't have the option to call for help from authorities in the 
air, and on the ground, we are experiencing some authorities 
refusing to respond because they don't want to end up on the 
news, either.
    Flight attendants are caught in the middle, and safety and 
security will suffer. Aviation safety regulations didn't 
materialize out of thin air. It was a deadly crash of British 
Air Tourist Flight 28M in 1985 where some deaths were 
attributed to seat configuration at the exit rows and children 
seated there who couldn't get the exits open that led to the 
requirements in exit row seats. Six years later in 1991, U.S. 
Airways Flight 1493 crashed with Sky West Flight 5569 and 
further exit row requirements were identified as necessary.
    When tragedy strikes, we make changes and vow never again. 
We have to mean it. Now, flight attendants are challenged, 
ignored, or chastised for these safety checks. Cabin crew are 
left to wonder what's worse, failing to comply with Federal 
regulations as part of our job, or doing the safety sensitive 
work and ending up on the evening news or facing discipline 
from management because someone didn't like the instruction 
they gave.
    The reality is that the vast majority of passengers come to 
the plane with kindness in their hearts and a desire to have a 
peaceful, uneventful flight. Look at the focus on aviation. It 
is a fascinating topic for the public and garners more 
publicity than almost any other industry. Our airlines, the 
crews, and passengers fly to every corner of the Earth when 
some can only dream of crossing borders. It is one of our 
greatest symbols and expressions of freedom.
    Our U.S. industry generates $1.2 trillion in economic 
activity and supports 10 million jobs, and for these reasons, 
it continues to be a target of those who wish to wage war 
against America. We can't afford to get this wrong. We can't 
afford to dismiss safety and security. Flight attendants cannot 
effectively do our jobs without passengers recognizing the 
necessity of following crew member instructions.
    Thank you so much for the opportunity to be here today. 
There is so much more to discuss about staffing, surveillance 
of crew movement, security concerns, and all of the realities 
of aviation today, and I look forward to your questions.
    [The prepared statement of Ms. Nelson follows:]

Prepared Statement of Sara Nelson, International President, Association 
                   of Flight Attendants-CWA, AFL-CIO
    The Communications Workers of America (CWA) represents 700,000 
workers in private and public sector employment in the United States, 
Canada and Puerto Rico. CWA members work in telecommunications and 
information technology, the airline industry, news media, broadcast and 
cable television, education, health care and public service, law 
enforcement, manufacturing and other fields.
    In aviation, the CWA represents 30,000 Passenger Service Agents at 
American Airlines, Envoy and Piedmont. These agents are cross-trained 
and work between the ramp, ticket counter and gates. Their jobs include 
assisting passengers, loading and unloading baggage, guiding aircraft 
to and from the gates, de-icing and cleaning the planes.
    The Association of Flight Attendants-CWA (AFA), an autonomous 
sector of the CWA, serves as the expert voice from the aircraft cabin 
with 50,000 flight attendant members at 20 airlines including mainline, 
niche, regional, international and charter airlines.
    For the purpose of this written statement, we are organizing our 
remarks into the specific job categories Flight Attendants and Customer 
Service Agents.
In the Cabin--Flight Attendants
    Flight attendants are Federal Aviation Administration (FAA) 
certified to carry out cabin safety checks, crew coordination, 
passenger briefings, and all related safety, health and security 
regulations related to the aircraft cabin. Every effort is made to 
avoid emergencies, but when they happen flight attendants are charged 
with an immediate response to ensure the safety of all passengers 
onboard the aircraft. The role of aviation's first responders and last 
line of defense in aviation security is performed by cabin crew members 
who cannot effectively do their jobs without passengers recognizing the 
necessity of following crew member instructions.
    Every day, flight attendants working at U.S. airlines or based in 
the U.S. help tens of millions of passengers on thousands of flights to 
safely travel to their destination without incident. This has become 
more challenging in recent years with task saturation at boarding and 
significant staffing cuts down to FAA minimums in domestic markets. The 
changes to the aircraft cabin with smaller seats closer together and 
record-high load factors through reduced capacity have led to greater 
human contact in the confined space. There is a rising tension on board 
our flights and fewer of aviation's first responders to manage it. De-
escalating conflict between passengers has become a significant portion 
of work flight attendants perform on each flight. Without recognition 
of their role and authority in the cabin we are very concerned about 
the dangerous conditions flight attendants may be facing at work.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





    The horrific viral video from Republic flight 3411, operating as 
United Express, and the force used by the Chicago Aviation Security 
Officers led to a mob mentality Internet attack on the front-line 
employee of United Airlines who had no role in the shocking event 
itself. Such an event of violence should never take place against any 
person on our planes--we all know this and we also know it can never 
happen again. The reality is that under the leadership of Oscar Munoz, 
United Airlines has transformed in a very short period of time. 
Employees are engaged, management is showing a respect for workers 
through good relations with unions, which has also resulted in improved 
contracts and the reverse of outsourcing begun by the former CEO.
    The attack against United and the frontline employees was wrong. It 
has been pervasive at the airports, on the planes, on several media and 
broadcast television stations, and even in our schools, churches, and 
neighborhoods. It is demoralizing and has created incredible anxiety 
for flight attendants and other airline employees coming to work. It 
was especially challenging as the spread of incredible misinformation 
and misrepresentation of the facts could not be challenged without a 
vitriolic attack against the people of United Airlines. This 
reverberated for aviation workers throughout the industry. Flight 
attendants had no role in this event and never would. We are aviation's 
first responders and last line of defense. We save lives.
    It is important for the world to look at flight attendants and see 
the hero who revived someone's son, daughter, mother, father, sister or 
brother from a heart attack.

        . . . to see the crew of three flight attendants delivering a 
        baby in flight even through complications during the birth and 
        without a single passenger being aware that at the same time 
        these heroes were expertly handling a potential security 
        threat.

        . . . to see the flight attendant who was responsible for 
        saving the lives of an entire airplane as she revived both 
        pilots from unconsciousness following a decompression.

        . . . to see the flight attendant who, despite sustaining 
        injuries during a crash landing returned repeatedly to the 
        burning aircraft to pull people to safety.

        . . . to see the flight attendant who, with his crew, contained 
        a bomb and stopped a terrorist act.

    There are thousands of examples of heroic acts performed by flight 
attendants and millions of examples where, every day, a flight 
attendant is seen as someone's hero. Aviation connects people as 
diverse as the communities we serve around the country and the world, 
every creed and conviction, background and belief. Flight attendants 
care for and safely usher passengers to the big business deal, the 
family vacation, the times of celebration, times of grief and times of 
battle. Respect for our work is critical.
    Flight attendants need clear direction and support in doing our 
jobs. We are charged with keeping a safe cabin, yet we are challenged 
daily when instructing passengers according to our training and 
required safety procedures. We are encouraging our members to 
``continue to lean on each other to maintain the best of who we are. We 
can't be second guessing ourselves when we need to protect the safety 
of the flight. We make every effort not to react to attempts to provoke 
us and stay focused on our mission as aviation's first responders.''
    The fallout from these viral video events is creating damage that 
we believe is far-reaching and threatens aviation safety and security. 
We have reports of passengers allowed to remain onboard refusing to 
comply with crewmember safety instructions during boarding jeering and 
harassing at crewmembers across the country. We have reports of airport 
security refusing to respond to passenger incidents of threats, assault 
or failing to comply with crewmember safety instruction. We have 
aviation ``experts'' encouraging the public on TV to continue to film 
the crew and broadcast it, which offers free video surveillance of crew 
movement and tested disruptive tactics for terrorists. This has to stop 
before the consequences are tragic.
    We need regulators, lawmakers, and airline management to provide 
clear instruction to the public about the necessity of flight 
attendants in aviation safety. Flight attendants are caught in the 
middle between the role we must play to help ensure the safest aviation 
system in the world and the ``us against them'' mentality created by 
these viral video events and the response to rushed public judgment 
quickly rendered without all of the facts.
    We recognize the need to study the conditions in air travel today 
and respond to the concerns of the millions of people who buy tickets 
on our airplanes. But we also need to make sure we are not creating a 
system where people are able to dismiss their responsibility as 
travelers who must comply with regulations and policies in place to 
keep them safe.
    Airlines originally hired ``stewardess'' to make flights 
comfortable and stress-free for passengers. As the aviation industry 
grew, so did the role and responsibilities of flight attendants. It 
wasn't until 1952 that the Civil Aviation Authority (CAA) required 
airlines to provide flight attendants for the safety and security of 
passengers. In September of 2001, the role of flight attendants 
profoundly changed as we added the last line of defense in aviation 
security to our responsibilities.
    After nearly a decade of financial struggles, the increased use of 
regional carriers to supplement route structures and a series of high 
profile consolidation travel transformed from a glamorous luxury to a 
necessary mode of transportation. Flight attendant utilization 
increased significantly when airlines moved from a ``staffing for 
service'' standard to staffing at FAA minimums.
    Flight attendants are dealing with an increasing range of demands 
due to this reduced staffing. The boarding process is especially 
stressful as the passengers look for bag storage while flight 
attendants perform both safety and service related duties. While 
dealing with customer service, flight attendants must remain ever 
vigilant for anything ``out of the ordinary'' which could be a threat 
to the safety and security of the flight.
    In light of the recent events, airlines have begun to implement 
changes to policies and procedures to improve the passenger experience. 
We urge everyone to resist a ``knee jerk'' reaction and take time to 
thoroughly review any proposed changes to prevent unintended 
consequences. All stakeholders must be involved in this process. Let us 
note too that studies show front line employees are helping to turn out 
passenger satisfaction metrics including more on-time arrivals, fewer 
lost bags and less customer complaints. While we identify concerns, we 
also want to recognize the wonderful passengers on our planes who have 
taken the time to recognize our work and thank us for our efforts.
    As a result of pressure from crewmembers and AFA, Federal law 
affirms flight attendants' authority in the cabin of an aircraft and 
expressly prohibits passenger interference in these duties. 49 U.S. 
Code Sec. 46504 states, ``An individual on an aircraft in the special 
aircraft jurisdiction of the United States who, by assaulting or 
intimidating a flight crewmember or flight attendant of the aircraft, 
interferes with the performance of the duties of the member or 
attendant or lessens the ability of the member or attendant to perform 
those duties, or attempts or conspires to do such an act, shall be 
fined under title 18 imprisoned for not more than 20 years, or both. 
However, if a dangerous weapon is used in assaulting or intimidating 
the member or attendant, the individual shall be imprisoned for any 
term of years or for life.''
    Passengers are required to comply with crewmember instructions and 
we encourage them to wait for crewmember instructions before inserting 
themselves into incidents to prevent situations from escalating. We 
care deeply for our passengers and providing them a safe journey. It is 
also critically important for our security in a post-9/11 world that we 
keep calm in the cabin and recognize our mutual interest in maintaining 
procedures that keep us all safe.
At the Airport--Customer Service
    In 2001, following the 9/11 attacks, President George W. Bush 
signed into law the Aviation and Transportation Security Act, which 
provided sweeping reforms to airport security protocols. Included in 
the Act was an amendment, Section 114, offered by former Senator John 
Kerry (D-MA), setting Federal penalties for interfering with airport 
and airline personnel who have security duties.
    In January 2017, the Department of Transportation (DOT) and 
Department of Justice (DOJ) confirmed in a letter to Congressman John 
Garamendi (D-CA) that the original intent of Senator Kerry's amendment 
was to include gate agents, ramp personnel and airline workers with 
access to aircraft or other secure areas because they have security 
functions.
    As a result, an assault on agents would be a Federal criminal 
offense. 49 U.S.C. 46503 provides that ``[a]n individual in an area 
within a commercial service airport in the United States who, by 
assaulting a Federal, airport, or air carrier employee who has security 
duties within the airport, interferes with the performance of the 
duties of the employee or lessens the ability of the employee to 
perform those duties, shall be fined under title 18, imprisoned for not 
more than 10 years, or both.''
    Passenger service agents at every airport in the Nation were 
reassured that ``airport rage'' incidents they face as they perform 
their critical safety roles could be properly dealt with. Not only 
would offenders be charged but also prosecuted. Unfortunately, that is 
not the case as we have seen in numerous examples and as daily verbal 
and physical assaults continue.
    Passenger service agents have a variety of responsibilities 
depending on the airline and size of airport. They play a vital role in 
ground operation including both ``above the wing''--providing customer 
service to all passengers--and ``below the wing''--loading planes and 
ensuring they are handled with care.
    At many airports, agents are cross-trained and go back and forth 
between the ramp, ticket counter, and gates. Their job responsibilities 
can include handling and tagging checked bags, check-in process at the 
gates and kiosks, working at ticket counters, operational support, 
loading and unloading the aircraft, guiding aircraft to and from gates, 
de-icing, and cleaning, prepping and securing the aircraft for the next 
flight.
    Federal regulations require air carriers to comply with security 
measures set forth in the Transportation Security Administration (CFR) 
Part 1544. This CFR requires U.S. carriers to adopt and carry out an 
approved security program. The Transportation Security Administration 
(TSA) is responsible for ensuring that required security measures are 
carried out. Passenger service agents have the responsibility to comply 
with these regulations when doing their job. Passenger service agents 
receive training including online computer work, classroom training, 
and on-the-job training but no specific training on managing air rage.
    Agents' jobs are stressful and challenging. While working inside 
the airport, agents encounter angry passengers who blame them for 
mishaps. Working outside loading and unloading planes is physically 
demanding. In both areas, agents are pressured to avoid flight delays 
at all costs.
    Passenger service agents have reported incidents where they are 
verbally and physically assaulted. Agents have been attacked, hit, had 
luggage and equipment thrown at them, been pulled over counters and 
been spat upon. Since the carriers offer absolutely no training on 
dealing with violent passengers, they rely on intervention from other 
agents, employees, and even passengers. Passenger service agents report 
that rage is at an all-time high and employees sometimes feel like 
companies reward passenger's bad behavior especially now that 
passengers are using the threat of posting videos to social media.
    Sometimes the airport police get involved but in many cases, the 
carrier takes over to assist the passenger and not their hardworking 
employee. Too often, passengers face no consequences and in fact, are 
often escorted to their flights by airline supervisors. We have 
recently received reports of passengers who have exhibited disruptive 
or criminal behavior being boarded on flights where flight attendants 
have far fewer options to contain the problem and far greater 
consequences if the behavior continues or escalates.
    Customer behavior in the airport also affects the safe operation of 
flights and should be treated in a consistent manner. Given the 
patchwork of protocols to deal with assaults on passenger service 
agents at airports across the country, it is critical that a clear and 
mandated process is developed and shared with carriers, police/airport 
security, airports, and the agents to assure immediate attention 
warranted by a Federal assault.
    It is urgent that this protocol and education be developed and 
mandated by the DOT and distributed to carriers, local and airport 
police/security, airports, and the agents. It is only through clear 
national protocols and education that passenger service agents will 
know how to deal with abusive passengers; that airports and carriers 
have clear procedures to quickly manage these situations and take 
appropriate action; and that passengers understand the penalties for 
assaulting passenger service agents.
    The mandate must include clear instructions for educating 
passengers on the Federal penalties of assaulting an ``airport, or air 
carrier employee who has security duties within the airport''; training 
passenger service agents on how to de-escalate hostile situations and 
procedures for filing Federal charges; having airport management, 
airline supervisors and airport law enforcement focus on protecting and 
supporting agents and filing Federal charges; and ensures the presence 
of law enforcement personnel who are able to file Federal charges in 
the case of an assault on a passenger service agent.
    While we certainly understand, given the news lately, the interest 
in protecting passengers, we urge Congress to also consider the serious 
assaults that passenger service agents deal with every day. CWA will 
continue to speak out on behalf of our members who are simply doing 
their jobs and following the rules. These aviation workers deserve to 
work in a safe environment free from assaults by irrational and irate 
passengers. We ask Congress to protect these workers.
Recommended Policy and Regulatory Changes
    AFA-CWA believes several steps can be taken to assist with 
supporting flight attendants and passenger service agents in performing 
safety duties and trust in aviation:

  <bullet> Public statements from regulatory bodies, Congress and 
        industry leaders about the need to follow crewmember 
        instructions to keep aviation safe and secure.

  <bullet> Increase flight attendant and passenger service agent 
        staffing and provide de-escalation tools and techniques.

  <bullet> A study of evacuation standards, including the reality of 
        today's aircraft cabin configuration.

  <bullet> Improved reporting of safety and security concerns to the 
        proper authorities and enhanced enforcement of Federal laws 
        pertaining to passenger treatment of flight attendants and 
        passenger service agents.

  <bullet> Banning the use of voice communications in the aircraft 
        cabin.

  <bullet> Develop guidance for use of portable electronic devices on 
        aircraft.

  <bullet> Announcements in the gate area reinforcing safety 
        regulations, the role of the flight and cabin crew and 
        reminders about videotaping for personal use only.

  <bullet> Involve the representatives of frontline aviation workers in 
        any proposed policy or regulatory changes.

    AFA and CWA are committed, in concert with our airline partners, to 
maintaining the safest mode of transportation in the world, through an 
efficient and friendly aviation experience.

    Senator Blunt. Thank you, Ms. Nelson. We'll see if we can 
get to this so much more here in a minute.
    Ms. Greenberg?

  STATEMENT OF SALLY GREENBERG, EXECUTIVE DIRECTOR, NATIONAL 
                        CONSUMERS LEAGUE

    Ms. Greenberg. Good morning, Chairman Blunt, Ranking Member 
Cantwell, members of the Aviation Subcommittee. I'm Sally 
Greenberg, Executive Director of the National Consumers League, 
and we appreciate the invitation to be here today.
    Three weeks ago, America saw the shocking video of David 
Dao's violent removal from United Flight 3411, the predictable 
result of a lack of effective competition and consumer 
protection in the U.S. airline industry. What happened on that 
flight symbolizes a problem that is not unique to United. 
Indeed, as subsequent incidents on American Airlines and Delta 
and countless others which did not go viral, demonstrate power 
in the airline industry has become dangerously unbalanced. It's 
time for Congress to take action to assure consumers that the 
next time they fly, they won't become the unwitting star of 
their own viral video.
    How have we gotten to this point? In a word, competition, 
or, more specifically, the lack thereof. In the last decade 
alone, mergers have reduced nine large airlines to four: 
American, Delta, Southwest, and United. Together, these four 
control more than 80 percent of all domestic flights. At a 
staggering 93 of the top 100 airports, only one or two airlines 
control a majority of the seats. According to the GAO, from 
2007 to 2013, 1.2 million scheduled domestic flights were 
eliminated. As the big four carriers gobbled up competitors, 
smaller communities, in particular, were hard hit by this march 
toward oligopoly.
    For example, in 2008, San Antonio lost approximately 600 
jobs when AT&T relocated its corporate headquarters to Dallas. 
The company actually said in a press release, ``Being 
headquartered near leading air transportation facilities is 
critical to global companies like AT&T, as the airline industry 
continues to consolidate and reduce hubs and flights.''
    The industry has also sought to generate profits by 
literally squeezing passengers. Last year, average load factors 
topped 80 percent for the eighth consecutive year, and the 
average distance between rows, as Senator Nelson has described 
in great detail--the average distance--before regulation, it 
was 35 inches, and today, it's about 31 inches. American 
Airlines, as Senator Nelson has indicated, is set to even 
reduce those distances to smaller sizes. So Americans are 
getting bigger. We're getting heavier, and we are being crammed 
into smaller and smaller spaces.
    So all of this consolidation has resulted in higher prices 
for consumers, despite what you might hear this morning. A Wall 
Street Journal analysis of air fares, including add-on fees, 
found that from 2007 to 2014, a period coinciding with the 
worst economic crisis since the Great Depression, the price of 
the average round trip domestic flight increased nearly 16 
percent. These independent numbers stand in contrast to 
industry claims that it's never been better or cheaper to fly.
    There are steps that Congress could take and should take in 
the near term to address the worst impacts of the lack of 
competition. First, as the United incident vividly illustrated, 
airline bumping policies can lead to shockingly negative 
outcomes for consumers. Involuntary bumping should never occur 
in a competitive market. So airlines should be required to 
maintain interline agreements with other airlines to ensure 
that paying passengers who are bumped make it to their final 
destination with as little delay as possible.
    Second, the power imbalance between airlines and their 
passengers can no longer lie solely with the airlines. For 
example, consumers should be made aware in clear and 
conspicuous language of their rights at the time that they 
purchase their tickets via posters at the gate and at ticket 
counters. Passengers need access as well to the legal system to 
hold airlines accountable for their promises.
    Third, there seems to be no limit to outrageous charges for 
basic necessities, such as guaranteed seats, a piece of 
luggage, or the need to reschedule a flight. NCL along with 10 
other national consumer and passenger organizations supported 
and do support Senator Markey's and Senator Blumenthal's Fair 
Fees Act, which would prohibit airlines from charging 
cancellation, baggage, and other ancillary fees that are 
unreasonable or disproportionate to the cost incurred by the 
air carrier.
    The DOT should also strengthen its consumer protection 
policies to match or exceed those that are available to 
consumers in the European Union for things like compensation 
for delays, cancellations, or involuntary bumping. Finally, 
Congress should pass a comprehensive Passenger Bill of Rights 
which addresses these and other pressing consumer protection 
priorities, such as minimum seat standards and fair policies 
overall.
    In conclusion, consumers are angry. They're frustrated. We 
need members of this subcommittee to be in our corner to 
promote consumer rights and protections and to restore some 
semblance of balance and fairness between passengers and the 
airlines.
    Thank you to members of the subcommittee for inviting the 
consumer perspective. I look forward to your questions.
    [The prepared statement of Ms. Greenberg follows:]

      Prepared Statement of Sally Greenberg, Executive Director, 
                       National Consumers League
    Good morning Chairman Blunt, Ranking Member Cantwell and members of 
the Subcommittee. My name is Sally Greenberg and I am the Executive 
Director of the National Consumers League (``NCL''). Founded in 1899, 
NCL is America's pioneering consumer advocacy organization. Our 
nonprofit mission is to promote social and economic justice for 
consumers and workers in the United States and abroad. On behalf of NCL 
and the millions of Americans who travel by air every year, thank you 
for inviting me to testify today.
    Three weeks ago, America saw in the shocking video of Dr. David 
Dao's violent removal from United Flight 3411, the predictable result 
of the lack of effective competition and consumer protection in the 
U.S. airline industry. To be clear, what happened on that flight 
symbolizes a problem that is not unique to United. Indeed, as 
subsequent incidents on American Airlines \1\ and Delta \2\ and 
countless others before which did not ``go viral'' demonstrate, 
consumers are increasingly forced to choose between giving up their 
basic rights or not traveling by air.
---------------------------------------------------------------------------
    \1\ Rosenberg, Eli. ``American Airlines Suspends Flight Attendant 
After Altercation Over Stroller,'' New York Times. April 22, 2017. 
Online: https://www.nytimes.com/2017/04/22/business/american-airlines-
video-stroller.html
    \2\ Stingl, Jim. ``Stingl: Urgent trip to restroom gets man kicked 
off Delta flight,'' Milwaukee-Wisconsin Journal Sentinel. April 26, 
2017. Online: http://www.jsonline.com/story/news/columnists/jim-stingl/
2017/04/26/stingl-need-pee-gets-man-kicked-off-delta-flight-milwaukee/
100885528/
---------------------------------------------------------------------------
    In a country where millions of consumers regularly depend on 
airlines to get them to business and family obligations, not traveling 
is simply not an option. So, consumers subject themselves to the whims 
of an industry that routinely demonstrates that customer service is a 
luxury that only the well-heeled can afford. The rest of us are 
relegated to ``cattle class,'' paying exorbitant fees for 
``privileges'' like bringing a carry-on bag onboard or sitting in an 
actual, guaranteed seat and, in some cases, risking involuntary 
ejection from the airplane by the airline's version of a bouncer.
    It is time for Congress to step in and restore consumers' rights in 
the airline industry. Only through Congressional action can American 
consumers be assured that the next time they fly, they won't become the 
unwitting star of their own viral airline video.
I. Unchecked Consolidation in the Airline Industry Has Led to Higher 
        Prices, Fewer Flights, and Worse Service
    There is a lack of effective competition to hold down the cost of 
flying and promote good customer service. Since deregulation in the 
late 1970s, there have been no fewer than 40 airlines mergers. In the 
last decade alone, mergers have reduced 9 large airlines to 4--
American, Delta, Southwest, and United.\3\ Together, these 4 control 
more than 80 percent of all domestic flights.\4\ At 40 of the 100 
largest U.S. airports, a single airline controls a majority of the 
market, as measured by the number of seats for sale, up from 34 
airports in 1995. At a staggering 93 of the top 100 airports one or two 
airlines control a majority of the seats, an increase from 78 airports 
in 1995.\5\
---------------------------------------------------------------------------
    \3\ Airlines for America. ``U.S. Airline Mergers and 
Acquisitions.'' Online: http://airlines.org/dataset/u-s-airline-
mergers-and-acquisitions/
    \4\ Martin, Hugo. ``Justice Department approves Alaska Airlines' 
acquisition of Virgin America,'' Los Angeles Times. December 6, 2016. 
Online: http://www.latimes.com/business/la-fi-alaska-virgin-20161206-
story.html
    \5\ Associated Press. ``Airlines carve U.S. into markets dominated 
by 1 or 2 carriers.'' July 14, 2015. Online: http://
www.chicagotribune.com/business/ct-airlines-local-monopolies-20150714-
story.html
---------------------------------------------------------------------------
    This lack of competition has had negative impacts on consumers and 
communities across America. One reason that Dr. Dao may have been so 
insistent on not being bumped from United 3411 is that his was the last 
available flight from Chicago to Louisville that day. Decreasing 
competition is a big reason why Louisville, like so many other small 
and mid-sized cities, is underserved by the network airlines. According 
to the Government Accountability Office, from 2007 to 2013--a period 
that coincided with major mergers between Southwest and AirTran, Delta 
and Northwest, United and Continental, and USAirways and American \6\--
1.2 million scheduled domestic flights were eliminated. Smaller 
communities in particular were hit hard by the adverse effects of 
airline consolidation. Scheduled departures at medium and small hub 
airports decreased by nearly 24 percent and 20 percent, 
respectively.\7\
---------------------------------------------------------------------------
    \6\ Airlines for America. ``U.S. Airline Mergers and 
Acquisitions.'' Online: http://airlines.org/dataset/u-s-airline-
mergers-and-acquisitions/
    \7\ United States Government Accountability Office. Airline 
Competition: The Average Number of Competitors in Markets Serving the 
Majority of Passengers Has Changed Little in Recent Years, but 
Stakeholders Voice Concerns about Competition, GAO-14-515. June 2014. 
Pg. 35. Online: http://www.gao.gov/assets/670/664060.pdf
---------------------------------------------------------------------------
    These service reductions have negative impacts not just on 
consumers, but also on the communities who lose service. For example:

  <bullet> In 2008, San Antonio lost approximately 600 jobs when AT&T 
        relocated its corporate headquarters to Dallas, citing the need 
        for access to more direct flights as a key reason for the 
        move.\8\ In its press release announcing the move, AT&T stated 
        that ``[b]eing headquartered near leading air transportation 
        facilities is critical to global companies like AT&T as the 
        airline industry continues to consolidate and reduce hubs and 
        flights amid higher fuel prices and industry economic 
        pressures.'' \9\
---------------------------------------------------------------------------
    \8\ Poling, Travis and Pack, William. ``AT&T leaving San Antonio 
for Dallas,'' San Antonio Express-news. June 28, 2008. http://
www.chron.com/business/article/AT-T-leaving-San-Antonio-for-Dallas-
1758611.php
    \9\ ``AT&T Corporate Headquarters to Move to Dallas,'' AT&T press 
release. June 27, 2008. Online: https://www.att.com/gen/press-
room?pid=4800&cdvn=news&newsarticleid=25882

  <bullet> In 2013, Decatur, Illinois lost 75 jobs when Archer Daniels 
        Midland moved its headquarters to Chicago, citing the need for 
        ``efficient access to global markets,'' and ``better access to 
        transportation'' for its top executives.\10\
---------------------------------------------------------------------------
    \10\ Polansek, ``Archer Daniels Midland pricks Chicago for new 
headquarters,'' Reuters. December 18, 2013. Online: http://
www.reuters.com/article/adm-headquarters-chicago-idUSL2N0J
X13X20131218

  <bullet> Veritiv, a Fortune 500 distributor of packaging, print, and 
        publishing products and solutions, moved 50 high-paying jobs 
        from Cincinnati to Atlanta in 2015 after Delta abandoned 
        Cincinnati/Northern Kentucky International Airport. ``The 
        airport here is not suitable for business travel,'' said 
        Veritiv CEO Mary Laschinge at the time.\11\
---------------------------------------------------------------------------
    \11\ Hussein, Fatima and Williams, Jason. ``Fortune 500 boss: CVG 
reason for leaving,'' Cincinnati Enquirer. October 16, 2015. Online: 
http://www.cincinnati.com/story/money/2015/10/16/fortune-500-boss-cvg-
reason-leaving/73605974/

    As if fewer flights to fewer cities by a dwindling number of 
competitors wasn't enough, the industry has also sought to generate 
profits by squeezing ever more passengers in its planes' limited space. 
Fifteen years ago, average load factors for domestic flights on U.S. 
airlines was 70.42 percent. Last year, thanks to consolidation, the 
increasing use of small-capacity planes, and advanced technology, 
average load factors again topped 80 percent for the 8th consecutive 
year.\12\
---------------------------------------------------------------------------
    \12\ Bureau of Transportation Statistics. ``Load Factor (passenger-
miles as a proportion of available seat-miles in percent ( percent)) 
All U.S. Carriers--All Airports,'' Online: https://
www.transtats.bts.gov/Data_Elements.aspx?Data=5
---------------------------------------------------------------------------
    The airlines are also shrinking seat size in an effort to cram more 
customers into their planes. The average distance between rows of seats 
has dropped from 35 inches before airline deregulation in the 1970s to 
about 31 inches today. The average width of an airline seat has also 
shrunk from 18 inches to about 16\1/2\ inches.\13\ The shrinking seat 
size has caused many medical professionals to raise the alarm over 
adverse health problems related to squishing yourself into an ever 
shrinking seat like deep vein thrombosis.\14\ To add insult to injury, 
airlines are even reducing the size of on-board bathrooms. The reduced 
size has created significant concerns for the safety of crew and 
passengers as well as accessibility concerns for passengers with 
disabilities.\15\ With shrinking seats, aisles, and bathrooms, fuller 
planes, and adverse health effects and boarding delays due to 
overcrowding, is it any wonder that consumers and crew are increasingly 
at the end of their collective ropes when it comes to air travel?
---------------------------------------------------------------------------
    \13\ Congressman Steve Cohen. ``Reps. Cohen and Kinzinger, Senators 
Blumenthal, Schumer, Markey, Menendez and Feinstein Introduce 
Bipartisan, Bicameral SEAT Act,'' Press release. March 9, 2017. Online: 
https://cohen.house.gov/media-center/press-releases/reps-cohen-and-
kinzinger-senators-blumenthal-schumer-markey-menendez-and
    \14\ ``Safety risk of shrinking airline seats questioned,'' Los 
Angeles Times. April 14, 2015. Online: http://www.latimes.com/business/
la-fi-airline-seat-risks-20150414-story.html
    \15\ Eng, Dinah. ``Smaller Bathrooms on Planes Pose Challenges for 
Passengers,'' New York Times. December 23, 2016. Online: https://
www.nytimes.com/2016/12/23/travel/smaller-airplane-bathrooms-
challenges-for-passengers.html
---------------------------------------------------------------------------
    Unsurprisingly, fewer flights on fewer airlines with more 
passengers competing for limited space has resulted in higher prices 
for consumers. Over 10 years, average domestic fares climbed 5 percent 
after adjusting for inflation according to an Associated Press 
analysis.\16\ Even that number excludes the record revenues that 
airlines have reaped from so-called ``unbundling,'' a phenomenon 
consumers experience in the form of a litany of baggage fees, 
cancellation fees, standby fees, seat reservation fees and other forms 
of nickel-and-diming. In 2015 alone, American, Delta and United brought 
in $14.69 billion in ancillary revenue, a staggering 177 percent 
increase from the $5.3 billion they collected from such fees in 
2008.\17\ A Wall Street Journal analysis of airfares, including add-on 
fees, found that from 2007 to 2014--a period coinciding with the worse 
economic crisis since the Great Depression--the price of the average 
round-trip domestic flight increased nearly 16 percent to $291.30. \18\ 
These independent analyses stand in stark contrast to industry claims 
that it has never been a better and cheaper time to fly.
---------------------------------------------------------------------------
    \16\ Koeing, David and Mayerowitz, Scott. ``U.S. airports 
increasingly dominated by 1 or 2 carriers,'' USA Today. July 15, 2015. 
Online: https://www.usatoday.com/story/todayinthesky/2015/07/15/us-
airports-increasingly-dominated-by-1-or-2-carriers/30152927/
    \17\ IdeaWorks. 2016 Yearbook of Ancillary Revenue. September 2016. 
Page 4. Online: http://www.ideaworkscompany.com/wp-content/uploads/
2016/09/2016-Ancillary-Revenue-Yearbook-R.pdf
    \18\ Nicas, Jack. ``Airline Consolidation Hits Smaller Cities 
Hardest,'' Wall Street Journal. September 10, 2015. Online: https://
www.wsj.com/articles/airline-consolidation-hits-smaller-cities-hardest-
1441912457
---------------------------------------------------------------------------
    The increasing cost of flying is felt even more acutely by 
consumers in cities where consolidation has left only one or two 
dominant carriers. For example:

  <bullet> Indianapolis was left with just two dominant airlines after 
        ATA was bought by Southwest and Northwest was absorbed by 
        Delta. The two airlines now control 56 percent of the seats and 
        airfares are 6 percent above the national average.

  <bullet> In 2005, U.S. Airways controlled nearly 66 percent of the 
        seats in Philadelphia. After its merger with American, the 
        combined airline had 77 percent of the seats. After the merger, 
        airfares there went from 4 percent below the national average 
        to 10 percent above it.

  <bullet> From 2005-2015, Delta's control of its Atlanta hub increased 
        from 78 percent to 80 percent of the available seats. At the 
        same time, AirTran merged with Southwest, which subsequently 
        reduced its presence there. As a result, domestic airfares to 
        Atlanta went from nearly 6 percent below average to 11 percent 
        above.\19\
---------------------------------------------------------------------------
    \19\ Associated Press. ``Analysis sheds light on the impact of 
airline consolidation,'' July 14, 2015. Online: http://www.cbsnews.com/
news/analysis-sheds-light-on-impact-of-airline-consoli
dation/

    Conversely, when competition increases, fares tend to go down and 
---------------------------------------------------------------------------
service improves. For example:

  <bullet> Prices in Denver were once 5.6 percent higher than the 
        national average. When United's market share there dropped from 
        56 percent to 41 percent, fares plunged to levels almost 15 
        percent lower that the overall average.

  <bullet> In Seattle, where Delta is aggressively competing with 
        Alaska Airlines, average fares are $18 below the national 
        average and Alaska added service to compete.\20\
---------------------------------------------------------------------------
    \20\ ibid.
---------------------------------------------------------------------------
II. Lack of Effective Competition Requires Action by Congress to 
        Restore Passenger Rights
    The negative effects of unchecked consolidation in the airline 
marketplace has been decades in the making and is unlikely to be solved 
by a single piece of legislation, regulation, or the airlines 
themselves. However, there are steps that Congress can take in the near 
term to address the worst impacts of a lack of competition and restore 
balance to the relationship between airlines and their passengers.
    First, as the United 3411 incident vividly illustrated, airline 
overbooking policies, and the resulting bumping practices, can lead to 
shockingly negative outcomes for passengers. Overbooking is a vestige 
of a time when consumers could make multiple reservations to maximize 
their travel flexibility and cancel their flights without penalty. To 
account for this, airlines began overbooking their flights to ensure 
that they flew with as few empty seats as possible. Airlines were safe 
in assuming that this practice would not actually overbook them as 
their planes regularly flew at less than half capacity.\21\
---------------------------------------------------------------------------
    \21\ Hargreaves, Steve. ``Why planes used to fly half full,'' CNN 
Money. April 29, 2015. Online: http://money.cnn.com/2015/04/29/news/
economy/planes-half-full/
---------------------------------------------------------------------------
    Fast forward to today and airlines no longer offer such 
conveniences and customer service. Average load factors are regularly 
above 80 percent \22\ and planes often reach full capacity. Yet, as the 
Dao incident highlighted, overbooking continues to be a standard 
operating practice in the industry. In 2016, because of airline 
overbooking practices, more than 430,000 passengers were voluntarily 
bumped. And while the industry likes to point to the low rates of 
involuntary bumping, many of the 40,629 consumers who were 
involuntarily bumped in 2016 almost certainly ended up losing hotel 
reservations and missing weddings, funerals or important meetings.\23\ 
That first class ticket holders are typically last in line while those 
like Dr. Dao who try to save money get chosen first for involuntary 
bumping is just salt in the wound for the vast majority of consumers 
who can't afford to fly luxury class.
---------------------------------------------------------------------------
    \22\ Waitzman, William. ``No Room on the Plane: Why Airliners Are 
So Crowded,'' Barron's. April 15, 2017. Online: http://www.barrons.com/
articles/no-room-on-the-plane-why-airliners-are-so-crowded-1492232384
    \23\ United States Department of Transportation. Air Travel 
Consumer Report. Pg. 35. April 2017. Online: https://
www.transportation.gov/sites/dot.gov/files/docs/resources/individuals/
aviation-consumer-protection/278481/2017-april-atcr.pdf
---------------------------------------------------------------------------
    Involuntary bumping should never occur in a competitive market. 
Airlines should be competing for customers by offering enticing 
compensation to encourage volunteers to take flights that aren't 
overbooked. Airlines should be required to maintain interline 
agreements with other airlines to ensure that paying passengers who are 
bumped (whether voluntarily or involuntarily) make it to their final 
destination with as little delay as possible. United's decision in the 
wake of the Dao incident to offer up to $10,000 in compensation for 
voluntary bumping is to be commended.\24\ Hopefully it won't take 
another David Dao incident to get the other airlines to follow suit and 
eliminate the need for involuntary bumping altogether. If the airlines 
fail to heed the lessons of the United 3411, Congress and the 
Department of Transportation (``DOT'') must step in to make sure that 
overbooking never results in a paying passenger being violently removed 
from a plane against her or his will when he or she poses no safety or 
security risk. NCL supports, for example, Sen. Hassan's TICKETS Act of 
2017, which would prohibit involuntary bumping after a passenger has 
boarded, eliminate limits on compensation for involuntary bumping, 
limit carrier overbooking practices, and require prominent disclosure 
of carriers' overbook policies.\25\
---------------------------------------------------------------------------
    \24\ Wise, Alana. ``United to offer passengers up to $10,000 to 
surrender seats,'' Reuters. April 27, 2017. Online: http://
www.reuters.com/article/us-ual-passenger-idUSKBN17T0HC
    \25\ Online: https://www.congress.gov/bill/115th-congress/senate-
bill/947/cosponsors?q=%7B%
22search%22%3A%5B%22s+947%22%5D%7D&r=1
---------------------------------------------------------------------------
    Second, the power in the relationship between airlines and their 
passengers can no longer lie solely with the airlines. It has been 
well-documented that the airlines' Contracts of Carriage are 
indecipherable legal tomes that are not read or understood by 
consumers, but which nonetheless absolve the airlines of practically 
all responsibility when things go wrong.\26\ They are in all senses 
Contracts of Adhesion. This works against consumer protections. We 
propose instead that consumers must be made aware in clear and 
conspicuous language of their rights at the time of purchase, on their 
tickets, and via posters at the gate and ticket counters. When airlines 
abuse the trust their customers place in them, passengers need to 
regain access to the legal system to hold airlines accountable for 
their promises.
---------------------------------------------------------------------------
    \26\ See, e.g., Testimony of William J. McGee Before the House 
Committee on Transportation and Infrastructure Concerns ``Oversight of 
U.S. Airlines Customer Service.'' Pg. 5. May 2, 2017. Online: https://
transportation.house.gov/uploadedfiles/2017-05-02_-_mcgee_testimony.pdf
---------------------------------------------------------------------------
    Third, the inexorable march of unbundling--charging for basic 
necessities such as a guaranteed seat, a piece of luggage, or the need 
to reschedule a flight--must be curtailed. Thanks to the rampant growth 
in add-on fees, the cost of ``airfare'' is becoming an increasingly 
irrelevant metric. Because the major network airlines are in relative 
lockstep when it comes to ancillary fees like baggage, (Southwest alone 
among the Big Four airlines doesn't charge cancellation or checked 
luggage fees, to their credit) cancellation, standby and other 
fees,\27\ competition among the large airlines to offer the best fare 
is unlikely to have a significant impact on the overall cost of flying.
---------------------------------------------------------------------------
    \27\ United States of America et al v. U.S. Airways Group, Inc. and 
AMR Corporation. Complaint. Pg. 3, Para. 1. August 13, 1013. Online: 
https://www.justice.gov/atr/case-document/file/514531/download
---------------------------------------------------------------------------
    Requiring airlines to justify the prices they set for ancillary 
fees is a logical first step in reining in this trend. NCL--along with 
10 other major national consumer and passenger rights organizations--is 
a strong supporter of Senator Markey's and Senator Blumenthal's FAIR 
Fees Act.\28\ The bill, which enjoyed bipartisan support in the Senate 
Commerce Committee, would prohibit airlines from charging cancellation, 
baggage or other ancillary fees that are ``unreasonable or 
disproportionate to the costs incurred by the air carrier,'' under 
standards to be set by the DOT. The bill would not re-regulate the 
airlines, as the industry claims, but would remedy a systemic violation 
of the free market system that has been pointed out repeatedly by both 
DOT and Department of Justice.
---------------------------------------------------------------------------
    \28\ National Consumers League et al. ``Consumer group letter to 
Sens. McConnell and Reid on FAIR Fees Act,'' April 5, 2016. Online: 
http://www.nclnet.org/letter_fairfees#_edn9
---------------------------------------------------------------------------
    Fourth, consumers must once again have the ability to compare 
apples to apples when it comes to finding the best deal for their 
desired flights. The growth in online travel agents (``OTAs'') in the 
1990s was a key driver in reducing the cost of flying because they for 
the first time enabled flyers to easily compare fare and schedule 
information across various airlines and choose the best deal for their 
needs. Unfortunately, as ancillary fees have exploded, it has become 
increasingly difficult for consumers to compare true cost of flying 
from point A to point B. This is, in a word, anti-competitive.
    Under the Obama Administration, the DOT initiated a proceeding to 
investigate whether airlines should be required to provide ancillary 
fee information to OTAs and metasearch websites. Unfortunately, 
Transportation Secretary Chao has put an indefinite hold on that 
proceeding.\29\ Consumers should be able to input their specific 
requirements in a travel search engine (e.g., traveling from Washington 
to Chicago with one checked bag, bringing a pet, need extra legroom) 
and get an accurate listing of the costs for flying on various 
airlines. Given DOT's likely inaction without Congressional mandate, we 
would ask this committee to instruct DOT to promulgate rules requiring 
airlines to provide schedule, fare, and ancillary fee data to OTAs and 
metasearch sites on an open and non-discriminatory basis.
---------------------------------------------------------------------------
    \29\ Jansen, Bart. ``DOT to stop collecting comment on airfare, fee 
proposals,'' USA TODAY. March 2, 2017. Online: https://
www.usatoday.com/story/travel/flights/todayinthesky/2017/03/02/airline-
fees/98654914/
---------------------------------------------------------------------------
    Fifth, the DOT should seek to strengthen its consumer protection 
policies to match or exceed those that are available to consumers in 
the European Union (``EU''). Under current law, airline passengers in 
the EU enjoy substantially stronger consumer protections. For example, 
for flights originating in the EU (including flights operated by a U.S. 
carrier), when a flight is delayed passengers are entitled to up to 
&euro;600 in compensation, plus meals and refreshments, hotel 
accommodations, transport to and from the hotel.\30\ By comparison, 
under U.S. law, airlines are under no obligation to offer compensation 
for delays, even when the delay is due to factors within the airline's 
control.
---------------------------------------------------------------------------
    \30\ Regulation (EC) No 261/2004 of the European Parliament and of 
the Council of 11 February 2004 establishing common rules on 
compensation and assistance to passengers in the event of denied 
boarding and of cancellation or long delay of flights, and repealing 
Regulation (EEC) No 295/91 (Text with EEA relevance)--Commission 
Statement. Online: http://eur-lex.europa.eu/legal-content/EN/TXT/
?qid=1476179175834&uri=CELEX:32004R0261
---------------------------------------------------------------------------
    Finally, Congress should pass a comprehensive Passenger Bill of 
Rights addressing these and other pressing consumer protection 
priorities, such as minimum seat size standards. Such action would be 
an important step in addressing the significant imbalance of power that 
exists between consumers and the airlines.
    In conclusion, I would like to again emphasize the urgent need for 
Congress to take action to address the lack of competition that 
inhibits free market forces from working effectively to discipline the 
airlines' unconscionable treatment of their customers. It should not 
require millions of views of a video of a passenger being assaulted on 
an airplane to galvanize Congress into taking action. Consumers have 
spoken and they are demanding stronger protections from abuses by the 
airline industry. American consumers desperately need members of the 
Senate Commerce Committee to be in their corner, to protect and promote 
consumer rights and protections and to restore some semblance of 
balance to airline passengers' relationships to the carriers.
    Chairman Blunt, Ranking Member Cantwell and members of the 
subcommittee, I appreciate your including the consumer perspective in 
this hearing. I look forward to answering your questions.
    Thank you.

    Senator Blunt. Thank you, Ms. Greenberg.
    There'll be a number of members here, and we'll try to keep 
our question time to 5 minutes in the order that people came to 
the Committee, with the exception of the Chairman. If he shows 
up, we'll give him the same courtesy we gave the Ranking Member 
when he was here.
    Mr. Kirby, what kind of flexibility do your gate agents and 
your flight attendants have in terms of trying to deal with 
overbooking? And while you're dealing with that, it's my 
understanding, even in the normal rules, that nobody made an 
offer that was the maximum offer that a passenger could be 
offered under those rules?
    Mr. Kirby. Thank you, Senator. First, this situation was 
not because of overbooking. As most of our oversell situations 
occur for operational reasons, weight restrictions due to 
weather are the most common, where we can't take off with a 
full load of passengers or land with a full load of passengers. 
In this particular situation, our employees are authorized to 
go up to a certain limit, and they concluded on the airplane 
that no one was going to go even at that limit. So it's not 
clear why they didn't go all the way to the limit.
    But what we have done and one of the clear findings from 
this is we need to give our employees more tools and more 
flexibility. That's why by going up to $10,000 and by creating 
this alternative travel desk that can get people to different 
destinations that might be close to their home, we really 
believe that we're going to be able to drive our involuntary 
denied boardings close to zero, and that's one of our goals, is 
to get involuntary denied boardings close to zero, where we can 
accommodate all the customers in a way that customers view as a 
win-win solution.
    Senator Blunt. Did you say that more people are taken off 
planes or not put on planes because of weight and safety issues 
than that you sold more seats?
    Mr. Kirby. Yes, sir. The vast majority of our involuntary 
denied boardings--at United, about two-thirds of our 
involuntary denied boardings come from operational issues, 
usually weight restrictions for weather or an aircraft swap, 
which is often because of maintenance or because of weather, 
where the airplane couldn't arrive at the destination in time 
to take the flight. Those operational issues, where you have to 
take 20 or 30 passengers off an airplane, are where we have 
involuntary denied boardings.
    Overbooking usually has one to two passengers that are over 
the limit, and, generally speaking, we can get someone to 
volunteer by giving them alternative compensation and 
alternative travel arrangements. In the vast majority of those 
cases, we can get a customer that volunteers, and we view that 
as a win-win, that if a customer is willing to accept the 
alternative compensation, we've left a customer satisfied.
    Senator Blunt. Commissioner Evans, you said that what 
happened with the flight that Dr. Dao was on was not in 
accordance with your guidelines for the law enforcement or the 
police officials. How do you categorize, by the way, the people 
that do this job for you at the airport?
    Ms. Evans. Thank you, Senator.
    Senator Blunt. Push your button and turn your mike on, and 
let me sure I've got this right. How do we refer to the people 
that got on the plane?
    Ms. Evans. They are referred to as aviation security 
officers. They are non-sworn, non-armed security personnel. 
Their primary responsibility is to enforce the Federal security 
laws, so, you know, alarmed doors. They make sure that people 
who are in certain areas of the airport have the proper badge. 
They patrol the perimeters to make sure----
    Senator Blunt. Why do you think they didn't comport to what 
you say your procedures were?
    Ms. Evans. You know, the details of exactly what was said 
is being thoroughly investigated by the Inspector General. In 
terms of what they were thinking or why they did what they did, 
I have to wait for the findings of that report to know. I 
honestly don't know at this point why they----
    Senator Blunt. Do you think it's a lack of training?
    Ms. Evans. We certainly will enhance our training. I think 
that it's such an infrequent event. It really isn't ever an 
event. We can't actually find another instance. It's so 
infrequent for, in particular, those officers. Normally, it is 
Chicago police who boards the plane. We have made it clear in 
the future that those aviation security officers will not board 
the plane. They are to wait for Chicago police.
    We've had--you know, we have six and a half million 
passengers a month who go through O'Hare--six and a half 
million a month. So this is a very rare occurrence. There's no 
question that training for such an infrequent event needs to be 
enhanced because of the severity of it. And, certainly, the 
directives need to be crystal clear.
    Senator Blunt. Ms. Nelson, just one quick question here, 
and you will have to be concise or I'll violate my own rule to 
try to keep us to our 5 minutes. And I may have to ask it in a 
different round, but my question will be: Both United and 
Commissioner Evans suggest that people aren't going to get on 
planes anymore except with great--let's see, one phrase was 
great physical risk. What does that do if you're on the plane 
to your ability to deal with a passenger who doesn't want to be 
dealt with?
    Ms. Nelson. Well, if we are on the plane and someone 
doesn't want to be dealt with, we have to advocate through the 
flight deck that we have a security concern, and in those 
cases, we should be having assistance from law enforcement. Or 
there are other tools that the airline can use, and we would be 
working together as a team with the flight deck, with the 
ground service coordinators, and it may be that the entire 
plane needs to be deplaned. So these are some of the tools that 
we have today to be able to deal with that. But we do need the 
assistance of law enforcement when it is a safety or security 
issue.
    Senator Blunt. We'll see how this goes and see if I need to 
come back to this topic later.
    Ms. Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    I listened to the testimony across the board, and I just 
want you to know that nobody has fought harder during the time 
that Wall Street prices drove fuel for airlines up, quadrupling 
and costing us. So we were there, and many people came and 
participated in those press conferences on what it was doing to 
the industry.
    I was also there when, last year, or 2 years ago, we put an 
FAA bill together and we didn't give flight attendants the same 
rest time as pilots. We should correct that this time and make 
sure that there is parity.
    So I understand the larger challenges to the airline 
industry. But it is still no excuse for dehumanizing the 
aspects of passenger travel and just making them part of 
someone's business plan, and we have to come back and look at 
the stress that is being caused in the system as we have 
deregulated and put this in this game of monopoly but not 
giving the passengers a fair end of the stick.
    So I do want to get to you, Ms. Greenberg, about what you 
think is in the Passenger Bill of Rights, because I have my own 
ideas about what should be in a Passenger Bill of Rights.
    But, Mr. Kirby, I just want to make sure I understood you 
correctly. Are you saying that Mr. Dao's flight was not an 
overbooked flight?
    Mr. Kirby. No, ma'am. His flight was overbooked by one, but 
we had a customer compensated and removed from the flight 
before boarding. The situation with Mr. Dao was not caused by 
overbooking. It was caused by putting four crew members on the 
airplane after the flight was already boarded, policies that 
we've changed so it can never happen again.
    Senator Cantwell. What do you consider that, putting four 
crew members on a flight?
    Mr. Kirby. Well, in this case, it was just wrong. We 
booked----
    Senator Cantwell. I think it's your definition of 
overbooking that was wrong. So you're parsing words here, which 
does not give me the faith that you fully understand the 
severity of this situation. By that, I mean that the airlines 
are treating passengers as an algorithm. They're part of a 
computer-based system where when you want to take someone off 
the flight, you go to the person, as in Mr. Dao's case, who 
doesn't have a frequent flyer, paid the lowest fare, checked in 
at the last boarding time, so you basically are picking by 
algorithms who you want to kick off of a flight.
    And to now think that you would say that overbooking here 
at this hearing this morning does not include your crew 
members--you have to compensate for the traveling of your crew 
members. But you can't, then, get an exemption on, oh, well, 
that's not overbooking. So I'm really befuddled by the fact 
that you're parsing words this morning in a way that makes me 
think that--you know, this is what's going to end up in a 
Passenger Bill of Rights. We're going to tell you how you can 
and can't operate to protect consumers and the traveling 
public. We are not going to turn them into an algorithm with 
the cheapest purchased ticket is going to now get booted off 
because you're going to continue to communicate this way.
    Mr. Kirby. Ma'am, I'm sorry if I'm not communicating well. 
We do use the term, overbooking, to mean very specific--where 
the airline is selling more seats than there are on the 
airplane, and----
    Senator Cantwell. And you should compensate in a travel 
plan where your crew is part of that and stop using them as an 
addition to the overbooking. You need to compensate for them 
before.
    Mr. Kirby. Yes, ma'am. We----
    Senator Cantwell. If you want us to legislate that, we 
will, because we're not going to run into the same situation.
    Mr. Kirby. Yes, ma'am. We do do that. In this case, what 
happened was their previous flight got canceled. That's why 
they were being booked at the last minute. When we normally 
travel crews, we book them and take a seat out of inventory.
    Senator Cantwell. Ms. Greenberg, you mentioned this. What 
do you think we should do about this issue as it relates to the 
fact that I think they still want a little bit of room here on 
changes in flights and schedules and getting crew to a certain 
location? What do you think we should do about that?
    Ms. Greenberg. Well, I think the issue of overbooking these 
days is really a thing of the past. It ought to be, because 
every passenger who pays has paid up front for their ticket. 
There should be no instances when you paid for a ticket and 
you're sitting in your seat and you're taken off the flight. We 
don't understand why that needs to happen, since the airlines--
in the old days, the airlines were out of pocket because people 
would make reservations on five different flights and wouldn't 
show up for perhaps four of them. But now the airlines have 
that money in the bank, and so we think that they ought to 
accommodate--be accommodating the fact that all those seats are 
paid for, and I don't understand why we continue to have this 
problem with overbooking and why airlines continue to overbook 
and are pocketing those profits sometimes twice over.
    Senator Cantwell. And what do you think--any of the 
panelists--who should be making these decisions in the context 
of--now, we're hearing from the airlines that they're no longer 
going to do this, that they're going to compensate people in a 
range of, you know, fees. But my question is who's going to 
decide that, and who's going to make these decisions along the 
way? I just feel like the airlines are basically leaving too 
much of this to interpretation at the gate level, and we need 
to build a culture within the airlines who are going to have 
management who are responsible for these kinds of decisions and 
actions, and not just pushing it down either to the flight 
attendants or the gate people to enforce.
    Ms. Greenberg. One of the things we mentioned in our 
testimony is we would like to see a European Union style 
system, where you're guaranteed a certain level of compensation 
for a flight that's canceled, for a flight that's delayed, 
depending on how long the flight is delayed and the distance 
that you're traveling. European consumers have far more robust 
consumer protections than we do in the United States, and we 
don't understand why that should be.
    Senator Cantwell. Thank you, Mr. Chairman. My time is up.
    Senator Blunt. Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Kirby, since this incident in Chicago, 
how has business been at United?
    Mr. Kirby. Well, sir, while this was a horrible incident 
that was terrible and shameful to all of us at United, for the 
most part, everything else at United is going really well. 
That's one of the things that is also disappointing to us, 
because, operationally, United is running the best airline in 
history that we've ever run.
    Senator Wicker. Well, how are your boardings? Have you had 
as many bookings as before?
    Mr. Kirby. Sir, it's impossible for us to see in the data--
--
    Senator Wicker. Well, how has your stock been in the last 3 
weeks since this incident?
    Mr. Kirby. Our stock initially went down, but has recovered 
since. But our----
    Senator Wicker. In fact, it's higher now than it was the 
day of the incident. Is that correct?
    Mr. Kirby. Yes, sir.
    Senator Wicker. You know, I think--what do you think that 
says? Well, let me try----
    Mr. Kirby. The stock price?
    Senator Wicker. I think it says that you've got the 
passenger where you want him. I think it says there's not 
enough competition in the industry, and people that had to fly 
with United before still have to fly with United if they want 
to get somewhere, and there really is no choice, so business is 
really back where it was.
    I remarked to my wife when I saw on TV how much the stock 
had dropped if--my disclosing it--if I weren't a public 
official, I would have seen it as a buying opportunity, because 
it was obvious to me that the passenger has nowhere else to go, 
and so it's not surprising to me that your stock has returned, 
because, basically, your boardings are going to be about the 
same. If the traveling public wants to boycott United as a 
result of this outrageous incident, which you say you've 
corrected, they really don't have a way to boycott you, do 
they?
    Mr. Kirby. Sir, there are lots of competition, and they 
have a way to boycott us. I would like to think that our stock 
recovery is because we truly are going to fix the airline and 
make customers at the center of everything we do, and that 
commitment that we've adopted is going to help us not only 
improve for customers, but it's going to help us improve for 
our employees, and that will lead to better results for the 
shareholders. We absolutely are committed to improving, and our 
customers do have choices. There's great competition in the 
U.S. airline industry.
    Senator Wicker. Ms. Greenberg, what is your view on that 
issue?
    Ms. Greenberg. We've got an extremely concentrated industry 
with 80 percent of flights across the country being controlled 
by four airlines.
    Senator Wicker. If I fly out of Chicago, in many instances 
there's no place for me to go if I want to boycott United 
because of this. Is that correct?
    Ms. Greenberg. That's correct. Just to give you a statistic 
on that, at 40 of the largest 100 airports, a single airline 
controls a majority of the market. At a staggering 93 of the 
top 100 airports, one or two airlines control a majority of 
seats, an increase from 78 airports in 1995.
    Senator Wicker. How are we doing on people with 
disabilities, particularly disabled veterans? It's my 
understanding that in 2015, more than 30,000 passengers filed 
disability-related complaints with the airlines, and in 2016, 
862 complained directly to the Federal Government. In 2015, 944 
complained directly to the Federal Government.
    Ms. Pinkerton, how are the airlines doing in that regard?
    Ms. Pinkerton. That's an issue that we have paid attention 
to in the last couple of years. In fact, the last FAA extension 
bill that this committee passed had two provisions relating to 
access for the disabled. I sat in on the first issue that was 
mandated, and that was a GAO study to look at how carriers are 
training our crew with respect to how they handle wheelchairs, 
damaged wheelchairs, et cetera. From that, DOT created new 
training that carriers incorporated into their own training.
    The second issue was that you all required a rulemaking, 
and that rulemaking got underway. It was a negotiated 
rulemaking. Carriers sat down with the disabled community and 
DOT and engaged in a negotiated rulemaking. We came up with 
long-term and short-term solutions. There was agreement. For 
the long term, we agreed on a larger lavatory for single aisle 
planes. In the short term, there were three things. It was, 
again, relating to training and better information, both for 
the disabled community about what their rights were, but also 
for airline crew. Also, there is a label that will be put on 
planes that have an international standard that is like a Good 
Housekeeping seal of approval if they meet certain criteria.
    And with respect--I know Senator Cantwell is not here, but 
she mentioned the paralyzed veterans. We have been ongoing, 
having a dialog with them. They've asked us not to talk 
publicly yet about what agreements we are coming to. But I can 
tell you that those conversations are progressing. So my 
response is that we recognize that this is an issue, and we've 
been taking it seriously, working on it, and I think that 
things are changing.
    But if I can, please, take the opportunity to respond to 
your concerns about competition, because it's a narrative I've 
heard. I think the reason the narrative about there's no 
competition doesn't work is because we've got proof that 
there's competition, and the proof is--and not according to a 
Wall Street Journal article, but according to the Bureau of 
Transportation Statistics, fares are lower today than they ever 
have been, as a percentage of disposable income. They're down 
20 percent from 1995.
    We've gotten more seats added. Small--I think you missed my 
opening statement, but small and non-hub airports have actually 
seen increases in seats. We've added a net of 54 new 
destinations. And you were talking about customer service 
earlier. The independent studies that J.D. Power and the 
American Consumer Satisfaction Index--I think one of the 
reasons maybe you haven't seen the stock change is because 
people realize that what was a completely unacceptable event 
and should never happen again, was extremely rare and is not 
indicative of the things that our employees serve to the 
traveling public in the 2.2 million passengers and 27,000 
flights we fly every day.
    Senator Blunt. Thank you, Senator.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Chairman 
Blunt, as well as Senator Cantwell, for holding this important 
hearing. I had asked for this hearing, as did many other 
Members that are here today because I think everyone was 
outraged by this video--deeply disturbing video of Dr. Dao 
being dragged off this plane. I think most everyone in this 
room, including the airlines executives, now agree that this 
should never have happened, and it was a result of a series of 
failures and some flawed policies.
    Of course, the focus of today's hearing is on not just the 
single incident, but to make sure that passengers are treated 
fairly and with the respect they deserve. This has been a focus 
that I've had for quite a while with the Passenger Bill of 
Rights that I pushed hard for and some of these other safety 
and cost measures that we've worked on.
    I guess I'd start with you here, Mr. Kirby. Clearly, one of 
the failures during this flight incident was not offering 
passengers greater compensation to volunteer to be bumped when 
there were so many overbookings on the flight. Your report 
states that the gate agent never offered more than $800, and I 
understand United's new policy allows volunteers to be 
compensated up to $10,000. Will front line employees be 
authorized to offer up to this level of compensation in all 
cases, or are there going to be restrictions?
    Mr. Kirby. Thank you, ma'am, for the question. Gate agents 
will have a certain limit, and then it escalates all the way up 
to $10,000, but it does require an escalation of increasing 
levels of management, although the gate agents' limits are 
greatly increased from where they were before.
    One of the other things we're doing is also having annual 
recurrent training to help gate agents with this process and 
with deescalating situations as well. One of our findings that 
was in our report is we didn't do an adequate job of giving 
recurrent training to gate agents so that they were able to 
deal with this really difficult situation, and our practices on 
going to the top of the limit were inconsistent, and this 
training, we hope, will get us to consistency with all of our 
employees.
    Senator Klobuchar. You mentioned in your testimony that 
United has made adjustments to its overbooking policies, that 
there will be a reduction in overbookings on flights that 
historically have experienced lower volunteer rates, smaller 
aircraft, last flights of the day. I want to make sure this 
will have a real impact. How significant will the reduction in 
overbooking be for these flights, and will United continue 
overbooking at the same rates for flights outside of these 
categories?
    Mr. Kirby. Thank you again, ma'am. The kinds of reductions 
we talked about--I'll give you one simple statistic. For 50-
seat regional jets, for example, which is where we tend to have 
the highest problems, because if you're over by one, it's 2 
percent. If you have a 200-seat airplane, you're over by half a 
percent. It's harder to get a volunteer with fewer passengers.
    So on 50-seat regional jets, about 50 percent of our 
flights before were overbooked by one--could be overbooked by 
one, and those have now gone to zero. So on small regional 
jets, just as a data point, it's about a reduction of half of 
the flights. And as to the rest of the system, we will be 
lowering it across the board, partly because, you know, the 
cost of a denied boarding is now much higher, now that we'll go 
up to $10,000.
    Senator Klobuchar. All right. I have about two minutes 
left, and I have two questions.
    So I'll start with you, Ms. Greenberg. In your testimony, 
you call airlines' Contracts of Carriage indecipherable legal 
tomes. I like that. Do you have a suggestion for how to make it 
easier for airline passengers to understand their rights?
    Ms. Greenberg. We believe that there ought to be European 
style posters around letting consumers know what their rights 
are. We believe there ought to be a list of compensation, 
required compensation if you're bumped involuntarily, if your 
flight is canceled, if your flight is delayed after a certain 
amount of time. Those are critical rights and protections 
American consumers are not receiving.
    Senator Klobuchar. Do you mean those would be things that 
would be required to be put up in the airports?
    Ms. Greenberg. Right, and that's what you see in the 
European Union, and we want those kinds of protections and 
transparency and information for consumers in the United States 
as well.
    Senator Klobuchar. Thank you very much.
    Ms. Nelson, thanks for the work from the flight attendants 
on human trafficking in the bill that we passed together. In 
your testimony, you discussed disturbing reports of verbal and 
physical assaults on flight attendants in the wake of some of 
these incidences. You say that flight attendants can get caught 
in the middle of an us-against-them mentality. This can make it 
harder for them to perform their duties. What additional 
support, outside of the training that Mr. Kirby mentioned, do 
you think that airlines should give flight attendants to ensure 
that they can do their job safely and effectively?
    Ms. Nelson. Thank you very much, Senator. One of the issues 
that we have seen over the last several years is that the FAA 
has moved from instruction on enforce to inform passengers, and 
this has put us in a quagmire of doing our safety compliance 
checks but not really having the ability to enforce those so 
that some people are able to sort of get away with not 
following the safety policies that could put everyone else in 
danger, and others are not. This is already a problem.
    But the biggest problem that we see is that we do not have 
the staffing that we used to have prior to September 11, 2001. 
So as we have more passengers and capacity has been cut, and so 
our planes are fuller than ever, we do not have enough flight 
attendants to be able to get to situations and deescalate, 
because, frankly, the nation's flight attendants do an 
incredible job of deescalating conflict every single day with 
all of these flights getting out without incident, and we are 
seeing that this is something that we have to deal with every 
single day. So if there were more of us to be able to do that 
work, we could do it more effectively.
    We also see that at the gate, we are now--because there are 
minimums on the plane and there are minimums at the gate, we 
can't effectively communicate with each other. Also, we have 
problems coming down to the airplane door more often because we 
do not have the staffing at the gate. The gate agents are not 
catching the things that they would normally be catching in the 
gate area, and that, then, is creating conflict on the plane.
    So these are some of the issues that we are facing, and we 
would like to be a part of implementing the policies to make 
sure that they're done in a way that works on the plane.
    Senator Klobuchar. All right. Thank you very much.
    Senator Blunt. Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you all for being here today. My view is that today's 
hearing is the beginning rather than the end of Congress' 
oversight role in protecting not only consumers, but also 
people who work on airlines.
    I just want to begin, Ms. Nelson, with a question to you 
and thank you and everybody who works with you, everybody who 
serves on our planes, for their immense service and, often, 
sacrifice to the airlines for whom they work and the customers 
who rely on them and the many heroic acts that you mentioned in 
your testimony.
    Can you give me some assessment of air quality in that 
cabin? Because a lot of people get on the plane, and they have 
no concept of what they may be encountering.
    Ms. Nelson. This has been an issue for our union for three 
decades. We worked to get smoking off the planes. We worked to 
decrease the spraying of pesticides so that people can have 
clean air. But we have an issue that's still remaining, and 
that is the bleed air that is bled off the engines into the 
cabin can become contaminated and can bring poisons or toxins 
which will affect the crew, oftentimes at a higher rate because 
they are working harder, so their heart is pumping harder.
    But this has caused from basic illness and feeling fatigued 
and having headaches to long-term effects of memory loss and 
inability to function. We have had crews who have actually 
become completely incapacitated because of this, and it's an 
issue that needs to be addressed. We thank you for working on 
this. We need to identify when these things are happening with 
sensors on the plane and have a data collection so that we can 
scientifically look at the problem and address it in a way to 
make sure that everyone is safe.
    Senator Blumenthal. These problems affect people who ride 
the planes as customers as well as the airline attendants who 
work on them.
    Ms. Nelson. Our work space is your travel space, and we 
want it to be safe, healthy, and secure for all of us.
    Senator Blumenthal. And the only difference is that the 
airline attendants spend more time and are exercising more so 
they're breathing more deeply, but it affects the passengers as 
well.
    Ms. Nelson. Absolutely. And let's not forget about the 
pilots who flying the plane, too.
    Senator Blumenthal. And the pilots, and probably more than 
anyone, children who are flying, because they have smaller 
bodies, smaller lungs, and so what they breathe at the same 
concentration is likely to affect them more.
    Ms. Nelson. Yes.
    Senator Blumenthal. Let me just say to all of you in the 
short time I have that I am working on a Passenger Bill of 
Rights that will expand the current rights that are in our 
statutes. One thing is clear to me from this United episode and 
from countless other instances. Now there's the capacity for 
them to go viral, but that's only spreading more information 
about them. They've always occurred, and they will not be 
corrected by the airlines themselves acting voluntarily. We 
know that from history.
    So the actions by United that have been done so far, which 
are only voluntary, and by other airlines, raising compensation 
levels, for example, or providing limits on the length of time 
airlines can keep passengers stuck on a tarmac, refunds for 
lost or damaged bags--many of those kinds of efforts are 
completely inadequate, and, again, many are completely 
voluntary. Many ought to be made a matter of statute, and they 
ought to be expanded, because consumers need real rights, and 
that's why I will introduce a Passengers Bill of Rights as this 
committee considers an FAA reauthorization bill in the coming 
weeks.
    I am open to working with you. I've outlined some of the 
provisions, which are raising compensation levels from the 
present cap of $1,350 to multiples of the ticket price when 
passengers are bumped. I understand the airlines' argument that 
it has to overbook for profits, but they also have to bear the 
financial burden that, right now, is passed to consumers when 
those flights are overbooked and the consumers are bumped.
    So I will propose legislation that will stop the kind of 
bumping we see now and will provide for greater compensation 
for passengers, will prohibit taking passengers off planes 
involuntarily, and the use of law enforcement for that purpose, 
along with other measures, compensation for delays and 
cancellations, a right of action by individuals against 
airlines with a potential for punitive damages, which will send 
a financial as well as moral message, and other steps providing 
for greater disclosure of fees and charges in connection with 
bags, checked bags, carry-on luggage, and so forth and so on. 
That's a rough and incomplete outline, and I'd like the 
commitment of this panel that you will work with me on this 
endeavor. Is there anyone who would object to any of these 
ideas, or at least working with me on them?
    Ms. Nelson. We'd be happy to work with you, Senator.
    Senator Blumenthal. Thank you.
    Ms. Pinkerton. We'd be happy to work with you, Senator. I 
would just note that many of the things that you've outlined, 
whether it's eliminating the cap on compensation, saying we're 
not going to take a person off of the plane, not calling law 
enforcement--all of those things are things that carriers have 
said voluntarily they're willing to do, and they are doing 
those and implementing those today.
    Senator Blumenthal. My time has expired.
    Senator Blunt. Thank you, Senator Blumenthal.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman. Let me thank you and 
Senator Cantwell for holding this hearing today, and it's 
particularly timely. Unfortunately, there have been recent 
incidents that have involved airline passengers going way 
beyond even what seasoned travelers have ever seen, and, 
obviously, what we saw with the video of the United Express 
flight in Chicago three weeks ago really was shocking.
    If there's anything positive in all this, I think it's the 
fact that many airlines seem to be changing policies as a 
result of some internal reviews and some self-examination, and 
that's exactly what should happen. I hope all of the attention 
that is now being paid to the treatment of passengers will lead 
to long-term and meaningful improvements in the passenger 
experience. If not, there's going to be increasing interest on 
this Committee and in the Congress.
    I also want to say at the same time I think it's--I hope, 
because it's really important, that passenger frustrations 
don't lead to unnecessary confrontation. Safety is still the 
paramount consideration in air travel, and the current level of 
safety is something of which we all can be proud. We don't want 
anyone to resist lawful and appropriate instructions from 
airline personnel or others that might impact that laudable 
record, and I think everybody probably would agree that 
sometimes a little more patience and understanding would go a 
long way.
    Commissioner Evans, before the recent United Airlines 
incident, how common was it for your department's aviation 
security officers to board an aircraft, and what types of 
situations were they typically dealing with?
    Ms. Evans. It is very rare for the aviation security 
officers. Normally, Chicago police make those responses. We are 
correcting that. This was an aberrant situation. We don't know 
of anything similar in our records. Most commonly, the 
complaints that come are unruly passengers, someone who won't 
obey the instruction of a flight crew or an altercation between 
two passengers of some sort. That is the most common type of 
disturbance that we get on an aircraft.
    It's fairly rare--I commented earlier we have six and a 
half million passengers a month through O'Hare. Total 
dispatches for disturbances in a month is somewhere between 15 
and 20, and on an aircraft, maybe four or five. So in total, 
they're fairly rare, you know, a minuscule percentage, and they 
have been extremely well handled in the past. So we're terribly 
sorry that this one was not handled properly.
    The Chairman. Mr. Kirby, that April 9 incident has had a 
big impact, obviously, on United Airlines and, frankly, the 
whole industry. How confident are you that the steps that you 
and your company are taking will actually prevent another 
incident like that from occurring?
    Mr. Kirby. Thank you, Senator. I'm highly confident that 
the situation that occurred here just can't happen again, 
because the policies wouldn't allow it to happen again. But 
we're going to take it beyond that--and we've used this to be 
really a watershed moment for United Airlines--and to go beyond 
just preventing this from happening again and to truly put the 
customer at the center of everything we do and hope that this 
is going to have a silver lining of actually making us--and we 
believe it will--make us a better airline today than we were 
before by that change of focus.
    The Chairman. There are always--and we know this--factors 
that are outside of your control. But consumers do have an 
expectation that they'll get what they pay for when they buy an 
airline ticket. So as a follow up to that question, what steps 
is United taking to more generally improve what can sometimes 
be a stressful travel experience for your customers, especially 
in light of the knowledge that outside factors can upset the 
normal operating plan?
    Mr. Kirby. Yes, sir. It is true that travel can be a 
stressful experience. At United Airlines, while we had a 
terrible incident last month, we are proud of the progress 
we've made in running a better operation. In 2016, we set new 
all-time records, and in 2017, we're setting new records. In 
the month of April, we went 145 hours without a single flight 
cancellation. That's over 10,000 flights around the world 
without a single cancellation.
    Our employees are delivering just phenomenal customer 
service. I can't walk around the City of Chicago without 
hearing from customers about what a great job our flight 
attendants and gate agents are doing. We're back to growing. 
We're growing 6 percent this summer, which creates more options 
for our customers. We feel really good about the future.
    But something like this should have never happened, and we 
let our rules-based culture, which is appropriate for safety, 
get in the way of common sense when it comes to customers, and 
that's a change which is going to make things even better.
    The Chairman. And it just seems like there ought to be an 
operating plan in light of some of these contingencies and 
outside factors that are maybe not frequent but certainly 
occur.
    Very quickly, Ms. Nelson, you and members of your--that are 
on the front line of an industry that's seeing more and more 
confrontation. So what are the possible consequences if 
passengers start questioning or refusing instructions from 
flight attendants, from your members?
    Ms. Nelson. This could cause a safety problem for everyone 
on board. Take, for example, the seatbelt sign, when flight 
attendants are informing that you need to be in your seat when 
the seatbelt sign is on. We saw recently the incredible 
injuries on the flight where the airplane hit clear air 
turbulence, and people were thrown through the plane. If you 
are up, you can be injuring other people on the plane. So if 
you're not following the instructions of the flight attendants, 
it can cause harm to other people around.
    We also have some very serious concerns about the 
videotaping and broadcasting of crew movement and also showing, 
frankly, the terrorists, the diversionary tactics that could be 
used to divert crew from their safety and security functions 
and also to divert crew from being able to instruct passengers 
when we need help to contain a security concern. These are some 
of our grave concerns, in addition to the fact that there is an 
atmosphere out there right now that flight attendants are 
facing that is just generally dangerous.
    We have reports of people who have touched flight 
attendants inappropriately, and when flight attendants have 
told them to stop, they have said, ``What are you going to do, 
drag me out of here?'' This is not OK. This is what they're 
facing on the front lines. We need backing from the regulatory 
agencies to say--to talk about the role that we have.
    To Sally Greenberg's point about having placards in the 
gate area, it needs to be reinforced to follow the crew member 
instructions for your safety and security concerns, and we need 
more staff to be able to handle these issues and deescalate the 
situations, because the reality is when aviation workers across 
the industry saw that video, we were horrified, because it's 
not a representation of who we are, how we take care of our 
passengers every single day, and how we care very deeply about 
making this a good experience for the people in our care.
    The Chairman. Thank you.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Chairman.
    Senator Nelson?
    Senator Nelson. And I think that is certainly a true 
statement that you said, and if anyone wants to feel good about 
an airline, watch the movie, ``Sully,'' about Captain 
Sullenberger and the way that crew operated under extremely 
dangerous circumstances, which is not a Hollywood made-up 
movie. That was real life, and you saw those flight attendants 
working with the captain, who's the last one to get off the 
plane, the captain.
    So, indeed, I want to shift gears a bit--and I know you've 
been beat upon, Mr. Kirby, and, of course, people are upset 
about all of this that's happened. But let's shift gears a bit. 
Let's talk about things that make common sense. So in the past 
month, I flew United, and I got to the airport at the appointed 
time, and my flight was late, and I looked, and lo and behold, 
on the board, there is an earlier flight that is going to my 
destination, and it was late.
    So I walked to that gate, and, in fact, they were loading 
passengers, and, in fact, they had seats. So I said, ``I'm on 
the next flight. I would like to go on this flight, if you have 
seats,'' and they had seats, but said ``that would be $75 
extra.'' Now, I was on official business, and I did not think 
that was a good expenditure of Senate funds.
    But it was a policy of the airline that made no sense. You 
had seats--and, oh, by the way, on the next flight, which was 
mine, you didn't have seats. So by me going on the earlier 
flight, it would have opened up a seat for the later flight, 
and yet I was, according to your policy, going to be required 
to pay an additional $75. It's those kind of rules that--maybe 
you have a reason for it, but it just doesn't make sense, and 
it's not in your interest, either, because you need to 
accommodate the traveling public.
    I'll give you another example here. Major airlines, 
including United, typically charge consumers $200 or more for 
changing or canceling a domestic flight. Change fees for 
international flights can run many hundreds of dollars. So now 
it appears that United has introduced a new type of fare--basic 
economy is what you call it--where no changes are allowed at 
all, and in that case, consumers would lose the entire value of 
the ticket. So when booking, the consumer typically receives 
little notice of all these additional penalties.
    So what's the correlation for you between change and 
cancellation fees and the cost actually incurred by United?
    Mr. Kirby. Well, Senator, thank you for your business, and 
I apologize for the bad experience that you had on United. I 
would say----
    Senator Nelson. That's not a bad experience. That is a 
policy that you all lost a seat that you could have filled on 
an oversold flight.
    Mr. Kirby. Yes, sir. I think, actually, our policy in those 
situations where we have an off-schedule operation should have 
let you get on the earlier flight, but I'll confirm that after 
this hearing, what would have been the normal policy.
    Our basic economy product, which you also referred to, is 
one that--first, we try to clearly communicate to customers the 
restrictions associated with that product, and the goal is to 
offer low fares, and we're trying to offer our customers 
choice. One of the great things in a deregulated environment is 
we're offering our customers more choice, and for customers 
that are willing to give up some of those restrictions and 
accept the restrictions of no changeability, they get a lower 
price, and we think that's good for consumers. So far, in our 
tests, about 30 percent to 35 percent of customers are choosing 
that lower fare, and 60 percent to 65 percent of customers are 
choosing the regular economy fare, which costs more but comes 
with more restrictions.
    I recognize the frustration around change fees. It is part 
of our view of what lets us offer low fares for leisure 
customers that are bought in advance. We also offer fares that 
are fully changeable and that come with no penalties, no 
restrictions. They are more expensive. It is part of our 
policies, and part of the rationale is by offering customers 
choice and by offering them different products, we can let the 
customer choose what is most appropriate for them, and it helps 
us keep fares low.
    Senator Nelson. Does it save you money?
    Mr. Kirby. It's not a direct cost when somebody changes, if 
that's the question. It does--it was about $900 million of 
revenue at United Airlines in 2016.
    Senator Nelson. Well, if it doesn't save you money, you may 
want to put yourself in the place of the consumer. Things come 
up. They need to change their flight. But it then becomes so 
prohibitive that they can't, and, therefore, they're 
inconvenienced, and if there's not a direct cost associated to 
you that you're having to pay, you may want to think of--put 
yourself in the shoes of the consumer.
    Mr. Chairman, I know we've got lots of members, and I'm 
going to stop. What I'd like to do is to insert for the record 
for Mr. Kirby some questions about his IT systems, and then to 
Ms. Pinkerton questions about airline Passenger Bill of Rights, 
and to Ms. Pinkerton and Mr. Kirby questions about interline 
agreements.
    Senator Blunt. Every member will have a chance to submit 
questions for the record.
    Senator Inhofe?

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Nelson, I was enjoying your comments. My daughter-in-
law is a retired flight attendant, and I've heard a lot of 
things before, and I could probably add to a few things that 
you said. You know, you hear a lot of negative things about the 
industry, and it happens--maybe I'm biased, because American 
has a huge presence, a huge footprint, in my state of Oklahoma, 
in my City of Tulsa.
    In fact, I've worked with them over the years when I was 
Mayor of Tulsa when things would come up, and my experience 
actually has been good in terms of their focusing on using 
technology to swiftly inform consumers of any disruption to 
their travel. They've actually invested millions of dollars in 
airport terminals and all of these things. So there are some 
things that are going on that have been good, in my experience.
    Ms. Pinkerton, when we talk about the wish to change 
things, are there any obstacles that airlines have in not being 
able to do some of the things that we might be thinking they 
could do? Are there obstacles out there that make it more 
difficult to make changes?
    Ms. Pinkerton. Well, I would note that the Mercatus Center 
has said that the airline industry is the sixth most highly 
regulated industry in the country. Some of those things are 
safety regulations. I would say that even with some of the 
safety regulations, though, the way they're implemented in kind 
of a one-size-fits-all, whether that's the flight and duty rule 
or the 1,500 hour rule, et cetera--I think that there are some 
modifications that could be made so that there's not the 
operational impact that we see from some of those rules.
    But, really, the things that give us more pause, Senator, 
are the economic rules of the industry, the things like full 
fare advertising rule that tell us you can't advertise your 
product--you have to advertise it all in. We're one of the few 
industries that that's required of. And then, of course, 
there's a push now to try to force us to do business with 
certain people, for example, like Cheapo Air. There's a move 
that says you have to give your fares and information to Cheapo 
Air, and we'd like to be able to make those decisions ourselves 
about who we do business with.
    So it's things like that where we'd like to see less 
government intervention. I think that a lot of these 
rulemakings are well intentioned, but they end up tying our 
hands and costing consumers more. We're all here talking about 
the consumer, and I think one of the things the consumer really 
values is the low fares that we've been able to bring to them 
and, of course, more service. So, frankly, the more financially 
stable we are and the more freedom we have to do our business, 
we're going to be able to lower fares, we're going to be able 
to add seats, we're going to be able to pay our employees more, 
add more jobs, and those are things that we've been doing 
within the last 6 years.
    Senator Inhofe. You've got to make those considerations. 
I've listened to a lot of really good ideas, I guess, expressed 
by people that--and maybe through a Pilots Bill of Rights or 
something.
    But, you know, look, Mr. Kirby, at what you've done, and I 
guess this question would be for you. The tragedy of that 
flight--I mean, that's awful to see the pictures and the public 
out there--there's a level of outrage that is kind of 
unprecedented that I haven't seen before. But what you've done 
in 30 days is pretty amazing. You've already settled a lawsuit. 
You've increased the incentive for passengers to give up their 
seats and a lot of other things.
    Look, I've been around here a long time. Maybe we have 
solutions here in government, but I don't recall any time that 
we've been able to work as fast as you guys have in correcting 
a problem. So I want to keep that in mind, and I don't know of 
a lot of things that can be done. I am concerned--and I won't 
ask you this. I won't ask you because I think it might be 
unfair.
    So I'll go back to Ms. Pinkerton. Do you think that a lot 
of new Federal laws and regulations imposed as a response to 
this incident could cause more issues than it would resolve?
    Ms. Pinkerton. Well, I absolutely do. A one-size-fits-all 
rulemaking approach doesn't work for this industry. We've seen 
that time and time again with unintended consequences. The 
tarmac delay rule ended up causing more cancellations so people 
were more inconvenienced by it. I think what we've seen today 
is that airlines recognize that we need to step up on customer 
service, and we're willing to do that voluntarily.
    Senator Inhofe. Well, it's to your benefit.
    Ms. Pinkerton. Absolutely.
    Senator Inhofe. I mean, this idea that you have to be 
forced to do these things--you're the guy that pays for all 
this stuff, and I think everyone would agree to that. When I 
was Chairman for a number of years of a committee called the 
Environment and Public Works, where all the over-regulations 
came--and most of them were EPA regulations.
    So what we tried to do was to say any regulation that comes 
along--you've got to put a price tag on it. It's going to cost 
something. And I would admonish my friends if they're involved 
in the various proposed legislation to maybe do the same thing. 
You can make these changes, but it's going to cost--you said 
just a minute ago the cost of the ticket--that's a huge thing, 
and everything that I've heard suggested is going to impact 
that. So I think it might be a good idea for anyone who comes 
up with these good ideas to give credible evidence as to how 
that's going to affect the most important aspect, in my 
opinion, to individuals, and that is the cost of their ticket.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator.
    We're going to work right on through these questions. If 
anybody needs to take a break on the panel, as long as you take 
those breaks one at a time, we could probably get to you by the 
time you get back.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Senator Blunt. My experience is that this would be a good 
time for everybody to take a break.
    [Laughter.]
    Senator Markey. I hear you. Thank you, Mr. Chairman. But 
for all the other passengers, strap in your seatbelts. The ride 
could still be rocky before the end of this hearing.
    So airline fees are as high as the planes passengers are 
flying on, and it's time to stop their rapid ascent. Today, 
several airlines charge $200 change and cancellation fees, 
which may be greater than the value of the original ticket. 
That's on top of charging as much as $25 for the first checked 
bag, $35 for the second bag. That's $120 to do a round trip 
with two bags. Last year, airlines reaped in $4.2 billion in 
baggage fees and $2.9 billion in change and cancellation fees. 
That's $7.1 billion in one year.
    So passengers are getting tipped upside down at the ticket 
counter, and they deserve relief from these excessive fees. 
Regrettably, the fee epidemic is only growing. Some airlines 
are now charging passengers for carry-on bags, to print 
boarding passes, and for blankets to keep their children warm. 
That is outrageous. The airlines seem to have replaced the 
customer service counter with a customer suffering counter as 
they get the bill for each one of these things which they 
should expect to come with flying.
    Passenger frustration with lack of choice and outrageous 
fees continues to rise. That's why I reintroduced the Fair Fees 
Act, which ensures that airline fees are reasonable and 
proportional to the cost of the services provided, and Senator 
Blumenthal and I are introducing that bill. The Fair Fees Act 
puts a stop to fee gouging and will help ensure passengers are 
flying the fair and friendly skies. My bill will finally ground 
these ridiculous fees.
    Ms. Greenberg, is it reasonable to charge passengers $200 
to change or cancel their flight, even if the passenger changes 
their reservations well in advance, even if the passenger 
purchased the ticket for less than $200, even if the airline 
resells the seat to another passenger at an even higher price? 
Is that fair?
    Ms. Greenberg. Senator Markey, we think that these airline 
cancellation fees are outrageous. They don't reflect the cost 
to the airlines of accommodating reservation changes or 
cancellations. They actually--as you indicated, they can resell 
the seat, perhaps much more expensively than the original cost. 
In 2016, they brought in nearly $3 billion in revenue.
    Things happen. People's plans change. Somebody might get 
sick. You're stuck, and there is no forgiveness for those fees. 
I've experienced it. Consumers let us know how frustrated they 
are about this, and we support your bill, because we think 
there ought to be a relationship between the cost of rebooking 
somebody and what the passenger is expected to pay as a result 
of a change of plans.
    Senator Markey. Ms. Greenberg, this is a standard carry-on 
bag. Millions of passengers all across the country are forced 
to jam a week's worth of clothing into this bag to avoid paying 
an additional $120 if the bags get checked. Is it really 
reasonable, Ms. Greenberg, to charge a person $120 to check the 
bags that are going back and forth on a week's trip just 
because they can't jam it all into one bag?
    Ms. Greenberg. No. We agree with the Southwest Airline 
president who, several days ago in the House hearing, said, 
``We think if passengers travel, they may want to carry their 
clothes along, and we ought not charge them for checking a 
bag.''
    Senator Markey. So some airlines claim they charge bag fees 
because checked bags are optional. Ms. Greenberg, is this 
carry-on bag a viable option for a passenger traveling from 
Boston to L.A. for a week?
    Ms. Greenberg. Of course not. You have to carry your 
belongings, your toiletries, and so, no, you have no choice but 
to check a bag.
    Senator Markey. So the bottom line is that these fees are 
just not reasonable, and I'm going to fight very hard to make 
sure that these fees are checked in this FAA authorization bill 
which we will be considering.
    Ms. Nelson, could you just give us your view on mobile 
devices on planes in the passenger cabin? Could you tell us how 
the flight attendants view that?
    Ms. Nelson. Yes. The flight attendants' view voice 
conversations in the cabin the same as the public views them. 
We do not want them on the plane. This will create more 
conflict on the plane, and the DOT--or through the FAA 
reauthorization bill, we should put the final nail in the 
coffin on this and make sure that there are no voice calls in 
the cabin. We have very serious security concerns, and we also 
have just peace of flight concerns.
    Senator Markey. Thank you. I agree with you 100 percent.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Hassan?

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you, Mr. Chair and our Ranking 
Member.
    And thank you to the panelists here. I know it has been a 
long morning.
    Look, we all agree that the recent incident in which United 
forcibly removed a passenger from the aircraft was 
unacceptable, and so what I think a lot of us are trying to do 
is now turn to next steps. I do want to acknowledge that United 
and other airlines have begun efforts to make reforms so that 
this kind of treatment of customers never happens again, and I 
thank you, Mr. Kirby, for that.
    But to the point some of the other Senators have raised, 
this incident does not represent just a one-time occurrence or 
a one-time mistreatment. Constituents all across the granite 
state, and I'm sure many individuals in this very room, have 
experienced routinely unpleasant flying episodes on one of the 
major airlines. In fact, just last year, the Department of 
Transportation, which tracks incidents like these, received 
17,904 complaints across the industry, and those are just the 
cases that are reported. And I understand about percentages and 
statistics, but if you're one of those 17,904 people, 
statistics don't make much of a difference to you.
    So it's not acceptable that we have this level of difficult 
occurrences, and we can't just throw up our hands and say 
that's the way it always has to be, or, in my view and many of 
my constituents, can we just say voluntary action by the 
airlines is enough. That's why I've introduced, along with some 
of my colleagues, the Tickets Act, which would improve 
transparency for consumers, review overbooking policies, 
guarantee paying customers have a right to fly, and make some 
other common sense reforms.
    I'm glad that United has made voluntary measures. It sends 
a nice message. But it's not the same thing as a guarantee. 
Consumers want to know that United won't change its mind later 
when the industry changes or the finances change. So I believe 
that consumers deserve to fly safely and comfortably, 
particularly at a time when the industry is earning record 
profits, and, believe me, my constituents are aware of that, 
too.
    So, Mr. Kirby and Ms. Pinkerton, will you commit to working 
with me and my staff as we approach the FAA reauthorization on 
measures like those included in the Tickets Act that will 
improve air travel for customers?
    Ms. Pinkerton. Yes, we're very happy to work with you, 
Senator. I do want to urge caution, and I think, as we 
discussed previously, many of the items that are in your 
legislation do make sense, and that's why carriers have stepped 
up and said, yes, it doesn't make sense for us to remove a 
passenger from a plane.
    That said, I do urge caution in going into this kind of 
mandatory, one-size-fits-all approach, because what we've seen 
in the past is that there are unintended consequences, and it 
does end up increasing the cost of travel, which--and I know 
all of the members on this committee feel strongly about 
service to their local communities. That gets impacted, too. So 
we just need to be cognizant of those impacts.
    Senator Hassan. I understand that. You always have to 
balance this. But I think a lot of my constituents would say 
that airlines treat them in a one-size-fits-all manner, and 
that they are not treated as individuals and customers with 
rights. We are a democracy, and people's money is supposed to 
have value and buy them a certain expected experience, right?
    Ms. Pinkerton. We agree.
    Senator Hassan. Thank you.
    Mr. Kirby?
    Mr. Kirby. Yes, ma'am. We absolutely will look forward to 
engaging with you and your staff on all these issues.
    Senator Hassan. Thank you.
    Ms. Greenberg, do you have comments or thoughts on the 
Tickets Act?
    Ms. Greenberg. Yes. We support the Tickets Act. I think it 
offers a lot of very positive benefits to consumers, including 
not allowing involuntary bumping; eliminating limits on the 
compensation for bumping; limiting overbooking practices, which 
we talked about a little while ago--we don't understand why 
overbooking happens in this day and age when passengers have 
already paid for their flights--and requiring appropriate 
disclosures by the carriers. So, yes, we think it's a great 
bill, and we look forward to working together with you to get 
it enacted.
    Senator Hassan. Thank you, and because my time is running 
down and it has been a long day, I will submit my other two 
questions for the record.
    I just want to note not only do I share the concerns about 
whether overbooking is still a policy that makes sense in this 
day and age, but I'm very concerned that airlines have had 
policies that bump the passengers who either aren't frequent 
flyer members or have bought the lowest priced tickets first, 
and since they are often people who can't afford to buy higher 
priced tickets or become frequent flyers, that seems unfair.
    Finally, I'll just note, Ms. Nelson, I would look forward 
to working with you on some of the issues you've raised on 
behalf of flight attendants. We all appreciate the difficult 
work you all do and the importance of being able to deescalate 
and help people travel safely.
    Ms. Nelson. Thank you very much, Senator.
    Senator Blunt. Thank you, Senator.
    Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you. Thanks for the 
hearing, and I want to thank our panel for being here also. I 
recognize and realize this has been a long day, but I would 
like to get through my questions.
    I guess the first question is I want to make sure that 
we're all on the same page, and that is that we realize that 
air flight and passenger care does determine the quality of any 
trip an individual goes on. The reason I'm saying this is that, 
obviously, in a state like Nevada, tourism is an important 
function for us. It's just not Las Vegas. It's Hawaii, Orlando, 
or wherever--New York, wherever they may want to fly, and I 
don't want it lost--the emphasis that air travel is just as 
important sometimes as the experience that they may have at 
their destinations.
    I tell you that to say this. I asked a few years ago a 
gentleman from the southern end of Nevada who builds hotels why 
he doesn't build hotels in northern Nevada. This was a number 
of years ago, and he said that because of the fact that when 
you fly into northern Nevada, whether it's the airport at Lake 
Tahoe or the airport in Reno, the flight is so turbulent that 
he doesn't believe anybody would come back after doing that one 
or two times. Now, technology, obviously, has increased 
substantially, and it's not nearly as bad as it was 15 or 20 
years ago, and that's a good thing.
    But here's my reasoning. Last year--and, Ms. Greenberg, 
maybe you can answer this. Last year, there was an amendment by 
Mr. Schumer on a bill--and I don't recall what bill it was--and 
that was that he was going to regulate and determine what the 
size of seating should be in an airplane. Do you recall that?
    Ms. Greenberg. Yes. There have been several bills 
introduced on the shrinking size of seats, the shrinking 
aisles, the shrinking baggage area, and the shrinking bathrooms 
in airplanes.
    Senator Heller. Did your organization have a position on 
that?
    Ms. Greenberg. We think that this move toward shrinking 
space in every conceivable way on the airline is dangerous and 
should be prevented.
    Senator Heller. Things like leg room and all that?
    Mr. Greenberg. Yes, leg room and everything else. It's a 
dangerous trend. It makes it harder for passengers to get in 
and out. It creates safety hazards if people have to deplane. 
And it makes it much more difficult for citizens with 
disabilities to get in and out of an airplane. So we do think 
there has to be some limits. The airlines don't seem to pay 
attention too much to the discomfort of consumers, because 
American Airlines--in a stunning display of tone deafness, as 
we are preparing for this hearing--today announcing that 
they're going to shrink yet again the distance between seats to 
29 inches so they can jam more seats on the plane. But, 
unfortunately, we don't have a whole lot of control unless we 
enact legislation to prevent further shrinking of the cabin 
area so more seats can be jammed in delivering more profit for 
the industry.
    Senator Heller. What's more important, the room in an 
airplane with seats or your tray that goes up and down in front 
of you? Because they sure put a lot of emphasis on that tray. 
What about seating? What's more important, when it comes to 
emergencies and getting in and out of the plane?
    Ms. Greenberg. Certainly, the distance between seats, I 
think, is the thing that I would look at, and also the size of 
the bathroom, and the size of the aisles, and the overhead 
luggage, smaller spaces are leading to very tense and 
frustrating conditions for passengers.
    Senator Heller. Mr. Kirby, do you support legislation that 
would determine the amount of leg room in an airplane?
    Mr. Kirby. No, sir, and the reason is we want to offer our 
customers choice. It costs the same to fly an airplane--
essentially almost exactly the same to fly an airplane 
regardless of how many seats.
    Senator Heller. But it's choice with a cost. It's choice 
with a cost. If you want economy-plus, you have to pay more.
    Mr. Kirby. Yes, sir, and fares have come down dramatically, 
and part of that is putting more seats on airplanes. Some of 
the bills wouldn't have that much effect on United, I think, 
because most of the bills--we're already compliant with those 
minimums. But for some airlines, you would be taking 10 percent 
to 20 percent of the seats off airplanes, and since it costs 
almost exactly the same to fly the airplane, prices just 
economically would go up 10 percent to 20 percent.
    One of the great things that's happened for consumers--and 
we've talked about it some here today--is declining air fares. 
The Bureau of Transportation Statistics said yesterday that 
real fares in Chicago in the last--at O'Hare in the last 25 
years are down 53 percent, and that's possible because there 
are more people on airplanes.
    Senator Heller. If you're taller than six feet, do you have 
to pay more to get on an airplane than someone that is shorter 
than six feet?
    Mr. Kirby. No, sir.
    Senator Heller. Are you more discomforted when you're 
taller than six feet than someone that's shorter than six feet?
    Mr. Kirby. Yes, sir.
    Senator Heller. How about if you weigh under 200 pounds--or 
more than 200 pounds? Are you more comfortable or less 
comfortable in one of your seats?
    Mr. Kirby. I imagine the larger you are, the less 
comfortable an airline or any other seat is.
    Senator Heller. Let me tell you why I'm asking that 
question. This says American Airlines--and you brought this 
up--this is out of CNN--is planning to decrease the front to 
back space between seven of its economy seats by another two 
inches. American Airlines isn't the only one heading in this 
direction. United Airlines is considering a similar move. It 
goes on to say that as the big airlines match each other move 
for move, the risk is that 29 inches becomes the standard for 
flying economy in the United States. Is that going to become 
your standard?
    Mr. Kirby. Sir, I don't know for sure what our standard 
will be. Today, the majority of our seats are 31 inches or more 
of pitch. Some of the new seats actually have more personal 
space, and, you know, pitch is probably not the right metric 
anymore, because there's more personal space with some of the 
new seats. But we will endeavor to keep being competitive both 
on what customers want and on being able to offer low fares to 
our customers that prefer low fares.
    Senator Heller. Are you saying that--I apologize. One quick 
question. Are you saying that you will not go down to 29-inch 
pitch?
    Mr. Kirby. I'm not saying one way or another if we'll go to 
29. We haven't made any final decisions.
    Senator Heller. Thank you.
    Senator Blunt. Thank you, Senator.
    Senator Cortez Masto?

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Thank you all for this enlightening discussion today, and I 
want to follow up with my colleague from Nevada and ask point 
blank--I'm not sure you answered the question. Is United going 
to cut leg room or looking at doing that?
    Mr. Kirby. Ma'am, we are making some changes to existing 
aircraft today. None of those changes that we've announced so 
far go down to 29 inches.
    Senator Cortez Masto. Right. But does it go down to 28 
inches?
    Mr. Kirby. No.
    Senator Cortez Masto. So you're currently at 31 inches, 
correct?
    Mr. Kirby. I believe we have some airplanes that have some 
rows that are 30 inches. But by and large, we are 31 inches or 
more today.
    Senator Cortez Masto. And right now, no long-term plans to 
go down to 30, 29, 28 inches?
    Mr. Kirby. I don't know yet.
    Senator Cortez Masto. But you think that's part of customer 
choice?
    Mr. Kirby. Yes, ma'am. If we were going--at any pitch, 30 
inches, 31 inches, today, we, on every airplane, offer seats 
that have more leg room, typically up to 34 inches, even in 
economy, to give--and large cabins to give customers that 
choice, whether they want the lowest fare or whether they want 
more.
    Senator Cortez Masto. And can I ask--so the larger leg 
room--that's usually in the exit rows? Or where else would it 
be located on the plane?
    Mr. Kirby. It's typically at the front of the economy--it's 
at exit rows and at the front of the economy cabin. Not always, 
because seating configuration is dependent on where the exit 
rows are from a physical location perspective, but as a general 
rule, they're at the front of economy and at exit rows.
    Senator Cortez Masto. So a person with disabilities has no 
choice, then, but to take something at the front of the 
airplane, because they normally cannot get back to the back of 
the airplane. So they're paying more for that?
    Mr. Kirby. No, ma'am. I believe those customers are allowed 
to sit in the larger seat--I'm not sure. We can get back to 
you. But I believe they're allowed to sit up front.
    Senator Cortez Masto. That's good to know. Where you based, 
in Chicago?
    Mr. Kirby. Yes, ma'am.
    Senator Cortez Masto. How did you get out here today, 
flying commercial?
    Mr. Kirby. I came out, actually, on Sunday because I was 
also at the House hearing, and I flew commercial.
    Senator Cortez Masto. Do you traditionally fly commercial?
    Mr. Kirby. Yes, ma'am.
    Senator Cortez Masto. Did you fly your own airline?
    Mr. Kirby. In this case, I flew on one of the competing 
airlines, because I came from Phoenix, Arizona.
    Senator Cortez Masto. Were you in economy or first class?
    Mr. Kirby. I was in 17-E in economy.
    Senator Cortez Masto. And when you fly your airline, are 
you usually in economy or first class?
    Mr. Kirby. I'd say it's about 70 percent first class and 30 
percent economy.
    Senator Cortez Masto. And when you fly economy, are you in 
the back of the plane?
    Mr. Kirby. I tend to be all over. I have a 1-year-old and a 
3-year-old, so we go wherever we can find seats.
    Senator Cortez Masto. I have a theory that if we required 
all executives to fly on their planes in the back of the plane, 
the consumer experience would be much better. It is frustrating 
for me to hear that you're all about the consumer when every 
time I get on a commercial flight, there is nothing but 
complaints from consumers because there is not enough room. 
There is not enough leg room. There's not enough choice, even 
though you claim to have choice, and that's the unfortunate 
part of all of this, and that's why you see the frustration 
that you have here from all of us, from many of our consumers, 
many of our constituents. There is a problem there.
    The other concern that I have is what is happening to the 
flight attendants and the crew, because they're bearing the 
brunt of that frustration from those consumers who are flying. 
So my next question for you is you heard Ms. Nelson talk about 
the concerns that are happening right now with the employees 
that are on the planes flying every single day, from not enough 
staffing to the fact that airlines forget to and stopped 
enforcing informing passengers of how they should handle 
themselves on the plane to also not enough staffing at the gate 
or on the planes themselves to help deescalate situations.
    What are you doing in response--particularly United--doing 
in response to Ms. Nelson's concerns?
    Mr. Kirby. Well, thank you for the question, Senator, and 
thank you, Ms. Nelson, for being here with us today. Our flight 
attendants are there primarily for safety. That is their 
primary role, and supporting them and creating safety for 
everyone on that airplane, including the employees and the 
customers, is our top priority and it is their top priority.
    They're also incredibly important to the product. I tell 
our people all the time that the most important part of our 
product is not the seat pitch, it's not the meal. It is the 
flight attendants who interact with the customers, and they do 
remarkable things every day to take care of our customers, and 
they have a difficult job.
    I have incredible empathy for what Ms. Nelson said. We 
spend a lot of time engaged with the flight attendants union. 
One of the things I'm proud of at United that has changed--this 
is a change, really, in the last--recently, since Mr. Munoz 
became CEO--is that we have a great relationship and 
partnership. We don't agree on everything, but we respect each 
other and we spend a lot of time talking to them on these 
issues. Now, some of them we don't always agree on, but we 
always listen. We listen respectfully to them and value--and 
listen with an open mind and value their input, and we will 
continue to do that.
    United Airlines will be a stronger airline in the long term 
by having a partnership with not just the flight attendants, 
but with all of our employee groups. That's one of our critical 
goals and one of the things we're proud of that we've really 
turned the corner on in the last two years. It is at the core 
of everything that we do.
    Senator Cortez Masto. Thank you, Mr. Kirby. My time is up, 
and I don't want to keep it going.
    But I would like to hear if there's further discussion in 
the particular situation with Mr. Dao. I understand United was 
contracting out with Republic Airlines. I'd like to know, and I 
haven't heard today, specifically, how and what type of 
controls and oversight that United has over those contractors, 
and what, if anything, you are doing now to take action against 
Republic for what happened in that particular situation?
    Senator Blunt. Mr. Kirby, you'll take that for the record.
    Mr. Kirby. Yes, sir.
    Senator Blunt. Ms. Capito?

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you all for being here today. I was 
just trying to figure out what question I want to ask so I make 
sure I get the answer. So we're talking about the unfortunate 
incident that happened in Chicago, and then the frustrations of 
a lot of people surrounding that.
    One of the issues that I think, for me--and this is 
directed to you, Mr. Kirby--and I think for many of us is 
honesty could be the best policy, in that--and I'm going back 
to the gate, now. You're back at the gate, and your flight is 
delayed, and you can get no information. Why is it delayed? How 
long is it delayed? And, you know, in a lot of cases, they 
know. The gate agent knows. I could be making alternative 
plans. In my case, it would be probably renting a car.
    What are your protocols at the gate to alleviate the 
frustration that builds when you know you're not getting the 
real answer?
    Mr. Kirby. Thank you, Senator, and I share that 
frustration. It is one of the things we need to improve on. 
When I flew out here, my wife actually flew from Phoenix back 
to Dallas on another airline, and there were--it was the day 
that there were tornadoes in Texas, and she was on a four-hour 
delay with a 1-year-old and a 3-year-old and got home at 11 and 
was incredibly frustrated because no one could tell her what 
was going on.
    So it's a problem, but part of the problem is we don't have 
good information. I promise you that our gate agents want 
nothing more than to tell you what's going on when they have 
information. It's----
    Senator Capito. But when they have the information, are 
they told to give us the information? A lot of times, I think 
they're sitting on information. I mean, I understand a 
thunderstorm in Dallas. I don't understand that the flight 
attendant couldn't get here because they couldn't get a cab 
from New York City.
    Mr. Kirby. Yes, ma'am. I promise you our gate agents or 
flight attendants, if they know--one of the things we're 
doing----
    Senator Capito. They're empowered to tell?
    Mr. Kirby. Absolutely. One of the things we're doing at 
United is creating a new app--and all employees will have a 
device--for each individual airplane, where they can all talk 
to each other. The problem is a lot of times, there's a 
dispatcher back in Chicago that might know what's going on, but 
in a weather situation, that dispatcher is handling 20 or 30 
flights, and they don't--they haven't told the gate--they've 
got a complicated process to communicate to the gate or the 
flight attendants. And, usually, it's a flight attendant, a 
pilot, or a gate agent calling their management and asking, and 
then it gets bumped up the chain and comes back down. We've got 
to give them more direct communication.
    Senator Capito. I would highly recommend that, because I 
think that would pull the temperature down a little bit before 
you get onto the flight.
    Mr. Kirby. I absolutely agree, and we plan to roll that out 
this year.
    Senator Capito. Well, good. Quickly, on the checked bag 
issue that I've noticed recently--and we saw the bag that 
Senator Markey had--those things can get quite heavy, and I 
worry about it from a safety aspect.
    Ms. Nelson, you all, as helping and aiding passengers--but 
there are some passengers that can't get their bag all the way 
up. There's some passengers when they bring them down, Lord 
sakes what's happening to them. Are there protocols around 
that, and is that an issue for you all?
    Ms. Nelson. It's a huge issue for us, and it is a huge 
issue of passenger-to-passenger conflict as well. We have been 
working, actually, for many years to try to limit the amount of 
carry-on baggage coming on board the flight. We were actually 
supportive of United's basic economy, because it's going to 
limit the amount of baggage that's coming on the plane, which 
is going to cut down on the injuries for flight attendants and 
passengers as well and make it a safer flight.
    So, yes, we have, absolutely, concerns about this, and we 
believe that this is actually something that could be taken on. 
We have tried to take it on in the past with having templates 
at TSA, where the baggage does not even get through if it 
doesn't meet a certain size standard, and this is an issue that 
needs to be addressed for safety.
    Ms. Greenberg. Senator Capito, if I may just say----
    Senator Capito. Yes.
    Ms. Greenberg. If the airlines stopped charging $25 to 
check luggage you would see that problem diminished 
substantially.
    Senator Capito. Yes, it definitely drives you to carry on. 
I agree with that.
    I want to go back to what the Senator before me asked, 
because we don't have a main line that comes into Charleston, 
West Virginia. We do have one Delta flight. But most of it is 
regionals or subcontractors. Do your protocols at United go all 
the way to every subcontractor that you have----
    Mr. Kirby. Yes, ma'am.
    Senator Capito.--flying under the United----
    Mr. Kirby. Under the United brand. Our view is whether a 
customer is flying on United Airlines or flying on one of our 
regional partners, it is the United brand, and we need to hold 
it to the same standards. Our customers are buying a ticket 
from United Airlines, and we have to hold it to the exact same 
standards as we do the main line.
    Senator Capito. Well, that's good to know. I think that's 
really important.
    And then the last comment--I don't know if we have time for 
an answer on this. Ms. Pinkerton, you have alluded numerous 
times to the plunging fares. When you live in an area that 
doesn't have a lot of service, that has regionals, if I want to 
fly from Charleston, West Virginia, to D.C. and back, which I 
do quite frequently, it's $600 for a round trip flight. I can 
fly--probably, if I really hit it good, I could get to Hawaii 
on that or maybe even over to Europe if I'm main line to main 
line.
    You know, I fly in a turbo prop at 17,000 feet, dash, 
eight. What are you going to do--how can you justify--I don't 
understand the justification for such huge fares on such short 
hops in less expensive aircraft, and they're full.
    Ms. Pinkerton. Yes, I hear your frustration, but I think 
that--you know, first of all, the fares that we talk about are 
obviously average fares and not necessarily your location, 
specific. But fares are essentially supply and demand, and from 
a small town, I think the fares are going to be more expensive.
    We do have good competition in this country. We have four 
large international carriers and seven smaller domestic 
carriers. There are no barriers to entry. It's just a matter of 
which carrier wants to take on that service, and is there a 
business case for doing so. I mean, that's essentially what it 
boils down to, and I think we need to be realistic about that 
in this country, about what type of service every small 
community can really afford to have.
    But we want to grow service, and we are growing service. 
What I can say is that the more we regulate pricing--and 
especially Senator Markey's idea about regulating pricing--we 
used to regulate pricing in this country. In 1974, the flight 
from JFK to LAX was $1,480. Today, it's $320. So----
    Senator Capito. I could go there twice for my fare.
    Ms. Greenberg. Senator Capito, we think competition would 
do wonders for your situation in flying to West Virginia, and 
we see the big four airlines trying to squelch competition, and 
we want that to stop.
    Senator Capito. Thank you.
    Senator Blunt. Thank you, Senator Capito.
    Senator Duckworth?

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman, and I also 
would like to thank the Ranking Member for convening today's 
hearing.
    Mr. Kirby, no one wants United to succeed more than I. I've 
been a mileage-plus customer for 30 years. I joined when I was 
in college, so since 1986, I've been a mileage-plus member. But 
it's clear to me that the mere fact that we're here today, and 
that the incident aboard Flight 3411 was embarrassing and 
reprehensible--and I hope that you agree with that description 
of it.
    Mr. Kirby. Yes, ma'am.
    Senator Duckworth. Thank you.
    So while United Airlines and the Chicago Department of 
Aviation are working out the important steps to correct the 
policies that allowed this incident to happen, I am really 
interested in how much more airlines can do to reaffirm the 
industry's commitment to customer service and complying with 
their contracts of carriage.
    Ms. Pinkerton, I'd like to talk a little bit about some of 
these issues. As the industry representative, I'm interested in 
learning more about the reforms you highlight in your 
testimony. Will you help compile a list of the reforms your 
individual airline members have already taken to improve 
customer service and submit them for the record?
    Ms. Pinkerton. Yes, I will do that. They are more detailed 
in my written testimony, but I'm happy to give you a greater 
inventory.
    Senator Duckworth. That's wonderful. Thank you.
    And, Ms. Pinkerton, your organization successfully 
advocated for a delay in implementation of the mishandled 
baggage and wheelchair rule that would simply require large 
U.S. airlines to report on how often they've mishandled 
wheelchairs so that air travelers with disabilities can easily 
compare carriers and make informed travel decisions. Did the 
airline industry think this was in the consumers' best 
interest?
    Ms. Pinkerton. Well, I think what you're referring to is 
the fact that the Department of Transportation, when the 
administration changed, hit the pause button on all 
rulemakings. What they said is they're creating regulatory 
reform task forces. There's an executive order that requires 
rulemakings to essentially be cost beneficial. So I don't think 
hitting the pause button on some of these rules was a decision 
on the rule, but rather an opportunity to look at the process 
and make sure that the administration is going to move forward 
and, if so, how.
    Senator Duckworth. But Doug Mullen, the assistant general 
counsel at Airlines for America, sent an e-mail to the 
Assistant General Counsel of U.S. DOT asking that it be delayed 
until January 2019, saying, and I quote, ``Industry is facing 
some real challenges with both parts of this regulation, and we 
need more time to implement it.''
    Ms. Pinkerton. Well, I think asking for more time to 
implement something is imminently fair. I don't know if you 
were here earlier when I went through kind of the list of 
things that we have been doing to work with the disabled 
community, both on training, on increasing lavatory size, on 
information that's being put out to our crews, and the 
discussions we're having with the PVA. So this is an area that 
we've spent an enormous amount of time on, I can tell you, in 
the last 3 years. We take it seriously, and I think that we're 
making progress. If we need more time, you know, I think that 
that's an imminently reasonable request for more time.
    Senator Duckworth. As someone who travels and has traveled 
with a wheelchair for over a decade now, I've seen no 
improvement, and, if anything, in the last 24 months, I've had 
two wheelchairs broken, and I don't see improved training of 
anyone, especially your baggage handlers. But let me----
    Ms. Pinkerton. Well, I am sorry for that, and we want to 
fix that.
    Senator Duckworth. It doesn't appear that way, because it 
appears to me that you are trying to delay something as basic 
as collecting data and making it transparent to the public. I'm 
not asking you to come up with special--you know, extra 
handling systems. All this rule does is it just says you just 
have to report how many wheelchairs you break, and as a 
consumer, I would like to be able to--just like I can look and 
see that this airline's on-time rate for this particular flight 
is 80 percent, and the on-time rate for this particular flight 
on a different airline is this, I can choose. The consumer 
should be able to choose. You know, I don't----
    Ms. Pinkerton. We agree.
    Senator Duckworth.--think that that's an unreasonable 
thing----
    Ms. Pinkerton. I don't, either.
    Senator Duckworth.--especially when that's already being 
done.
    Ms. Pinkerton. Right.
    Senator Duckworth. Individuals with disabilities are 
people, too, and I have seen wounded warriors on flights to 
Miracles on a Mountainside being manhandled off of flights, 
further exacerbating their conditions. I have had to sit there 
and wait for my wheelchair to show up, and it doesn't show up, 
or it comes up in pieces. And, as I said, I've been there most 
recently, just within the last several weeks, where a 
wheelchair came up broken, and this is multiple airlines.
    You know, I think in a perfect world, Congress should not 
have to act, and airlines would treat all travelers with 
dignity and respect, and I think that's all the people with 
disabilities ask for. I don't think--I should think that you 
would be wanting to speed up this process, not delay, delay, 
delay.
    I'm out of time. Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Duckworth.
    Well, thank all of you for responding to questions. Thank 
you for the questions you will respond to. The record will 
remain open for 2 weeks. During that time, Senators can submit 
questions for the record, and when you receive these, you're 
requested to submit your written answers to the Committee as 
soon as possible.
    This concludes the hearing. I thank the witnesses. The 
hearing is closed.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Scott Kirby
I.T. Systems
    Mr. Kirby, we understand that many of the changes described in 
United's response to the flight 3411 incident will require changes to 
information technology systems.

    Question 1. How are these changes to your I.T. systems going, and 
when and how will we know they are successful?
    Answer. As promised, United has already completed the necessary 
I.T. work and successfully deployed an automated system for soliciting 
volunteers willing to change their travel plans. This new automated 
check-in process is used when a flight may need volunteers willing to 
take an alternative flight, ordinarily in exchange for compensation. 
The customer indicates during the check-in process that she or he is 
interested in potentially volunteering for another flight if there is 
ultimately a need and indicates the desired amount in compensatory 
travel credit they would be willing to accept. Using the information 
provided by willing customers, the system then generates a list of 
volunteers for our airport agents' use if a flight is unable to 
accommodate all passengers holding confirmed reserved space who are 
present for boarding. Customers who have indicated interest via this 
process retain the opportunity to opt out of volunteering to relinquish 
their reservation when contacted by a gate agent if, for example, 
satisfactory alternative travel arrangements are not available. This 
program is being rolled out throughout United's network this month 
following successful beta testing in Cleveland and Phoenix this summer. 
Our new automated system for identifying volunteers is helping United 
to better serve our customers, keep our flights departing on time, and 
bring instances of involuntary denied boarding to an absolute minimum. 
As a result of our efforts, we have had a 92 percent reduction in all 
involuntary denied-boardings (IDBs) in September 2017 over September 
2016, including 23 days in September with zero DOT-reportable IDBs.
    In addition, on July 11 United successfully launched the first 
phase of our promised new ``in the moment'' app that enables our flight 
attendants to resolve customer issues in real time. This new app has 
been deployed to all United flight attendant mobile devices, empowering 
them to compensate customers proactively (with mileage, credit for 
future flights or other appropriate forms of compensation) when a 
service issue occurs. The next phase of this system, providing similar 
functionality to United's airport customer service representatives, is 
on track to launch later this year. Our new real-time tools are part of 
United's commitment to better serve our customers by giving our 
passenger-facing employees more options to address customer concerns as 
issues arise instead of waiting for customers to contact us for 
resolution after their travel is completed.

    Question 2. Please describe any other major changes to your 
information technology systems and any disruptions these caused.
    Answer. Since Mr. Kirby's appearance before the Committee in May, 
United has had no major customer service disruptions involving flight 
departure delays caused by information technology system changes. In 
the second and third quarters of this year, United has successfully 
kept the percentage of our flights delayed for localized IT-related 
reasons to historic lows.

    Question 3. Also, what do you do to help passengers when there is 
an I.T. problem that causes disruption to travel plans?
    Answer. United implements service-recovery contingency plans to 
assist customers in the event an IT-related problem causes travel 
disruptions. These contingency plans are similar to those we implement 
in irregular operations situations caused by disruptive weather events 
or significant air traffic system delays. Should a passenger experience 
a cancellation or misconnection as a result of an IT issue or for any 
other reason, United does our best to contact the passenger in advance; 
confirm the passenger on the next flight we operate that has seats 
available in the same cabin when rebooking is necessary; and make 
information about the rebooking available through our website, at 
airport kiosks and through our airport and contact center agents.
    When these situations occur, United makes every effort to transport 
passengers to their destinations at the earliest available opportunity, 
which may include via travel on another airline, or to make other 
suitable arrangements for our customers. Depending on the 
circumstances, such as if an outage causing travel disruption were to 
become lengthy and widespread, United may also issue a waiver allowing 
customers to reschedule or cancel impacted itineraries. United's 
customer commitments and obligations during irregular operations are 
governed by and outlined in our contract of carriage (see Rule 24--
Flight Delays/Cancellations/Aircraft Changes).
Interline Agreements
    Mr. Kirby, the Department of Transportation, along with the 
Department of Justice, has agreed to numerous domestic airline mergers 
and joint ventures with foreign airlines over the last decade.

    Question 4. Given these mergers, and the fact that many of the 
large airlines now have intricate relationships with foreign carriers, 
how are the major airlines cooperating to minimize passenger 
disruption?
    Answer. United is a party to the IATA Multilateral Interline 
Traffic Agreement (MITA), and has either MITA or bilateral interline 
agreements with nearly 150 domestic and international airlines. While 
these agreements themselves do not impact the frequency of passenger 
disruptions, they do allow United to offer better service to customers 
whose travel has been disrupted by providing a significant number of 
additional flight options that may transport customers to their final 
destinations as close to their scheduled arrival times as possible, 
minimizing the severity of passenger travel disruptions.

    Question 5. What is the status of interline agreements among the 
carriers that could help ensure that passengers get to their 
destinations in a timely manner when there is a disruption?
    Answer. United maintains nearly 150 active interline agreements 
with both domestic and international airlines. The primary purpose of 
most of these interline agreements is to facilitate travel-disruption 
recovery for our customers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                              Scott Kirby
    Question. Does your airline provide Passenger Service Agents with 
training on deescalating techniques and managing hostile situations? If 
so, how often does this training occur and how do you measure its 
success?
    Answer. United has long included instruction on situational de-
escalation in training for frontline personnel for a variety of 
situations. In addition, the company recently implemented a 
comprehensive, annual ``Customer-Centric Journey'' training program for 
customer-facing employees. This includes all members of our Contact 
Centers and Airport Customer Service teams that assist our customers on 
the ground. This more robust training emphasizes diffusing and 
deescalating difficult situations; using persuasive skills to assist 
with management of potentially unpleasant conversations, such as those 
involving denied boardings; and maintaining a positive demeanor and 
calm communication. United continually reviews, assesses, and improves 
its training based upon course evaluations, focus groups, and the 
performance of its frontline employees.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                              Scott Kirby
    Question 1. Does United Airlines train passenger service agents to 
respond to passengers experiencing overbooking or flight cancellation? 
If so, please describe initial and recurrent training for agents. In 
instances of overbooking or cancellation, are passenger service agents 
authorized to offer compensation to passengers?

    Question 2. Does your airline train passenger service agents to 
deescalate verbal or physical confrontations between agents and 
passengers? If so, please describe initial and recurrent training. What 
other procedures are in place to deescalate verbal or physical 
confrontations between passenger service agents and passengers?
    Answer. United has long included instruction on situational de-
escalation in training for frontline personnel for a variety of 
situations. In addition, the company recently implemented a 
comprehensive, annual ``Customer-Centric Journey'' training program for 
all of our customer-facing employees. This includes all members of our 
Contact Centers and Airport Customer Service teams that assist our 
customers on the ground. This more robust training emphasizes diffusing 
and deescalating difficult situations; using persuasive skills to 
assist with management of potentially unpleasant conversations, such as 
those involving denied boardings; and maintaining a positive demeanor 
and calm communication. United continually reviews, assesses, and 
improves its training based upon course evaluations, focus groups, and 
the performance of its frontline employees.
    United's passenger service agents are authorized to offer 
appropriate compensation to disserviced customers, and we announced in 
April that we have increased customer compensation incentives offered 
for voluntary rebooking to up to $10,000. Agents are instructed to 
request assistance from their station leadership should a 
confrontational situation escalate.
                                 ______
                                 
  Response to Written Questions Submitted By Hon. Tammy Duckworth to 
                              Scott Kirby
    Question 1. On March 2, the U.S. Department of Transportation 
(USDOT) announced a one-year delay of the ``Reporting of Data for 
Mishandled Baggage and Wheelchairs and Scooters Transported in Aircraft 
Cargo Compartments'' final rule. As originally published, this rule 
would require large domestic airlines to report the number of 
wheelchairs and scooters they enplane, including any subsequently 
damaged, on a monthly basis beginning January 1, 2018.
    Disability organizations, including Paralyzed Veterans of America, 
fully supported this rule. Airlines for America requested that USDOT 
delay implementation based on Administration guidance and unspecified 
challenges the industry was experiencing with implementation of the 
regulation. Will your airline commit to expediting its compliance with 
this rule to meet the original January 2018 deadline?
    Answer. The DOT's rule requiring airlines to report statistics on 
the enplanement of and any damage to wheelchairs and scooters is part 
of a much broader rule that makes significant changes to the way in 
which airlines must track and report their overall baggage-handling 
performance. That rule impacts reporting regarding all of the hundreds 
of millions of checked bags airlines carry annually. When the rule was 
published on November 2, 2016, the Department noted that most airlines 
had previously advised it that they would need at least 12 to 24 months 
after the rule became final to reprogram baggage-tracking systems, 
install new equipment at airports, and train employees to comply with 
the rule's requirements. DOT initially set an implementation date of 
January 1, 2018 for these complex changes, despite the fact that 
airlines had informed the Department over the course of several years 
that this major change would require an extended period of preparation 
to ensure data quality and consistency among carriers.
    When the President's chief of staff issued a memorandum to 
department heads on January 20, 2017 directing a regulatory freeze 
pending review, Airlines for America and Delta Air Lines petitioned the 
Department to delay the baggage rule's implementation until January 1, 
2019, giving airlines adequate time to conduct the extensive work 
necessary for their compliance with it. The Department agreed, with 
Secretary Chao noting in her June 7, 2017 letter to Senator Duckworth 
that ``the additional time is necessary to ensure that airlines will be 
able to submit timely and accurate data on which consumers, including 
passengers with disabilities, can rely when making their purchasing 
decisions while the Department continues to review the rule about 
reporting issues.''
    United is working hard, both individually and through its industry 
association, to prepare for full implementation of the Department's 
data reporting changes for baggage performance along with wheelchair 
and scooter handling. We look forward to receiving further guidance 
from DOT's Bureau of Transportation Statistics, which produces 
technical directives for all new or revised reporting requirements with 
specific instructions on what must be reported and how to transmit it 
to DOT that United and other carriers will need in order to make 
necessary system programming changes. Given the effort required 
industry-wide to implement these once-in-a generation changes to the 
calculation of baggage statistics across the U.S. industry, which will 
enable the public to compare the performance of different airlines. 
Unfortunately, it is not feasible for United to meet the rule's 
original January 2018 deadline.
    As part of United's commitment to full compliance with all aspects 
of the Air Carrier Access Act (ACAA), United follows the procedures 
outlined in 14 C.F.R. section 382.125 when wheelchairs, mobility aids, 
or other assistive devices must be stowed in the cargo compartment of 
our aircraft, including giving them priority over cargo and baggage and 
returning them promptly to their owners upon landing, and with 14 
C.F.R. section 382.129 when passengers' wheelchairs, mobility aids, or 
other assistive devices must be disassembled for stowage. United has 
recently invested in 35 new wheelchair lift devices at our hubs and 
line stations to more safely transfer wheelchairs to aircraft cargo 
areas for stowage with less damage.
    As further evidence of our industry's commitment to air travel 
accessibility, Airlines for America on behalf of United and its other 
members, along with the Paralyzed Veterans of America, are working with 
the Rehabilitation Engineering and Assistive Technology Society of 
North America (RESNA) on a framework for jointly developing proactive 
initiatives such as design standards aimed at reducing travel-related 
damage to power wheelchairs. The RESNA membership is voting this month 
on the establishment of an Assistive Technology for Air Travel 
committee as the forum for these cooperative efforts, which is expected 
to be approved.

    Question 2. In February 2017, USDOT released the latest figures on 
disability-related complaints filed directly with airlines. In 2015, 
passengers filed 30,830 disability-related complaints as reported by 
176 domestic and foreign air carriers, which represents a nearly twelve 
percent increase over 2014. In 2016, passengers also filed 862 
disability-related complaints directly with USDOT, which is down from 
the 944 complaints filed in 2015. Will your airline commit to improved 
training to better meet the needs of passengers with disabilities and 
other initiatives to increase your airline's compliance with the Air 
Carrier Access Act?
    Answer. United is committed to ensuring that all customers--
particularly our disabled passengers--are treated with dignity and 
respect. All of United's customer-facing and ramp-service employees, 
both on the ground and aboard our aircraft, receive robust initial and 
annual-recurrent training to ensure United is competently meeting the 
needs of our customers with disabilities with professionalism and 
respect. Training appropriate to the duties of their roles is provided 
to our contact-center customer service representatives, airport agents, 
flight attendants and ramp-service employees. This training covers ACAA 
obligations, United's policies and procedures, best practices for 
assisting customers in safely moving through the air travel process, 
proper handling and stowage of travelers' assistive devices, and soft 
skills that ensure our passengers' needs are met with courtesy and 
discretion. Depending on the employee's workgroup and whether the 
training is for newly-hired or tenured employees, United's training may 
include classroom, hands-on and computer-based instruction. United has 
a longstanding Accessible Travel Advisory Board comprised of 
individuals representing several disabilities and groups such as the 
Open Doors Organization that meets regularly to discuss issues 
pertaining to air travel and accessibility and to offer suggestions and 
advice to improve United's products and services. Our Accessible Travel 
Advisory Board frequently provides input that is incorporated into 
United's employee training programs.
    United's complaint resolution officials, who are available to 
provide escalated assistance to customers with disabilities at all of 
United's locations, receive extensive additional, instructor-led 
training to ensure that they are thoroughly familiar with all the 
requirements of the ACAA and are experts on United's policies and 
procedures with respect to customers with disabilities.
    We continuously seek to make ongoing improvements to our training 
and performance-audit programs not only to increase United's compliance 
with the ACAA but also to improve the overall travel experience for our 
customers with disabilities.

    Question 3. Over thirty years ago, President Reagan enacted the Air 
Carrier Access Act (ACAA). The ACAA prohibits discrimination based on 
disability in air travel. Despite progress, too many travelers with 
disabilities still encounter significant barriers, such as damaged 
assistive devices, delayed assistance, and lack of seating 
accommodations. Without improved access for people with disabilities in 
air travel many will be unable to compete in today's job market or 
enjoy opportunities available to other Americans. What proactive steps 
is your airline taking to improve the travel experience for passengers 
with disabilities, including veterans, who are catastrophically 
disabled?
    Answer. United takes our responsibilities under the ACAA very 
seriously. We are committed to treating all customers with dignity and 
respect, including those with disabilities and those who have served 
our country in our armed forces. United's employees and contractors 
receive extensive training on their ACAA Part 382 obligations, and we 
seeks to continuously improve those obligations by maintaining strong 
relationships with numerous disability organizations throughout the 
country to keep abreast of the needs of passengers with disabilities 
and to assimilate their suggestions into our training and policies. As 
part of this commitment, we have a longstanding Accessible Travel 
Advisory Board comprised of individuals representing several 
disabilities and groups such as the Open Doors Organization that meets 
regularly to discuss issues pertaining to air travel and accessibility 
and to offer suggestions and advice to improve United's products and 
services. The mission of this group is to ensure that United will 
continue to offer safe, reliable and accessible transportation for all 
our customers, including those with disabilities.
    We also partner with a number of disability organizations and 
rehabilitation hospitals around the country as part of our ``Project 
Airport,'' which provides a simulated travel experience at several of 
our hub locations in a safe and less-stressful environment to 
individuals who are newly disabled. This project provides an overview 
of the ACAA, the TSA screening process, and the experience of boarding 
an aircraft with an aisle chair. At some of our airport locations, we 
have also partnered with Veterans Moving Forward to allow disabled 
veterans with service dogs to come to the airport and become familiar 
with our aircraft.
    In addition to these partnerships, we maintain an ongoing dialogue 
with our partners and stakeholders to identify ways our airline can 
continue to improve and better serve our customers with disabilities. 
All these efforts are designed to ensure that every step of the travel 
experience is within reach for all of United's customers.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                             to Scott Kirby
    Question 1. Contracting out services have become a very common 
airline practice. This is something I mentioned at the end of my time 
during the hearing. In the case of the recent United incident, your own 
pilots have emphasized the fact that the employees involved in that 
situation were not in fact United's, but were those of Republic 
Airlines. I was wondering, how much oversight and control do you have 
over the behavior and handling of situations where the travelers 
purchased a ticket from United, but gets the services of another 
company?
    Answer. While United Express carriers operate under their own FAA 
certificates and must, by law, maintain operational control of their 
airline, each United Express carrier--including Republic--is 
contractually obligated to perform in keeping with key service 
standards that United has established to ensure our customers 
experience a seamless product. These standards define Express carriers' 
responsibilities to meet United's customer service requirements and 
product-delivery objectives, and are focused on each of our key 
customer-facing functions: at the airport, onboard the flight, and upon 
arrival at the destination airport. There is a department at United's 
headquarters specifically focused on managing the performance and 
compliance of our United Express partners. Any changes to the 
performance standards that United determines are necessary are made at 
the sole discretion of United Airlines, and are not subject to 
contractual negotiations.

    Question 2. Have there been any discussions about actions you're 
taking towards or with Republic Airlines?
    Answer. United takes full responsibility for the events of United 
Express Flight 3411. We are pleased that United and Dr. Dao have 
reached an amicable resolution of the unfortunate incident that 
occurred aboard flight 3411. We are implementing the improvements we 
announced, which place our customers at the center of everything we do.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Sharon Pinkerton
Airline Passenger Bill of Rights
    Ms. Pinkerton, one major problem for passengers is the variance in 
consumer assistance practices among airlines. On one airline you may be 
able to change flights for a nominal fee; on another you lose the value 
of the whole ticket. And if you happen to get stranded by weather or 
some other event, it's often like the Wild West for passengers--they 
have no idea what they are going to get.

    Question 1. Has Airlines for America done anything to put together 
a voluntary set of consumer commitments for its members? If you really 
want to deal with these issues, some self-regulation seems like a 
really good place to start.
    Answer. U.S. airlines have long held voluntary Customer Service 
Commitments. These commitments, along with airline contracts of 
carriage, are available on every major airline's website. The Customer 
Service Commitments are clear, well established and easily accessible 
to travelers at the click of a button. Beyond the existing Customer 
Service Commitments airlines have also recently taken additional steps 
to improve customer service, including, but not limited to--

  <bullet> Completely eliminating or reducing overbooking;

  <bullet> Prohibiting use of law enforcement to remove passengers from 
        a flight, except in cases of safety or security;

  <bullet> Ensuring that no passenger is involuntarily removed from a 
        flight for another passenger;

  <bullet> Ensuring that crews traveling must be booked at least 60 
        minutes prior to departure;

  <bullet> Giving gate agents the discretion to offer higher amounts of 
        money as an incentive for customers to voluntarily take a 
        different flight;

  <bullet> Airlines are renewing their focus on training for all 
        customer-facing staff to make sure they are taking care of 
        passengers, not just getting them from point to point; and

  <bullet> Efforts are underway to provide passengers even more 
        transparency and understanding about what their rights are as 
        consumers.

    For easy reference, our member airline Customer Service Plans are 
accessible at the following links:

  <bullet> Alaska Airlines: https://www.alaskaair.com/content/about-us/
        customer-commitment/customer-commitment-overview

  <bullet> American Airlines: https://www.aa.com/i18n/customer-service/
        support/customer-service-plan.jsp

  <bullet> Hawaiian Airlines: https://www.hawaiianairlines.com/about-
        us/customer-service-plan

  <bullet> jetBlue Airlines: https://www.jetblue.com/legal/customer-
        service-plan/

  <bullet> Southwest Airlines: https://www.southwest.com/assets/pdfs/
        corporate-commitments/customer-service-commitment.pdf

  <bullet> United Airlines: https://www.united.com/web/en-US/content/
        customerfirst-print.aspx

    I would also point out that differentiation among airlines, the 
predicate of your question, is a hallmark of competition, including the 
services offered with respect to changing flights or assisting 
customers when a disruption occurs. Differing business models by 
brands, with varying levels of customer service and amenities, allow a 
variety of prices and services to meet the needs of all customers, 
whether in the retail clothing industry, hotel industry or airline 
industry.
Interline Agreements
    Ms. Pinkerton, the Department of Transportation, along with the 
Department of Justice, has agreed to numerous domestic airline mergers 
and joint ventures with foreign airlines over the last decade.

    Question 2. Given these mergers, and the fact that many of the 
large airlines now have intricate relationships with foreign carriers, 
how are the major airlines cooperating to minimize passenger 
disruption? What is the status of interline agreements among the 
carriers that could help ensure that passengers get to their 
destinations in a timely manner when there is a disruption?
    Answer. A4A does not have an opinion on any specific interline 
agreement since they are governed by the voluntary contractual 
relationship between two or more private entities under the full 
approval of government regulators.
    However, as a general matter, the well-being and safety of every 
traveler is and will remain the highest priority for U.S. airlines. 
Airlines will continue to take actions and participate in voluntary 
agreements that make sense for their individual business models to make 
sure the ultimate industry goal of providing a safe, efficient and 
enjoyable travel experience is attained by each passenger.
    Airlines operate in an intensely competitive environment and each 
competitor knows that their customer service policies will and do 
dictate consumer purchasing decisions.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                            Sharon Pinkerton
    Question. Does your airline provide Passenger Service Agents with 
training on deescalating techniques and managing hostile situations? If 
so, how often does this training occur and how do you measure its 
success?
    Answer. For Airports, we cover the following in the Customer 
Service Modules in new hire classes.

  <bullet> What to Do When Things Don't Go As Planned

  <bullet> What Pushes Your Buttons?

  <bullet> Recognizing Your Own Stress, Symptoms of Stress, Maintaining 
        Our Cool

  <bullet> Dealing with Triggers

  <bullet> Stages of Anger

  <bullet> Choose Words Carefully, Body Language and Non-Verbal's, 
        Active Listening and Empathy

    For those Airports Crewmembers who are qualified as Complaints 
Resolution Officials (CROs) and Ground Security Coordinators (GSCs), 
below is a summary of what they receive in training re: deescalating 
and hostile situations.

CRO

  <bullet> Training on interacting with Customers with disabilities in 
        stressful or hostile situations

  <bullet> Real play activities for interacting Customers with 
        disabilities in demanding situations within DOT Rule 382 
        guidelines

GSC

  <bullet> Training on signs/symptoms of persons who are believed to be 
        under the influence of drugs or alcohol

  <bullet> Training on use of assertive communication techniques

  <bullet> Training on staying calm in stressful or hostile situations

  <bullet> Rules for personal safety when dealing with an intoxicated 
        or impaired Customer

  <bullet> Activity for removal of a disruptive Customer

    There is both Initial and Recurrent (annual) training for these. 
Success in training is measured by demonstration of proficiency and 
application of knowledge for the respective programs. Ultimately 
success is measured by the actions taken during these situations in the 
operation.
                                 ______
                                 
        Response to Written Question by Hon. Tammy Duckworth to 
                            Sharon Pinkerton
    Question. In December 2016, USDOT announced that the Advisory 
Committee on Accessible Air Transportation (ACCESS Advisory Committee) 
convened by USDOT had reached stakeholder agreement on improving access 
to lavatories on certain single-aisle aircraft and in-flight 
entertainment for passengers with disabilities. Will your organization 
urge implementation of these agreements as written? Will your 
organization urge USDOT to issue the proposed rules as required under 
Section 2108 of the FAA Extension, Safety, and Security Act of 2016 
(Public Law 114-190)?
    Answer. ``A4A supports and urges implementation of the Advisory 
Committee on Accessible Air Transportation negotiated rulemaking 
consensus agreement for accessible lavatories on single-aisle aircraft 
and for accessible in-flight entertainment. The consensus agreement was 
reached after a lot of hard work and extensive negotiations among all 
stakeholders. We will not urge USDOT to issue a supplemental notice of 
proposed rulemaking based on Regulation Identification Number 2105-AE12 
as reported on June 15, 2015 because the Department should focus on 
regulatory proposals that have reached stakeholder consensus.''
Background Information:
Section 2108 of the FAA Extension, Safety, and Security Act of 2016
SEC. 2108. AIR TRAVEL ACCESSIBILITY.
    Not later than 1 year after the date of enactment of this Act, the 
Secretary of Transportation shall issue the supplemental notice of 
proposed rulemaking referenced in the Secretary's Report on Significant 
Rulemakings, dated June 15, 2015, and assigned Regulation 
Identification Number 2105-AE12.
Secretary's Report on Significant Rulemakings, dated June 15, 2015
    Abstract: This is the third of three supplemental notices of 
proposed rulemaking SNPRM) to follow-up on air travel accessibility 
issues discussed in the preamble of the 2008 Air Carrier Access Act 
(ACAA) final rule. (The first SNPRM is RIN 2105-AD96; the second is RIN 
2105-AE32.) This rulemaking action would consider (1) whether carriers 
should be required to supply in-flight medical oxygen for a fee to 
passengers who require it to access air transportation; (2) whether any 
safety-related reasons specific to foreign carriers may preclude the 
carriage of service animals other than dogs on their flights and 
whether certain changes should be made to provisions allowing carriers 
to require medical documentation and 48 hours advance notice from users 
of emotional support and psychiatric service animals; (3) whether 
carriers should be required to provide accessible lavatories on certain 
new single-aisle aircraft; (4) whether carriers should be required to 
report to the Department annually the number of requests for disability 
assistance they receive; and (5) whether to broaden the scope of 
passengers with disabilities who must be afforded seats with extra leg 
room, and whether carriers should be required to provide seating 
accommodations with extra leg room in all classes of service. The 
proposed rule would also clarify certain existing requirements 
pertaining to the carriage of service animals.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Sharon Pinkerton
Issue #1--Airline fees
    Question 1. Have the policies to decouple flight ticket costs and 
fees associated with various services like baggage handling, modest 
snacks provided, or changing of flights--worked to provide consumers/
fliers any better flying experience?
    Answer. Yes, they have. Fares are now cheaper, air service is more 
plentiful, competitive offerings have increased and the quality of 
baggage handling, inflight food/snacks, entertainment/WiFi, and the 
like has improved materially.

  <bullet> Inflation-adjusted domestic fares have fallen 22 percent 
        since 2000 (17 percent including ancillaries) and, more 
        recently, we are in the third consecutive year of real declines 
        in domestic airfares: from 2014 to the first half of 2017 
        inflation-adjusted domestic airfare declined roughly 10 percent 
        (the average price paid for ancillary services was flat over 
        this period). Thus far in 2017, while major every cost--
        including most notably labor and fuel--is going up, fares 
        continue to trend down thanks to the intensely competitive 
        landscape across the industry.

  <bullet> The supply of seats being offered domestically is at its 
        highest level in a decade and those offered for international 
        seats are at an all-time high.

  <bullet> Service quality has improved, as corroborated by the 
        [attached] findings of the most recent American Customer 
        Satisfaction Index for air travel (http://www.theacsi.org/the-
        american-customer-satisfaction-index) and J.D. Power 2017 North 
        America Airline Satisfaction Study (http://www.jdpower.com/
        press-releases/jd-power-2017-north-america-airline-
        satisfaction-study). According to the U.S. Department of 
        Transportation, in 2016 U.S. airlines recorded their best-ever 
        year for baggage handling (99.73 percent success rate), their 
        highest flight completion rate (98.83 percent) since 1992, 
        their highest on-time arrival rate (81.42 percent) since 2012, 
        and their lowest-ever rate (0.62 per 10,000 passengers) rate of 
        involuntarily denied boarding.

    Question 2. Are they getting any better value for their hard earned 
dollars?
    Answer. In addition to seeing fares continue to decline in real 
terms, air travelers are seeing service options proliferate as global 
network carriers, low-cost carriers and niche or hybrid carriers all 
grow, making air travel affordable for those whose options were 
previously limited to surface transportation. In fact, survey research 
shows that half the American population traveled by airline in 2016, up 
from just 1 out of every 5 Americans in 1971. WiFi availability and 
speeds are improving rapidly, airlines are restoring meal service on 
many flights and enhancing the quality of snacks/meals on many others, 
and continually investing not only in new, quieter more fuel-efficient 
aircraft but also in kiosk, app and website functionality for 
passengers to purchase flights, monitor flight status, check in for 
flights, track their bags, modify their itineraries, rebook, etc. As 
noted in the attached, ``Scores are higher this year than one year ago 
in all of the study factors that measure customer satisfaction.''
Issue #2--WiFi security
    Question 3. I have just recently heard concerning details from a 
traveler who was hacked, on her laptop, by a well-known malware product 
while she was connected with an airplane WiFi. There is no other option 
for WiFi service on an airplane--the traveler is captive. Can you 
please document for me the protections that are in place, and the 
security, or potential lack thereof, that travelers are provided or 
warned about by logging onto airline in-air WiFi?
    Answer. Unfortunately, I do not have the information or ability to 
comment on the specific incident you have referenced. However, as a 
general matter, airlines are committed to protecting the privacy and 
personal data they receive from customers. The specific commitments and 
protections of each policy may differ from carrier to carrier but all 
applicable information can be found as part of their respective air 
carrier Privacy Policy documents.

    Question 4. Can we expect the consumer is provided protection from 
various cyber security concerns?
    Answer. See Question 3.

    Question 5. What recourse do travelers have in cases that I've 
heard and read about?
    Answer. See Question 3.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                             to Sara Nelson
Issues #1--Airline Policies
    Question 1. Do you get input on what policies your airlines 
initiate, i.e., size of the seats?
    Answer. Generally no. Our involvement in cabin configuration 
typically depends on the status of the labor/management relationship. 
Size and number of seats is not typically a subject that we receive 
more than a courtesy advance notice, unless it is a brand new aircraft. 
AFA is always available to our airlines to provide feedback and input. 
Our experience is that when airlines involve our union, the product and 
implementation of new product is better and works better for passengers 
and crews managing the work space.

    Question 2. Flight seating situation or overbooking?
    Answer. Generally no, although we may be involved in situations 
that overlap with safety or security issues.

    Question 3. Fees associated with services?
    Answer. No.

    Question 4. Fee levels?
    Answer. No.

    Question 5. Boarding policies?
    Answer. This varies by carrier. AFA is a good ally for airlines 
when developing these policies and again, our experience is that when 
AFA provides input and coordinates on implementation the process is 
more successful for implementation and practice.

    Question 6. Is it possible that one could argue that your members 
end up on the receiving end of some traveler's frustration due to 
policies they can't truly influence or improve?
    Answer. Yes. I believe airlines should rely on AFA's expertise and 
knowledge when contemplating any procedural changes. Economic forces 
can make this challenging, but we believe that there can and should be 
an assessment of impact on safety and security. This may be an area 
where an industry common denominator helps alleviate economic forces. 
And to reiterate, as the experts in the cabin, any policy will be 
better crafted with our input.
Issue #2--Safety and Security of those on airplanes
    Question 7. I have been active in working to ensure that victims of 
sexual assault or harassment don't have to live in fear or without 
justice. And I hear stories and worry about possible incidents that are 
against airline staff, mainly flight attendants, as well as passengers. 
Do you have a firm sense of the frequency of these incidents that occur 
in a given years' worth of air service?
    Answer. I hear from members about the increasing frequency of 
incidents and we also track reports through our AFA Air Safety, Health 
and Security Department. In past, when airlines collected reports in 
paper form, AFA would get a hard copy, making it easier for us to keep 
track. In today's world, most reports are filed electronically on hand 
held report. AFA does not receive copies of electronic reports, unless 
Flight Attendants initiate the copy to AFA. It would be helpful if we 
were copied as a matter of course. We also conducted a recent survey of 
our members regarding passenger on passenger sexual assault.

  <bullet> One out of five responding flight attendants has experienced 
        a report of passenger on passenger sexual assault while working 
        a flight.

  <bullet> The most common action taken by an intervening Flight 
        Attendant was to physically separate the passengers and notify 
        all flying partners.

  <bullet> Law enforcement was contacted or met the plane less than 
        half of the time.

  <bullet> Most intervening actions taken must have been due to the 
        resourcefulness of the intervening involved Flight Attendants 
        as the overwhelming majority of responders report no knowledge 
        of written guidance and/or training on this specific issue 
        available through their airline.

    Question 8. What is the process for documenting or investigating 
incidents that take place just before or during flights?
    Answer. There is no Federal requirement for flight attendants to 
report incidents. Company policy dictates what type of reports should 
be submitted and how often.

    Question 9. What can we better protect everyone's flying experience 
or get justice for those who are treated in an inappropriate or 
malicious way?
    Answer. It seems that consumer choice doesn't support changing the 
conditions of today's competitive aviation market, but there are steps 
we need to take in aviation to ensure we don't get this wrong.

  <bullet> Staffing at the gate and on the plane needs to increase to 
        ensure aviation workers have the ability to identify problems 
        early and the time to de-escalate and resolve them.

  <bullet> It is past time to install cockpit secondary barriers and 
        follow through with providing crewmember self-defense training 
        to all cabin crew.

  <bullet> We must tackle the issue of out of context videotaping that 
        violates the privacy rights of other passengers, showcases 
        events out of context, escalates tensions and provides free 
        surveillance of crew movement to terrorists.

  <bullet> We need to address the issue of high energy fires and 
        mitigate unnecessary risks.

  <bullet> We need to strictly enforce the carry-on baggage policy at 
        every stage of travel including transit or connection in order 
        to prevent a conflict over storage space before it begins.

  <bullet> Flight Attendants need clear guidance in dealing with non-
        compliant passengers and they need to know management and 
        regulators support them in following these procedures.

  <bullet> We encourage placards reinforcing the role of crewmembers 
        and passenger acknowledgement at the point of check-in.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Tammy Baldwin to 
                            Sally Greenberg
    Question. Please describe barriers travelers with disabilities, 
including veterans, currently encounter in air travel. Further, please 
describe industry best practices that may help close remaining service 
gas in air travel for individuals with disabilities.
    Answer. While the air travel experience for the average consumer is 
far from ideal, the barriers for travelers with disabilities, including 
veterans are even worse. Travelers with disabilities face a range of 
obstacles while traveling by air, including the threat of damage to 
medical equipment such as wheelchairs and a lack of access to lavatory 
facilities.
    To elaborate, one of the biggest obstacle members of the disabled 
community face is the large number of wheelchairs damaged by the 
airlines. There have been numerous reports about damaged wheelchairs, 
in the media \1\ and from veterans themselves.\2\ This problem has even 
affected U.S. Senator Tammy Duckworth, whose wheelchair was damaged by 
the airlines several times.\3\
---------------------------------------------------------------------------
    \1\ Fox News. ``United 'destroyed' custom wheelchair worth $42K, 
says passenger.'' July 12, 2017. Online: http://www.foxnews.com/travel/
2017/07/12/united-destroyed-custom-wheelchair-worth-42k-says-
passenger.html
    \2\ Paralyzed Veterans of America. ``Paralyzed Veterans of America 
Challenges Administration Rollback of Protections for Disabled Air 
Travelers.'' CISION PR Newswire. July 31, 2017. Online: http://
www.prnewswire.com/news-releases/paralyzed-veterans-of-america-
challenges-admi
nistration-rollback-of-protections-for-disabled-air-travelers-
300496976.html
    \3\ Duckworth, Tammy. ``Letter to U.S. Transportation Secretary 
Elaine Cho.'' April 17, 2017. Online: https://www.duckworth.senate.gov/
sites/default/files/DoT%20Disability%20Protections
%20Rule.pdf
---------------------------------------------------------------------------
    Another obstacle for travelers with disabilities is shrinking seat 
and lavatory sizes.\4\ This has had an especially negative impact on 
travelers with disabilities who are often forced to dehydrate 
themselves or otherwise refrain from using the bathroom for hours due 
to single-aisle airplanes lacking accessible lavatories.\5\ In some 
cases, even ``accessible'' are not truly accessible and have caused 
injury to travelers with disabilities.\6\ When combined with normal 
airline delays, the lack of accessible onboard lavatory facilities and 
aisle-accessible wheelchairs on board airplanes have even led to 
instances where travelers with disabilities were forced to crawl down 
the aisle in order to reach a lavatory.\7\ Fortunately, there is 
pending legislation, Senator Blumenthal and Senator Markey's Passenger 
Bill of Rights, which would require that all airplanes be equipped with 
lavatories that meet the needs of passengers with disabilities.\8\ NCL 
is proud to support such pro-passenger legislation.
---------------------------------------------------------------------------
    \4\ McCartney, Scott. ``Feel Squished? Airlines Are Shrinking 
Headroom, Too The distance between your eyes and the seat in front of 
you is shrinking.'' Wall Street Journal. December 8, 2016. Online: 
``https://www.wsj.com/articles/feel-squished-airlines-are-shrinking-
headroom-too-1481130493
    \5\ Eng, Dinah. New York Times. ``Smaller Bathrooms on Planes Pose 
Challenges for Passengers.'' December 23, 2016. Online: https://
www.nytimes.com/2016/12/23/travel/smaller-airplane-bathrooms-
challenges-for-passengers.html?_r=0
    \6\ Cumming, Malcolm. ``[Not So] Accessible On-Board Lavatories--
Flying Disabled,'' AirlineReporter.com. September 21, 2015. Online: 
http://www.airlinereporter.com/2015/09/not-accessible-board-lavatories-
flying-disabled/
    \7\ Gray, Melissa and Roth Samuel. ``United Airlines apologizes 
after disabled man crawls off flight.'' CNN. October 27, 2015. Online: 
http://www.cnn.com/2015/10/25/us/united-airlines-disabled-man/
index.html
    \8\ Office of Senator Edward Markey. ``MARKEY, BLUMENTHAL INTRODUCE 
AIRLINE PASSENGERS' BILL OF RIGHTS,'' Press Release. June 26, 2017. 
Online: https://www.mar
key.senate.gov/news/press-releases/markey-blumenthal-introduce-airline-
passengers-bill-of-rights
---------------------------------------------------------------------------
    The first step to fix this problem should be gathering better data 
on the frequency that airlines damage wheelchairs. In October 2016, the 
Department of Transportation (DOT) finalized a rule which requires 
airlines to report all of the wheelchairs that they damage as they 
currently are required to do with lost or damaged baggage.\9\ Recently 
however, leadership at the DOT chose to delay the implementation of the 
final rule at the request of the airline industry.\10\ Travelers with 
disabilities, including veterans will not benefit from this important 
consumer protection until at least January 2018, much to the 
disagreement of consumer and veteran groups like the Paralyzed Veterans 
of America.\11\
---------------------------------------------------------------------------
    \9\ Jansen, Bart.''Disabled travelers sue DOT to speed airline 
reporting about damaged wheelchairs.'' USA Today.
    \10\ Paralyzed Veterans of America. ``Paralyzed Veterans of America 
Challenges Administration Rollback of Protections for Disabled Air 
Travelers.'' CISION PR Newswire. July 31, 2017. Online: http://
www.prnewswire.com/news-releases/paralyzed-veterans-of-america-
challenges-admi
nistration-rollback-of-protections-for-disabled-air-travelers-
300496976.html
    \11\ ibid.
---------------------------------------------------------------------------
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Sally Greenberg
Issues #1--Airline mergers
    Question 1. Ms. Greenberg, to your knowledge, when was the last 
time a large airline merger was not approved by the DOT and DOJ?
    Answer. The most recent blocked airline merger occurred in 2001 
when Department of Justice (``DOJ'') halted the proposed merger between 
U.S. Airways Group and United Airlines.\12\ In deciding to reject the 
proposed merger, the DOJ cited concerns regarding ``reduce[d] 
competition, raise[d] fares, and harm [to] consumers'' stemming from 
the increased market share held by the two airlines.\13\ At the time, 
United and U.S. Airways were the second and sixth largest domestic 
airlines, respectively. The DOJ was deeply concerned by this 
consolidation, and the monopolistic impacts that would occur on 
specific routes as a result of the proposed merger.\14\
---------------------------------------------------------------------------
    \12\ ABC News. ``United-US Airways Merger Dead.'' July 27, 2001. 
Online: http://abcnews
.go.com/Business/story?id=87893&page=1
    \13\ Department of Justice. ``Department of Justice and Several 
States will Sue to Stop United Airlines from Acquiring U.S. Airways.'' 
July 27, 2001. Online: https://www.justice.gov/archive/atr/public/
press_releases/2001/8701.htm
    \14\ ibid.
---------------------------------------------------------------------------
    Unfortunately, the blocking of the United-US Airways merger has 
been the exception, rather than the rule in recent decades. Rapid 
airline consolidation has occurred under both Republican and Democratic 
administrations. In the last decade, 13 airline mergers have occurred, 
most notably between Delta Air Lines and Northwest Airlines in 2009, 
and United Airlines and Continental Airlines in 2010.\15\ Today, 80 
percent of domestic flights are controlled by just four airlines: 
American, Delta, Southwest, and United.\16\ This lack of meaningful 
consumer choice allows for the rapid promulgation of excessive fees, 
substandard services, and rising prices industry-wide.\17\
---------------------------------------------------------------------------
    \15\ Airlines for America. ``U.S. Airline Mergers and 
Acquisitions.'' Online: http://airlines.org/dataset/u-s-airline-
mergers-and-acquisitions/
    \16\ Klose, Kerry. ``Travel Groups Want Congress to Investigate 
Airline Competition (or Lack Thereof)'' Time. February 2, 2016. Online 
http://time.com/money/4204413/airline-competition-congress/?iid=sr-
link1
    \17\ ibid.
---------------------------------------------------------------------------
Issue #2--Airline fees
    Question 2. Have the policies to decouple flight ticket costs and 
fees associated with various services like baggage handling, modest 
snacks provided, or changing of flights--worked to provide consumers/
fliers any better flying experience?
    Answer. Unfortunately, instead of consumers receiving a better 
flying experience with more choices, the proliferation of so-called 
``ancillary fees'' has created a ``cattle class'' where airlines can 
charge a deceptively low ticket price and then slam passengers with 
add-on fees. For example, a common fee passengers face is the 
misleading seat assignment confirmation fee, which can trick travelers 
into thinking they must pay to ``confirm'' their seat when in reality 
they are only paying to choose their seat early.\18\ Add-on airline 
fees today encompass practically every area of the flying experience. 
Consumers pay fees for everything from checked and carry-on baggage and 
the ``privilege'' of sitting in humanely-sized seats.\19\ In 2015 
alone, American, Delta and United collected $14.69 billion from add-on 
fees, a 177 percent increase from the $5.3 billion they collected from 
such fees in 2008.\20\
---------------------------------------------------------------------------
    \18\ Elliott, Christopher. ``As airlines try to monetize seat 
assignments, are disabled passengers being left behind?'' Washington 
Post. April 20, 2017. Online: https://www.washingtonpost.com/lifestyle/
travel/as-airlines-try-to-monetize-seat-assignments-are-disabled-
passengers-being-left-behind/2017/04/20/71114994-2460-11e7-bb9d-
8cd6118e1409_story.html?utm_term=.8596dce26f9a
    \19\ ``Safety risk of shrinking airline seats questioned,'' Los 
Angeles Times. April 14, 2015. Online: http://www.latimes.com/business/
la-fi-airline-seat-risks-20150414-story.html
    \20\ IdeaWorks. 2016 Yearbook of Ancillary Revenue. September 2016. 
Page 4. Online: http://www.ideaworkscompany.com/wp-content/uploads/
2016/09/2016-Ancillary-Revenue-Yearbook-R.pdf
---------------------------------------------------------------------------
    While the airlines claim that it has never been a better time to 
fly, DOT has received a 70 percent increase in consumer complaints in 
recent months.\21\ This strongly suggests that consumers are 
increasingly unhappy with the service they receive from the Nation's 
airlines.
---------------------------------------------------------------------------
    \21\ Martin, Hugo. ``Complaints against airlines jump 70 percent 
after United's passenger-dragging incident.'' Los Angeles Times. June 
14, 2017. Online: http://www.latimes.com/business/la-fi-airline-
complaints-20170614-story.html

    Question 3. Are they getting any better value for their hard earned 
dollars?
    Answer. In spite of historically low fuel prices and historically 
high load factors, consumers are paying more to fly. According to an 
Associated Press analysis, fares climbed 5 percent in the 10-year 
period ending in 2015, after adjusting for inflation.\22\ The true cost 
of flying may have grown even more, as the AP analysis did not account 
for the proliferation of ancillary fees. These fees take the shape of 
baggage fees, cancellation fees, standby fees, seat reservation fees 
and other forms of nickel-and-diming. In 2015 alone, American, Delta 
and United brought in $14.69 billion in ancillary revenue, a staggering 
177 percent increase from the $5.3 billion they collected from such 
fees in 2008.\23\ A Wall Street Journal analysis of airfares, including 
add-on fees, found that from 2007 to 2014--a period coinciding with the 
worse economic crisis since the Great Depression--the price of the 
average round-trip domestic flight increased nearly 16 percent to 
$291.30.\24\
---------------------------------------------------------------------------
    \22\ Koeing, David and Mayerowitz, Scott. ``U.S. airports 
increasingly dominated by 1 or 2 carriers,'' USA Today. July 15, 2015. 
Online: https://www.usatoday.com/story/todayinthesky/2015/07/15/us-
airports-increasingly-dominated-by-1-or-2-carriers/30152927/
    \23\ IdeaWorks. 2016 Yearbook of Ancillary Revenue. September 2016. 
Page 4. Online: http://www.ideaworkscompany.com/wp-content/uploads/
2016/09/2016-Ancillary-Revenue-Yearbook-R.pdf
    \24\ Nicas, Jack. ``Airline Consolidation Hits Smaller Cities 
Hardest,'' Wall Street Journal. September 10, 2015. Online: https://
www.wsj.com/articles/airline-consolidation-hits-smaller-cities-hardest-
1441912457
---------------------------------------------------------------------------
    Unfortunately for consumers, these independent studies show that 
amid declining customer service standards, the cost to travel by air is 
only increasing. If trends continue, we fear that air travel may soon 
become unaffordable for many Americans.

                                  [all]
                                  
                                  
                                  
                                  
</pre></body></html>
